NO. ________
IN THE

Supreme Court of the United States
SEATTLE’S UNION GOSPEL MISSION,
Petitioner,
v.
MATTHEW S. WOODS,

Respondent.

On Petition for Writ of Certiorari to the
Supreme Court of Washington
PETITION FOR A WRIT OF CERTIORARI
NATHANIEL L. TAYLOR
ABIGAIL J. ST. HILAIRE
ELLIS, LI & MCKINSTRY
PLLC
1700 Seventh Ave.,
Suite 1810
Seattle, WA 98101
(206) 682-0565

KRISTEN K. WAGGONER
JOHN J. BURSCH
Counsel of Record
RORY T. GRAY
ALLIANCE DEFENDING
FREEDOM
440 First Street, N.W.
Suite 600
Washington, D.C. 20001
(616) 450-4235
jbursch@ADFlegal.org

Counsel for Petitioner

i
QUESTIONS PRESENTED
Petitioner Seattle’s Union Gospel Mission is a
nonprofit that exists to preach the gospel of Jesus
Christ. Mission employees—all of whom must share
and live out its beliefs—do so by meeting the needs of
the homeless and evangelizing to them.
One of the Mission’s many ministries is Open Door
Legal Services, a legal clinic that assists those in
Mission recovery programs and other vulnerable
community members. Respondent Matthew Woods
applied for an Open Door position with the stated
intent of changing the Mission’s religious beliefs and
without satisfying the prerequisites of regular church
attendance, a pastor’s recommendation, and an
explanation of his relationship with Jesus. Woods
sued when the Mission hired a coreligionist instead.
A state trial court ruled for the Mission, noting
that it is exempt from state non-discrimination law.
But the Washington Supreme Court held that exemption violated the state constitution as-applied and
declared the Mission’s First Amendment rights limited to the ministerial exception, creating a split with
six Courts of Appeals. The questions presented are:
1. Whether the First Amendment protects the
Mission’s right to hire coreligionists.
2. Whether denying the Mission a total exemption
the state grants to secular, small businesses violates
the Free Exercise Clause.
3. Whether the Washington Supreme Court
violated the Free Exercise Clause by showing at least
a “slight suspicion” of hostility to religious beliefs in
deleting a total exemption the legislature bestowed.

ii
PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE
Petitioner Seattle’s Union Gospel Mission is a
Washington nonprofit organization, which the IRS
places in the same tax-exempt category as a church.
It has no parent corporation and no publicly held
company owns 10% or more of its stock.
Respondent Matthew S. Woods is an individual
and citizen of Washington.
LIST OF ALL PROCEEDINGS
Supreme Court of Washington, No. 96132-8,
Woods v. Seattle’s Union Gospel Mission, judgment
entered Mar. 4, 2021.
Superior Court of King County, Washington, No.
17-2-29832-8, Woods v. Seattle’s Union Gospel
Mission, judgment entered July 9, 2018.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ....................................... i
PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE .............................. ii
TABLE OF AUTHORITIES ..................................... ix
DECISIONS BELOW................................................. 1
STATEMENT OF JURISDICTION .......................... 1
PERTINENT CONSTITUTIONAL,
STATUTORY, AND REGULATORY
PROVISIONS........................................................ 1
INTRODUCTION ...................................................... 2
STATEMENT OF THE CASE ................................... 6
A. Seattle’s Union Gospel Mission’s beliefs,
work, and employment policies....................... 6
B. The Mission’s legal services ministry and
staff attorney position ..................................... 8
C. Woods’s application ......................................... 9
D. Lower court proceedings ............................... 10

iv
REASONS FOR GRANTING THE WRIT............... 16
I. The United States has long protected religious
nonprofits’ First Amendment autonomy to
hire coreligionists................................................ 18
A. The Legislative Branch ................................. 18
B. The Executive Branch ................................... 20
C. The Judicial Branch ...................................... 22
II. The Washington Supreme Court’s rejection of
the coreligionist doctrine creates a square 6-1
split. ..................................................................... 26
III.As rewritten by the Washington Supreme
Court, Washington’s law violates the Free
Exercise Clause by granting a broader
exemption to secular, small businesses than it
does to religious groups. ..................................... 30
IV. The Washington Supreme Court’s ruling
shows substantial hostility towards the
Mission’s religious beliefs and religious
exemptions generally. ......................................... 32
V. This case is an ideal vehicle to resolve a
conflict with dire ramifications for houses of
worship and other religious nonprofits. ............. 37
CONCLUSION ......................................................... 40

v
APPENDIX TABLE OF CONTENTS
Washington Supreme Court En Banc
Opinion
March 4, 2021 ........................................................... 1a
King County Superior Court
Letter Order Granting Summary Judgment
June 25, 2018 (CP169-72) ...................................... 61a
King County Superior Court
Order Granting Summary Judgment
July 9, 2018 (CP173-75) ......................................... 68a
Washington Supreme Court
Order Granting Direct Review
April 3, 2019 ........................................................... 71a
42 U.S.C. 2000e-1 ................................................... 73a
42 U.S.C. 2000e-2 ................................................... 73a
42 U.S.C. 12112(a) ................................................. 75a
42 U.S.C. 12113(d) ................................................. 75a
Excerpts of RCW 49.60.040 ................................... 76a
Excerpts of RCW 49.60.180 ................................... 76a
Excerpts from Plaintiff’s Statement of
Grounds for Direct Review
Filed on August 8, 2018 ......................................... 77a

vi
Excerpts from Amended Brief of Appellant
filed November 8, 2018 .......................................... 78a
Excerpts from Brief of Respondent
filed December 7, 2018 ........................................... 81a
Excerpts from Reply Brief of Appellant
filed February 5, 2019 ............................................ 87a
Excerpts from Respondent’s Answer to Amicus
Briefs of WELA, ACLU, and Center for Justice
filed September 24, 2019 ....................................... 89a
Complaint filed November 16, 2017 (CP1-7) ........ 96a
Excerpts from Answer
filed December 7, 2017 (CP15-16) ....................... 104a
Stipulation of the Parties
filed May 15, 2018 (CP 477-78) ........................... 106a
Excerpts from Defendant’s Motion
for Summary Judgment
filed May 18, 2018 (CP58-62) .............................. 108a
Declaration of Terry Pallas in Support of
Defendant’s Motion for Summary Judgment
filed May 18, 2018 (CP63-67) .............................. 113a
Declaration of David Mace in Support of
Defendant’s Motion for Summary Judgment
filed July 26, 2018 (CP371-74)............................. 119a

vii
Excerpts from Plaintiff’s Opposition to
Defendant’s Motion for Summary Judgment
filed June 4, 2018 (CP93-97)................................ 123a
Declaration of Matt Woods in Support of
Opposition to Defendant’s Motion for Summary
Judgment (CP111-15) .......................................... 127a
Excerpts from Deposition of Terry Pallas
(CP695-709) .......................................................... 129a
Excerpts from Deposition of David Mace
(CP727-41; CP151-53) .......................................... 141a
Articles of Incorporation for Union Gospel
Mission Association of Seattle
(Article I through III) (CP71-72) ......................... 150a
Mission Website, About Us (CP77) ..................... 152a
Mission Website, Statement of Faith (CP82) ...... 153a
Excerpts from Association of Gospel Rescue
Mission Webpage (CP454-56) .............................. 155a
Excerpts from Mission’s Employee Handbook
(CP350-64) ............................................................ 157a
IRS Tax-Exempt Letter
dated February 27, 1998 (CP231)........................ 163a
IRS Tax-Exempt Letter
dated April 24, 2003 (CP79-80) ........................... 166a

viii
Excerpts from Christian Legal Society
Recommendations (CP380-90) ............................. 169a
Email from Mace to ODLS Volunteers dated
October 4, 2016 Regarding Job Vacancy
(CP122) ................................................................. 174a
Staff Attorney Position Description
(CP401-03) ............................................................ 175a
Emails between Baier and Woods dated
October 2016 (CP124-25) ..................................... 181a
Emails between Mace and Woods dated
October 2016 (CP405) .......................................... 184a
Woods’s Staff Attorney Application
(CP131-33) ............................................................ 186a
Woods’s Cover Letter (CP135) ............................. 195a
Email from Mace to Woods dated
November 9, 2016 (CP756) .................................. 197a
Declaration of Alissa Baier in Support of
Defendant’s Motion for Summary Judgment
filed July 26, 2018 (CP321-323)........................... 199a
50 State Survey of Religious Exemptions ........... 202a

ix
TABLE OF AUTHORITIES
Cases
Americans for Prosperity Foundation v. Bonta,
141 S. Ct. 2373 (2021) .......................................... 24
Board of Jewish Education,
210 N.L.R.B. 1037 (1974) .................................... 21
Calvary Chapel Dayton Valley v. Sisolak,
140 S. Ct. 2603 (2020) .......................................... 32
Church of the Lukumi Babalu Aye, Inc. v.
Hialeah,
508 U.S. 520 (1993) .............................................. 31
Corporation of Presiding Bishop of Church of
Jesus Christ of Latter-Day Saints v. Amos,
483 U.S. 327 (1987) ........................................ 16, 23
Curay-Cramer v. Ursuline Academy of
Wilmington,
450 F.3d 130 (3d Cir. 2006) ................................. 27
EEOC v. Mississippi College,
626 F.2d 477 (5th Cir. 1980) ................................ 28
Employment Division v. Smith,
494 U.S. 872 (1990) .............................................. 30
Espinoza v. Montana Department of Revenue,
140 S. Ct. 2246 (2020) .................................... 34, 37
Fulton v. City of Philadelphia,
141 S. Ct. 1868 (2021) .................................... 30, 31
Hall v. Baptist Memorial Health Care Corp.,
215 F.3d 618 (6th Cir. 2000) ................................ 28

x
Hosanna-Tabor Evangelical Lutheran Church &
School v. EEOC,
565 U.S. 171 (2012) ....................................... passim
Kedroff v. St. Nicholas Cathedral of Russian
Orthodox Church in North America,
344 U.S. 94 (1952) ................................................ 22
Kennedy v. St. Joseph’s Ministries, Inc.,
657 F.3d 189 (4th Cir. 2011) ................................ 28
Killinger v. Samford University,
113 F.3d 196 (11th Cir. 1997) .............................. 29
Lawrence v. Texas,
539 U.S. 558 (2003) .............................................. 12
Little v. Wuerl,
929 F.2d 944 (3d Cir. 1991) ................................. 27
Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights Commission,
138 S. Ct. 1719 (2018) ................................... passim
Mikkelsen v. Public Utility Dist. No. 1,
404 P.3d 464 (Wash. 2017) .................................. 11
New York v. Cathedral Academy,
434 U.S. 125 (1977) .............................................. 22
NLRB v. Canning,
573 U.S. 513 (2014) .............................................. 21
NLRB v. Catholic Bishop of Chicago,
440 U.S. 490 (1979) .............................................. 22
Obergefell v. Hodges,
576 U.S. 644 (2015) ........................................ 12, 37
Ockletree v. Franciscan Health System,
317 P.3d 1009 (Wash. 2014) .......................... 32, 33

xi
Our Lady of Guadalupe School v. MorrisseyBerru,
140 S. Ct. 2049 (2020) .................................... 24, 25
Presbyterian Church in United States v. Mary
Elizabeth Blue Hull Memorial Presbyterian
Church,
393 U.S. 440 (1969) .............................................. 22
Roberts v. Dudley,
993 P.2d 901 (Wash. 2000) .................................. 31
Roman Catholic Diocese of Brooklyn v. Cuomo,
141 S. Ct. 63 (2020) .............................................. 30
Rostker v. Goldberg,
453 U.S. 57 (1981) ................................................ 20
Spencer v. World Vision, Inc.,
633 F.3d 723 (9th Cir. 2011) .......................... 29, 37
St. Edmund’s Roman Catholic Church,
337 N.L.R.B. 1260 (2002) .................................... 21
Tandon v. Newsom,
141 S. Ct. 1294 (2021) ...................................... 5, 30
Texas Monthly, Inc. v. Bullock,
489 U.S. 1 (1989) .................................................. 23
Watson v. Jones,
13 Wall. 679 (1871) .............................................. 22
Statutes
28 U.S.C. 1257(a) ....................................................... 1
42 U.S.C. 12113(d)(1) ............................................... 19
42 U.S.C. 2000e-1 ..................................................... 19
42 U.S.C. 2000e-2 ............................................... 18, 19

xii
42 U.S.C. 2113(d)(2) ................................................. 19
Pub. L. No. 88-352, 78 Stat. 241 ........................ 18, 19
Pub. L. No. 92-261, 86 Stat. 103 .............................. 19
RCW 49.60.040(11) .................................................. 30
Other Authorities
31 O.L.C. 162 (2007) ................................................ 16
EEOC Compliance Manual, Section 12:
Religious Discrimination,
https://perma.cc/6A32-QF3H ............................... 21
Final Bill Report,
https://perma.cc/994C-FCQD ........................ 26, 34
Memorandum from the Attorney General on
Federal Law Protections for Religious
Liberty (Oct. 6, 2017),
https://perma.cc/6S85-GAK3 ............................... 21
Seattle’s Union Gospel Mission, Who are we?,
https://perma.cc/RMT6-PBZ9 .............................. 38
Regulations
43 Fed. Reg. 49,240 (Oct. 20, 1978) ......................... 20
82 Fed. Reg. 49,668 (Oct. 26, 2017) ......................... 21
85 Fed. Reg. 79,324 (Dec. 9, 2020) ..................... 16, 20
Exec. Order No. 11246, 30 Fed. Reg. 12319
(Sept. 28, 1965) .................................................... 20
Exec. Order No. 11375, 32 Fed. Reg. 14303
(Oct. 17, 1967) ...................................................... 20
Exec. Order No. 13279, 67 Fed. Reg. 77,141
(Dec. 16, 2002) ...................................................... 20

1
DECISIONS BELOW
The Superior Court of King County’s unreported
opinion is reprinted in the Appendix (“App.”) at
App.61a–67a, and its order granting Petitioner’s
motion for summary judgment at App.68a–70a.
The Washington Supreme Court’s opinion
reversing the judgment is reported at 481 P.3d 1060
(Wash. 2021), and reprinted at App.1a–60a.
STATEMENT OF JURISDICTION
Petitioner timely files this petition from the
Washington Supreme Court’s March 4, 2021 decision.
This Court has jurisdiction under 28 U.S.C. 1257(a).
PERTINENT CONSTITUTIONAL,
STATUTORY, AND REGULATORY
PROVISIONS
The First Amendment to the United States
Constitution provides, in relevant part: “Congress
shall make no law respecting an establishment of
religion, or prohibiting the free exercise thereof.”
The Fourteenth Amendment to the United States
Constitution provides, in relevant part: “[N]or shall
any State deprive any person of life, liberty, or
property, without due process of law.”
Excerpted Washington constitutional provisions
and statutes appear at App.76a. Excerpted federal
statutes are included at App.73a–75a.

2
INTRODUCTION
The Constitution’s coreligionist exemption—
recognized by the federal government and six circuits
but not the Washington Supreme Court—allows
religious organizations to condition employment on
adherence to religious tenets so that religious groups
can maintain self-identifying communities of likeminded believers. The exemption is crucial for free
exercise to thrive; after all, a religious nonprofit’s
purpose will be undermined if it is forced to hire those
who subvert the group’s religious beliefs.
Yet that is the position in which Petitioner
Seattle’s Union Gospel Mission finds itself. The
Mission is a nonprofit ministry that loves and cares
for its homeless neighbors throughout greater
Seattle. From a borrowed soup kettle used to care for
those suffering from the Great Depression in 1932,
the Mission has grown to serve and love over a
thousand homeless individuals each day.
The Mission is about far more than providing for
material needs. Its primary purpose is to bring the
love of Jesus Christ and hope for a new life to those
who most need it. The Mission seeks nothing less than
to see every homeless neighbor loved, redeemed, and
restored by meeting urgent physical needs while
building relationships and offering faith.
This approach is spectacularly successful. Two
years after program completion, 70% of Mission
clients are working or going to school full time. The
Mission understands that success to be rooted in its
evangelism, a success that would quickly end if
employees undermined the organization’s religious
convictions.

3
The Washington Supreme Court takes a different
view. Even though Washington’s Title VII analogue
expressly excludes non-profit religious organizations
from its definition of “employer” and has done so since
the law was passed over 50 years ago, the court held
the statutory exemption unconstitutional as applied
to a nonprofit that seeks to hire coreligionists—effectively rewriting the law. The Washington Supreme
Court demands that religious nonprofits hire those
who disagree with and seek to change the nonprofit’s
beliefs for any job outside the ministerial exception.
The job here was a staff attorney in the Mission’s
legal-aid clinic, a position that involves talking with
clients about Jesus and attending worship services
and prayer meetings in addition to providing legal
advice. Respondent Matthew Woods received the
position notice and contacted a current staff attorney
for information, disclosing he was in a sexual
relationship that violated the Mission’s religiouslifestyle requirements. When told that would bar
employment, Woods applied anyway to “protest”
those requirements and the Mission’s religious
beliefs. Woods’s application described no personal
relationship with Jesus Christ, disclosed that Woods
was not active in a local church, did not provide his
pastor’s name and contact information as the Mission
required, and included a cover letter asking the
Mission to “change” its religious practices.
Though the Mission tried to help Woods find a
position with a secular legal clinic, Woods sued after
the Mission hired a coreligionist candidate. A
Washington state trial court dismissed the action,
holding that the Mission fell squarely within the
statutory exemption for religious nonprofits.

4
Demeaning the Mission’s pleas for religious
autonomy as an excuse to discriminate, the Washington Supreme Court overrode the statutory exemption
and held that the Mission has no First Amendment
right to hire coreligionists. As a result, Washington
law now requires houses of worship and other
religious nonprofits to employ those who contradict
the beliefs they were created to foster unless a
position qualifies for the ministerial exception. This
threatens to extinguish religious nonprofits like the
Mission that are organized around and designed to
promote a shared set of religious beliefs.
This leveling of religious nonprofits’ autonomy and
diluting of their doctrines was shocking. The Washington Supreme Court disagreed with the Mission’s
religious beliefs on matters of sexual behavior and
thus jumped statutory and constitutional hurdles to
ensure that ideological opponents could coopt nonministerial positions and undermine the Mission’s
religious teachings. Unless this Court intervenes,
anyone will be able to demand a job while
contradicting a religious organization’s core beliefs,
and faith-based nonprofits will lose their autonomy to
freely associate without state interference.
The federal government and Third, Fourth, Fifth,
Sixth, Ninth, and Eleventh Circuits have all
recognized that the First Amendment protects
religious nonprofits’ right to hire coreligionists. So
should this Court, just as it relied on a long line of
lower-court decisions to recognize the ministerial
exception in Hosanna-Tabor Evangelical Lutheran
Church & School v. EEOC, 565 U.S. 171, 188 (2012).

5
The Court should do so now because religious
nonprofits’ ability to live their faith is at stake. The
Mission is subject to potential damages, declaratory
and injunctive relief, and attorney fees merely
because it declined to hire someone whose religious
beliefs differ sharply from its own. Though the
Mission has stood firm, many churches and other
religious nonprofits cannot survive years of invasive
litigation and potential legal liability. To avoid these
injuries, they are likely to self-censure or end their
ministries, harming the people they serve. Because
statutory exceptions are no longer enough to protect
religious organizations’ right to hire those who share
and live out their beliefs, the Court should grant
review and hold that the First Amendment mandates
the coreligionist exemption.
There are two additional problems worthy of
review. First, Washington’s judicially-rewritten
employment law now grants a broader exemption to
small, secular businesses than it does the Mission,
violating Tandon v. Newsom, 141 S. Ct. 1294 (2021)
(per curiam). Second, by denigrating the Mission’s
faith, maligning the statutory religious exemption as
a “license to discriminate,” and suggesting that
religious people cannot satisfy lawyers’ ethical
obligations, the court below showed far more than the
“slight suspicion” of religious animus that
Masterpiece Cakeshop, Ltd. v. Colorado Civil Rights
Commission, 138 S. Ct. 1719, 1731 (2018), condemns.
This Court should grant review, resolve the
conflict, and uphold the right to hire coreligionists. At
a minimum, the Court should summarily reverse and
direct entry of judgment for the Mission.

6
STATEMENT OF THE CASE
A. Seattle’s Union Gospel Mission’s beliefs,
work, and employment policies
Seattle’s Union Gospel Mission has been offering
hope to hurting people for almost 90 years. App.159a.
Not only is the Mission tax-exempt, the IRS categorizes it equivalent to a church under 26 U.S.C.
170(b)(1)(A)(i). App.163a–168a. The Mission is a
“[p]assionate community of people who follow Christ
in his relentless, redeeming love for all people.”
App.152a. It staffs over 20 ministries that seek “to
serve, rescue, and transform those in greatest need
through the grace of Jesus Christ” by “providing 24/7,
360-degree support services for homeless people in
King County.” App.114a, 152a.
Providing food, shelter, addiction-recovery, job
placement, and legal services shows Christ’s love to
Seattle’s vulnerable. Through ministries like these,
Mission staff serve the homeless, pray with them, and
discuss matters of faith. App.115a. Everything they
do is to “inspire hope, bring healing, and point people
to a new life through Jesus Christ.” App.138a, 152a.
The Mission takes seriously the Bible’s teaching that
it does people no good “to gain the whole world and
forfeit [their] soul[s]” (Mark 8:36). App.114a. Indeed,
the Mission’s articles of incorporation dictate its
purpose as “preaching of the gospel of Jesus Christ by
conducting rescue mission work” and mandate that
all other activities “be kept entirely subordinate and
only taken on so far as seems necessary or helpful to
the [Mission’s] spiritual work.” App.151a.

7
The Mission belongs to the Citygate Network
(formerly the Association of Gospel Rescue Missions),
a group of roughly 300 North American ministries.
App.155a. Each ministry adheres to a similar
statement of faith, code of conduct, and code of ethics.
App.132a–133a, 155a–56a. They join forces to offer
“hospitality to the destitute as both a catalyst for life
transformation in Jesus and a fundamental expression of their Christian faith, thus propelling the
church into the lead role in society’s quest to alleviate
homelessness.” App.156a.
The Mission expresses its religious beliefs and
accomplishes its religious purpose through its fulltime employees, App.115a, who serve as the Mission’s
hands, feet, and mouthpieces. Consequently, the
Mission requires paid staff and high-impact
volunteers to affirm its statement of faith which
declares, in part, that “the Bible is the inspired,
infallible, authoritative Word of God.” App.116a,
153a. Its employee handbook requires staff to abide
by the Mission’s understanding of the Bible’s
teachings by—for instance—refraining from “[a]cts or
language which are considered immoral or indecent
according to traditional biblical standards,” including
“extra-marital affairs, sex outside of marriage, [and]
homosexual behavior.” App.160a, 162a.
Hiring those who live out the Mission’s religious
beliefs is crucial to its ministries’ success. The Mission
firmly believes that Jesus is “the ultimate source of
healing and hope.” App.114a. Its goal is not just to
care for the homeless but to lead them out of despair,
addiction, and trauma to a new life in Christ.
App.152a. And that new life begins when clients
experience Christ’s love and surrender their lives to

8
God. Every Mission employee’s primary responsibility
is to model and share this faith to everyone. Staff who
reject biblical teaching cannot credibly urge others to
surrender to God. App.115a–116a; App.35a–36a n.2
(Stephens, J., dissenting in part).
B. The Mission’s legal services ministry and
staff attorney position
One of the Mission’s ministries is Open Door Legal
Services, a legal-aid clinic where staff attorneys and
volunteers help resolve warrants, child support
orders, debt collection, and other issues impacting the
Mission’s homeless neighbors. App.119a–120a. Staff
attorneys are the primary contact and form ongoing
relationships with Mission clients, collaborating with
Mission caseworkers. App.120a. Like all employees,
staff attorneys talk about their faith, often pray with
clients, and tell them about Jesus. App.120a, 130a–
31a, 138a, 199a–200a. They also participate in
regular Mission worship services, prayer meetings,
staff meetings (including prayer and devotionals),
trainings, and other events. App.120a–21a.
Open Door is one of over 70 legal clinics affiliated
with the Christian Legal Society. App.121a. These
clinics serve the “legal and certain spiritual needs of
the poor, including evangelizing them, in a Christ
honoring way.” App.173a. Open Door’s purpose is to
see “Gospel transformation in the lives of its clients.”
App.117a. And experience proves that compassionate
legal ministry has led hurting people to follow Christ.
App.171a–173a. Staff attorneys’ legal work is “intricately intertwined with [the Mission’s] spiritual
ministry” and their “personal relationship with Jesus
is essential to th[e] job.” App.200a.

9
In 2016, the Mission expanded Open Door, and a
staff attorney position became available. Open Door
sent a position notice to friends and volunteers,
including Woods (a former summer intern and
volunteer), that included numerous religious criteria,
including (1) agreement with the Mission’s statement
of faith, mission-and-vision statement, and core
values, (2) an active church/prayer life, (3) readiness
to practice law in a manner that honors and glorifies
God, and (4) eagerness to “share the gospel of Jesus
Christ.” App.174a, 178a.
C. Woods’s application
After receiving the notice, Woods contacted a
current staff attorney for information, disclosed he
identified as bisexual and was in a same-sex
relationship, and inquired whether that posed an
obstacle to employment. App.181a–182a, 200a–01a.
The staff attorney provided Woods with the Mission’s
religious-lifestyle requirements and recommended he
contact Open Door’s director with questions. Ibid.
Shortly thereafter, Woods sent the director an
email (1) noting the Mission’s expectation that
employees “live by a Biblical moral code that excludes
homosexual behavior,” (2) disclosing “I currently have
a boyfriend and can see myself getting married and
starting a family with another man someday,” and
(3) asking “what impact that should have on pursing
employment at” the Mission. App.184a–185a. The
director quoted the employee handbook and explained
that Woods was correct about the Mission’s lifestyle
expectations. App.184a. Though Woods was not “able
to apply,” the director wished him well and expressed
a desire to meet. Ibid.

10
Woods applied anyway to “protest” the Mission’s
religious beliefs and lifestyle requirements. App.127a.
Woods’s application affirmed the Mission’s statement
of faith but described no personal relationship with
Jesus Christ, instead focusing on social-justice issues.
It disclosed that Woods was not active in a local
church; Woods was therefore unable to provide his
pastor’s name and contact information as requested.
App.189a–191a. Woods’s cover letter asked the
Mission to “change” its religious practices. App.195a.
Open Door’s director met Woods for lunch and
confirmed the Mission could not change its theology.
App.147a. Because Woods did not comply with the
Mission’s religious lifestyle requirements, have an
active church life, or exhibit a passion for helping
clients develop a personal relationship with Jesus, his
application was not viable. App.117a–118a, 129a,
139a–140a, 147a, 177a. The Mission selected another
candidate who met its religious criteria. Yet the
Mission continued reaching out to Woods: Open
Door’s director sent Woods a secular legal clinic’s job
posting and tried connecting him with the Mission’s
chief program officer, an ordained minister.
App.122a, 197a–98a.
D. Lower court proceedings
Woods sued in the Superior Court of King County,
alleging the Mission violated Washington’s Law
Against Discrimination (WLAD), which forbids
sexual-orientation discrimination in employment.
App.101a. He did so despite the Washington Legislature’s express exclusion of “any religious or sectarian organization not organized for private profit” from
the WLAD’s “employer” definition. App.76a. Woods

11
claimed the religious exemption is “unconstitutional”
because the staff attorney job is “wholly unrelated to
[the Mission’s] religious practices or activities.”
App.102a. He sought damages, declaratory and
injunctive relief, and attorney fees. App.102a.
In answer, the Mission pointed to the WLAD’s
religious exemption and stressed that entertaining
Woods’s case or granting his requested relief would
violate the First Amendment’s Religion Clauses.
App.104a–105a. The Mission later moved for
summary judgment because it was statutorily exempt
from Woods’s lawsuit and the case should be
dismissed, since additional discovery and trial would
violate the First Amendment.1 App.108a–112a.
The trial court agreed, granting the Mission
summary judgment. App.68a–69a. It (1) harbored “no
doubt that the Mission is a religious organization,”
(2) found ample support for the Mission’s claim that
an Open Door staff attorney’s “job duties extend
beyond legal advice to include spiritual guidance and
praying with the clients,” and (3) noted the Mission
“put applicants on notice” that employees must
“accept the Mission’s Statement of Faith, which
references the Bible as ‘the inspired, the infallible,
authoritative Word of God’ as well as other
Evangelical Christian doctrines.” App.64a–67a.
For summary-judgment purposes only, the Mission stipulated
that “if [it] were a secular employer, plaintiff would have
established a prima facie case of sexual orientation
discrimination under” Washington’s burden-shifting framework,
App.107a, which only requires an employer to articulate “a
legitimate, nondiscriminatory reason” for its actions. Mikkelsen
v. Pub. Utility Dist. No. 1, 404 P.3d 464, 473 (Wash. 2017).

1

12
The Washington Supreme Court granted Woods’s
petition for direct review. App.71a–72a. Woods
argued that the WLAD’s religious exemption “must be
narrowed to protect the other fundamental rights
embodied by the statute,” App.80a, i.e., confined to
the ministerial exception, App.87a–88a. This was
doubly true, Woods said, because expecting staff
attorneys to share the Gospel violates Washington’s
Rules of Professional Conduct. App.79a–80a.
The Mission stressed that pretending the WLAD’s
religious “exemption did not exist . . . would violate
the Mission’s rights under the First Amendment.”
App.84a. The state cannot “force a church to hire
employees who do not agree with or respect its
religious beliefs.” App.85a. “[I]t is for the Mission, not
a court, to determine whether Mr. Woods would fairly
express the Mission’s religious message.” App.82a.
Religious hiring requirements like these, the Mission
stressed, are constitutionally protected App.91a–95a.
The Washington Supreme Court ruled for Woods
and reversed 9-0. It framed the issue as whether the
WLAD’s religious exemption violated the Washington
Constitution’s privileges and immunities clause
(Wash. Const. art. I, sec. 12), under which courts ask
(a) whether a privilege or immunity implicates a
fundamental right and, if so, (b) whether that
distinction is based on reasonable grounds. App.1a–
60a. A six-justice majority held the WLAD exemption
implicated two fundamental rights under federal law:
“the right to an individual’s sexual orientation and
the right to marry.” App.9a–10a (citing Lawrence v.
Texas, 539 U.S. 558 (2003), and Obergefell v. Hodges,
576 U.S. 644 (2015)).

13
Even though “reasonable grounds exist for WLAD
to distinguish religious and secular nonprofits”
facially, the majority held the exemption would “still
be unconstitutional as-applied to Woods” unless
limited to the ministerial exception. App.12a–21a.
Then, after citing a laundry list of reasons the
ministerial exception did not apply, the majority
remanded for “the trial court to determine whether
staff attorneys can qualify as ministers.” App.21a–
22a.
The majority based its holding on three
unexplained assumptions: (1) the Washington Legislature lacked “reasonable grounds” to protect all
religious nonprofits’ right to hire coreligionists,
App.14a; (2) courts are required to “balance” or adjust
religious nonprofits’ constitutional rights in light of
applicants’ statutory right to non-discrimination in
employment (such as the right “to one’s sexual
orientation”), App.2a, App.14a. 19a–22a; and
(3) religious nonprofits’ First Amendment rights in
the employment context are limited to the
“ministerial exemption,” App.14a, 19a–20a.
A two-Justice concurrence, cited approvingly by
the majority, illuminates the court’s rationale.2
App.21a–22a & n.6. First, the concurrence belittled
the Mission’s First Amendment right to hire
coreligionists as a “license to discriminate.” App.24a–
25a.

The concurrence’s author, Justice Yu, also joined the majority
opinion.

2

14
Second, it suggested that the legislature lacked
“reasonable grounds” to protect the Mission’s
religious liberty because the Mission “cannot enjoy a
free exercise right to discriminate against an
employee who performs nonreligious duties” and
expressed that it was the concurrence’s “greatest
hope” that, in the interest of “eradicating discrimination and [ ] fostering a diverse workforce,” religious
nonprofits would hire based on religious doctrines
only when “absolutely necessary.” App.24a–25a.
Third, the concurrence insisted that the First
Amendment protects only religious nonprofits’ “choice
of ministers (not [their] choice of nonministers),” and
it encouraged nonprofits not to exercise that right.
App.25a (the ministerial exception is “not a
mandate”).
Last, the concurrence emphasized the Washington
Supreme Court’s “final authority over the practice of
law and legal ethics in Washington” and declared it
“not possible to simultaneously act as both an attorney and a minister while complying with the” Rules
of Professional Conduct. App.28a–29a. The Mission,
the concurrence concluded, could not require an
“attorney to serve as minister and attorney at the
same time,” jeopardizing religious organizations’
right to have on staff a lawyer—or any other
professional with ethical duties—who shares the
group’s beliefs. App.30a. All this despite Woods’s
concession that staff attorneys can evangelize and
still be lawyers. App.79a n.4 (“the record clearly
reflects that SUGM’s legal advice to clients is not
influenced by religious ministration”).

15
Two justices went even further and dissented in
part. They would have held the WLAD’s religious
exemption facially invalid under the state privilegesand-immunities clause. App.32a. Even though “the
state and federal constitutions afford protections for
religious freedom,” the dissent said those protections
apply “only in the narrow context of ministerial
employment,” a constitutional exemption the dissent
also scorned as a “privilege to discriminate.” App.32a–
33a, 42a, 48a.
The “dissent” recognized that the Mission “broadly
assert[ed] [that] application of WLAD to its employment decision would violate its free exercise rights
under the First Amendment” and had not limited
itself to the argument that “its lawyers are ministers.”
App.50a–51a. But it rejected these “asserted defenses
under the First Amendment to the United States
Constitution except . . . the ministerial exemption,”
just as the majority and concurrence had done,
App.38a, even while recognizing that limiting the
Mission’s ability to hire coreligionists would
“substantially burden[ ] the exercise of [the Mission’s]
belief.” App.56a.

16
REASONS FOR GRANTING THE WRIT
The coreligionist exemption “alleviates the burden
of government interference with . . . religious organizations’ missions,”3 as this Court recognized in
upholding Title VII’s religious-employer exemption in
Corporation of Presiding Bishop of Church of Jesus
Christ of Latter-Day Saints v. Amos, 483 U.S. 327, 336
(1987). This “Court’s opinion in Amos, together with
Justice Brennan’s concurring opinion in the case,
indicates that prohibiting religious organizations
from hiring only coreligionists can impose a significant burden on their exercise of religion, even as
applied to employees in programs that must, by law,
refrain from specifically religious activities.” 31
O.L.C. 162, 172–73 (2007) (citing Mem. for Brett
Kavanaugh, Assoc. Counsel to the Pres., from Sheldon T. Bradshaw, Deputy Assistant Att’y Gen., Office
of Legal Counsel) (cleaned up). And this is true even
of religious organizations whose charitable work is
not designed to inculcate a particular faith. Ibid.
For Seattle’s Union Gospel Mission—which is first
and foremost a “gospel” mission—the Washington
Supreme Court’s rejection of the coreligionist doctrine
is an existential threat. If the Mission cannot hire
coreligionists, it must make the untenable choice of
disavowing its faith or ending its evangelization of its
homeless neighbors. And because the Washington
Supreme Court has already signaled to its lower
courts that lawyers cannot be ministers, the Mission

Implementing Legal Requirements Regarding the Equal
Opportunity Clause’s Religious Exemption, 85 Fed. Reg. 79,324,
79,344 (Dec. 9, 2020).

3

17
will be stuck defending its beliefs in state-court
litigation for years with the scales tipped against it.
Only this Court can ensure the Mission’s right to
operate as a religious ministry. It should do so to
resolve the split between the Washington Supreme
Court, which does not recognize the coreligionist
doctrine, and six Courts of Appeals, which do. The
risk to the Mission’s very existence, the burdens of
litigation, the Washington Supreme Court’s constricted reading of the First Amendment, and its
attempt to prejudge the result of the Mission’s
defenses all favor this Court’s immediate review of
the federal questions presented. Every Washington
religious nonprofit—including churches—are at risk
of litigation unless this Court intervenes.
At minimum, this Court should reverse the
Washington Supreme Court’s ruling because its
judicially-rewritten version of the WLAD treats the
Mission worse than small secular employers, contrary
to Tandon and Fulton. Washington cannot purport to
solve a state-constitutional problem with a federalconstitutional violation. The lower court also
exhibited not just a “slight suspicion” but substantial
hostility toward the Mission’s religious beliefs and
religious exemption, contrary to Masterpiece. The
court overrode the legislature’s exclusion of religious
nonprofits from the WLAD and flattened religious
autonomy based on disagreement with the Mission’s
beliefs, which justices derided as discriminatory. The
Mission did not receive the neutral decisionmaker the
First Amendment requires.

18
This Court’s prompt intervention is vital to more
than the Mission. Hundreds of religious nonprofits in
Washington and like-minded jurisdictions face the
looming threat of lawsuits for hiring only those
employees who share and exemplify their beliefs. The
Washington Supreme Court’s ruling would force a
Jewish relief agency to hire an atheist director, a
Muslim community center to hire a Satanist
executive assistant, and a Christian church to hire an
atheist website designer. With potential liability for
damages and attorney fees, employment insurance
will likely dry up. And religious organizations will be
forced to choose between faith and mission. Review
could not be more warranted.
I.

The United States has long protected
religious nonprofits’ First Amendment
autonomy to hire coreligionists.

Congressional statutes and executive actions over
nearly 50 years attest that the First Amendment
protects religious nonprofits’ autonomy to hire
coreligionists. The Court’s precedent indicates the
same. This longstanding tradition, established by all
three branches of government, illuminates the First
Amendment’s scope and the Washington Supreme
Court’s error.
A. The Legislative Branch
Federal regulation of private employment began
with Title VII of the Civil Rights Act of 1964. Though
Congress generally barred employers from discriminating based on certain characteristics, Pub. L. No.
88-352, § 703, 78 Stat. 241, 255 (codified at 42 U.S.C.
2000e-2, as amended), it acknowledged constitutional

19
limits from the start. Congress exempted religious
organizations employing “individuals of a particular
religion to perform work connected with [their]
religious activities,” Pub. L. No. 88-352, § 702, 78
Stat. 241, 255 (codified at 42 U.S.C. 2000e-1 as
amended), and certain religious colleges and schools’
employment of “employees of a particular religion,”
Pub. L. No. 88-352, § 703(e)(2), 78 Stat. 241, 256
(codified at 42 U.S.C. 2000e-2 as amended).
Soon recognizing that the First Amendment
demanded more religious autonomy, Congress
enacted the Equal Employment Opportunity Act of
1972 and (1) expanded Title VII’s religious exemption
to include all “work connected with the carrying on by
[religious organizations] of [their] activities”—
religious or not, Pub. L. No. 92-261, § 3, 86 Stat. 103,
103–04 (codified at 42 U.S.C. 2000e-1); and (2) added
language clarifying that “educational institution[s]”
qualify too, ibid. Virtually all states recognize
comparable exemptions. App.202a–51a.
Congress has maintained Title VII’s broad,
coreligionist exemption, a bipartisan consensus that
aligns with what the First Amendment requires. That
consensus also appears in the Americans with
Disabilities Act of 1990 (“ADA”). Congress drafted the
ADA’s exemption to echo Title VII’s and safeguard
religious organizations’ First Amendment right to
“giv[e] preference in employment to individuals of a
particular religion to perform work connected with
the carrying on . . of [their] activities.” 42 U.S.C.
12113(d)(1). This means a religious group “may
require that all applicants and employees conform to
the religious tenets of such organization.” 42 U.S.C.
12113(d)(2).

20
Congress deeply rooted the coreligionist exemption in federal law. And Congress has broadened that
exemption over time, keeping with its understanding
of religious organizations’ First Amendment rights.
That understanding merits deference because
“Congress is a coequal branch of government whose
Members take the same oath [judges] do to uphold the
Constitution of the United States.” Rostker v.
Goldberg, 453 U.S. 57, 64 (1981).
B. The Executive Branch
The Executive Branch also recognizes that
religious organizations have a First Amendment right
to employ coreligionists. Take the general ban on
federal contractors discriminating against employees
based on “creed,” Exec. Order No. 11246, § 202, 30
Fed. Reg. 12319, 12320 (Sept. 28, 1965), later retermed “religion,” Exec. Order No. 11375, § 3, 32 Fed.
Reg. 14303–04 (Oct. 17, 1967). Religious organizations have long enjoyed an exemption, initially
through Department of Labor regulations importing
Title VII’s exemption of religious schools, 43 Fed. Reg.
49,240, 49,243 (Oct. 20, 1978), then through President
George W. Bush’s importation of Title VII’s main
religious exemption, Exec. Order No. 13279, § 4(c), 67
Fed. Reg. 77,141, 77,143 (Dec. 16, 2002), which
Democrat and Republican administrations have
retained for nearly 20 years.
More recently, the Department of Labor confirmed
this exemption allows religious contractors to require
employees’ “adherence to [their] faith’s tenets in word
and deed,” as those “tenets [are] understood by the
employing contractor.” 85 Fed. Reg. 79,324, 79,344–
45 (Dec. 9, 2020). This reading aligns with the

21
memorandum on religious liberty Attorney General
Sessions issued to guide the Executive Branch. The
memo confirms that religious organizations may
“employ only persons whose beliefs and conduct are
consistent with [their] religious precepts.” Mem. from
the Att’y Gen. on Fed. Law Protections for Religious
Liberty at 12a, 14a (Oct. 6, 2017), https://perma.cc/
6S85-GAK3; 82 Fed. Reg. 49,668, 49,677–78 (Oct. 26,
2017) (cleaned up).
The Equal Employment Opportunity Commission
agrees. Its compliance manual highlights that Title
VII’s religious exemption: (1) is not limited to jobs
that involve “specifically religious activities,” but
(2) allows “religious organizations to create and
maintain communities composed solely of individuals
faithful to their doctrinal practices,” which means
(3) religious organizations may employ only those
who share their “religious observances, practices, and
beliefs,” not just the same “self-identified religious
affiliation.” EEOC Compliance Manual, Section 12:
Religious Discrimination, https://perma.cc/6A32QF3H. The National Labor Relations Board (“NLRB”)
also generally declines to “assert jurisdiction over
nonprofit, religious organizations.” St. Edmund’s
Roman Catholic Church, 337 N.L.R.B. 1260, 1260
(2002); accord Bd. of Jewish Educ., 210 N.L.R.B.
1037, 1037 (1974).
Because the Executive Branch implements the
law, it most often puts the First Amendment into
practice. Its “traditional way[ ] of conducting government” respects faith-based organizations’ right to hire
coreligionists. And this practice “can inform [this
Court’s] determination of ‘what the law is.’” NLRB v.
Canning, 573 U.S. 513, 525 (2014) (cleaned up).

22
C. The Judicial Branch
Given federal and state statutory exemptions for
religious organizations, this Court has never had to
decide whether the coreligionist doctrine is constitutionally required. Cf. Hosanna-Tabor, 565 U.S. at 199
(Alito, J., concurring). But precedent suggests it is.
Early on, the Court declared that religious organizations have autonomy to hold or “entertain” their
religious beliefs, “practice [their] religious principle[s],” and “teach [their] religious doctrine.” Watson
v. Jones, 13 Wall. 679, 728 (1871). Later, the Court
grounded these rules in the First Amendment, which
safeguards religious organizations’ “independence
from secular control or manipulation” on “matters of
. . . faith and doctrine.” Kedroff v. St. Nicholas
Cathedral of Russian Orthodox Church in N. Am., 344
U.S. 94, 116 (1952).
The Court has vigorously enforced this freedom.
Ibid. Religious autonomy prevents states from
interpreting “church doctrines and the importance of
those doctrines to the religion,” Presbyterian Church
in U.S. v. Mary Elizabeth Blue Hull Mem’l Presbyterian Church, 393 U.S. 440, 450 (1969), or deciding
“what does or does not have religious meaning,” New
York v. Cathedral Acad., 434 U.S. 125, 133 (1977).
When it comes to employment, the Court barred the
NLRB from exercising jurisdiction over religious
schools where the “challenged actions were mandated
by their religious creeds.” NLRB v. Catholic Bishop of
Chi., 440 U.S. 490, 502 (1979). The NLRB’s inquiry
into—and conclusions regarding—administrators’
“good faith” and the “relationship” between their
policy and the school’s “religious mission” might
otherwise violate the Religion Clauses. Ibid.

23
Most telling is the Court’s unanimous ruling
upholding Title VII’s religious exemption against
Establishment Clause attack. Corp. of the Presiding
Bishop of the Church of Jesus Christ of Latter-Day
Saints v. Amos, 483 U.S. 327 (1987). The Court “recognized that the government may (and sometimes must)
accommodate religious practices,” id. at 334, and
listed ways in which nondiscrimination statutes harm
religious groups’ First Amendment rights: (1) interfering with their ability “to define and carry out their
religious missions,” (2) requiring them “to predict
which of [their] activities a secular court will consider
religious,” and (3) obliging them to alter “the way
[they] carried out [their] religious mission” due to
“potential liability.” Id. at 335–36. Given these constitutional concerns, the majority barred an “intrusive”
analysis into “the nexus between the primary function of the activity [or job] in question” and a religious
group’s “rituals or tenets.” Id. at 331 n.6, 339.
Justice Brennan’s influential concurrence explains that the nature “of nonprofit activity” makes it
improper for the government to decide whether a job
“is religious or secular.” Id. at 340 (Brennan, J.,
concurring). Individuals frequently practice their
faith in community. Id. at 341. So the First Amendment must protect religious organizations’ right to
define themselves by deciding “that certain activities
are in furtherance of [their] religious mission, and
that only those committed to that mission should
conduct them.” Id. at 342. By upholding this right,
Title VII’s religious exemption “prevent[s] potentially
serious encroachments on protected religious
freedoms.” Texas Monthly, Inc. v. Bullock, 489 U.S. 1,
18 n.8 (1989) (plurality opinion).

24
Intrusions such as these likely violate the
Constitution, as demonstrated by this Court’s
ministerial-exception cases. Our Lady of Guadalupe
Sch. v. Morrissey-Berru, 140 S. Ct. 2049, 2061 (2020);
Hosanna-Tabor, 565 U.S. at 188. The First Amendment’s text gives “special solicitude to the rights of
religious organizations,” including (1) the “right to
shape [their] own faith and mission through [their]
appointments,” and (2) freedom from “government
involvement in such ecclesiastical decisions.”
Hosanna-Tabor, 565 U.S. at 188–89.
Justices Alito and Kagan have underscored that
“[r]eligious groups are the archetype of associations
formed for expressive purposes, and their fundamental rights surely include the freedom to choose
who is qualified to serve as a voice for their faith.” Id.
at 200–01 (Alito, J., concurring). Accord Americans for
Prosperity Found. v. Bonta, 141 S. Ct. 2373, 2382
(2021) (recognizing First Amendment’s associational
protections).
Religious groups’ “very existence is dedicated to
the collective expression and propagation of shared
religious ideals.” Hosanna-Tabor, 565 U.S. at 200
(Alito, J., concurring). So “[w]hen it comes to the
expression and inculcation of religious doctrine, there
can be no doubt that the messenger matters.” Id. at
201. That principle is true not only of ministers but of
any representative who disagrees with a religious
organization’s theological views.
Courts designed the ministerial exception to give
religious organizations complete autonomy over a
select group of employees—ministers. Id. at 194–95
(majority opinion). But, as this Court has recognized,

25
the ministerial exception was never intended to
protect religious group’s ability to hire only those who
share its beliefs. Our Lady of Guadalupe, 140 S. Ct.
at 2068–69. That function is served by the
coreligionist exception identified by Title VII and its
analogue in almost every state, App.202a–51a, which
safeguards religious groups’ right to establish faithbased employment rules for all employees but has no
application to secular employment concerns. For
religious organizations like the Mission, that deem
hiring coreligionists essential, the coreligionist
exemption is different than—but equally important
as—the ministerial exception.
Few decisions are as closely linked to religious
nonprofits’ “independence . . . in matters of faith and
doctrine” as their assessment of who is a coreligionist.” Our Lady of Guadalupe, 140 S. Ct. at 2060
(quotation omitted). And this Court’s precedents
indicate that such an “internal management
decision[ ],” “essential to the [Mission’s] central
mission” of forming a community of believers to share
the Gospel, is constitutionally protected. Ibid.
In short, the Washington Supreme Court’s
“intervention into disputes between the [Mission] and
[an applicant it does not regard as a coreligionist]
threatens the [Mission’]s independence in a way that
the First Amendment does not allow.” Id. at 2069. If
governments can compel religious organizations like
the Mission to hire employees who desire to change
the group’s beliefs—Woods’s stated purpose here—
then the Mission’s most fundamental First Amendment freedoms mean nothing.

26
II. The Washington Supreme Court’s rejection
of the coreligionist doctrine creates a
square 6-1 split.
The Washington Supreme Court’s rejection of the
coreligionist doctrine created a 6-1 split with the
Third, Fourth, Fifth, Sixth, Ninth, and Eleventh
Circuits, which recognize the coreligionist doctrine
and its constitutional moorings. Only this Court may
resolve which First Amendment interpretation is
correct.
Washington’s legislature respected religious
nonprofits’ autonomy to employ coreligionists by
excluding them from the WLAD’s definition of
“employer.” App.76a. The legislature specifically
referenced the exemption when adding sexualorientation and gender-identity classifications in
2006, Final Bill Report, https://perma.cc/994C-FCQD.
But the Washington Supreme Court held that the
exemption could not be applied to the Mission’s staffattorney position based on the federal right to “a
sexual orientation” App.9a–10a. Instead, the court
unanimously cabined the Mission’s First Amendment
rights to the ministerial exception. Supra pp.12–15.
Lower federal courts interpret the Religion
Clauses differently. Six circuits agree on the
coreligionist doctrine’s constitutional bedrock. And
their reasoning clarifies why the First Amendment
protects religious nonprofits’ right to employ those
who share their beliefs.

27
The Third Circuit, in an influential decision,
upheld a Catholic school’s right not to renew a
teacher’s contract after she divorced and remarried.
Little v. Wuerl, 929 F.2d 944, 945–46 (3d Cir. 1991).
Applying Title VII would “arguably violate both the
free exercise clause and the establishment clause,” so
the court declined to “forbid religious discrimination
against non-minister employees where the position
involved has any religious significance.” Id. at 947–
48. The Third Circuit found it “difficult to imagine an
area of the employment relationship less fit for
scrutiny by secular courts” than the question of
whether an “employee’s beliefs or practices make her
unfit to advance” a religious nonprofit’s mission. Id.
at 949. It held that Title VII allows religious
organizations “to employ only persons whose beliefs
and conduct are consistent with [their] religious
precepts.” Id. at 951.
Later, the Third Circuit barred a Catholic school
teacher’s claim for sex discrimination after she was
terminated for advocating abortion rights because
how a discrimination claim is labeled does not
determine “whether serious constitutional questions
are raised by applying Title VII.” Curay-Cramer v.
Ursuline Acad. of Wilmington, 450 F.3d 130, 137, 139
(3d Cir. 2006). The First Amendment, the court
advised, forbids “meddling in matters related to a
religious organization’s ability to define the
parameters of what constitutes orthodoxy” or
inquiring “into a religious employers’ religious
mission or the plausibility of its religious justification
for an employment decision.” Id. at 141.

28
The Fourth Circuit agreed that Title VII allows
religious organizations to terminate an employee
whose conduct is inconsistent with its doctrine based,
in part, on “the doctrine of constitutional avoidance.”
Kennedy v. St. Joseph’s Ministries, Inc., 657 F.3d 189,
195 (4th Cir. 2011). It relied on Little to uphold a
Catholic facility’s right to dismiss a nursing assistant
for donning Church-of-the-Brethren attire that
conflicted with the facility’s religious principles.
The Fifth Circuit similarly barred an EEOC sexdiscrimination probe into a religious college involving
a professor denied a full-time position. EEOC v.
Mississippi Coll., 626 F.2d 477, 479–80 (5th Cir.
1980). To avoid “conflicts [with] the religion clauses,”
the court held that if a religious organization
“presents convincing evidence that the challenged
employment practice resulted from discrimination on
the basis of religion,” the EEOC lacks jurisdiction to
investigate “whether the religious discrimination was
a pretext.” Id. at 485.
Of note here, the Sixth Circuit subsequently ruled
against a student-services specialist who was
terminated by a religious college after disclosing she
was a lesbian ordained by an LGBT-friendly church
and declining to accept a different position. Hall v.
Baptist Mem’l Health Care Corp., 215 F.3d 618, 622–
23 (6th Cir. 2000). It reasoned that (1) religious
groups have a “constitutionally-protected interest . . .
in
making
religiously-motivated
employment
decisions,” id. at 623, and (2) courts cannot “dictate to
religious institutions how to carry out their religious
missions or how to enforce their religious practices,”
id. at 626.

29
The Ninth Circuit, in a split ruling, echoed similar
principles in describing why World Vision qualifies
for Title VII’s religious exemption. Judge O’Scannlain
identified “the constitutional briar patch of
distinguishing between the sacred and the secular”
when a religious nonprofit’s “humanitarian relief
efforts” are concerned. Spencer v. World Vision, Inc.,
633 F.3d 723, 731–32 (9th Cir. 2011) (per curiam)
(O’Scannlain, J., concurring). And Judge Kleinfeld
concurred in that statement and underscored that if
government coerces a religious organization to
employ persons “who rejected or even were hostile to
the religions the institutions were intended to
advance, then the shield against discrimination
would destroy the freedom of Americans to practice
their religions.” Id. at 742 (Kleinfeld, J., concurring in
Parts I and II of Judge O’Scannlain’s opinion).
The Eleventh Circuit likewise has held that Title
VII “allows religious institutions to employ only
persons whose beliefs are consistent with the
employer’s when the work is connected with carrying
out the institution’s activities” so as to give disputes
about who teaches at a divinity school “a wide-berth.”
Killinger v. Samford Univ., 113 F.3d 196, 200–01
(11th Cir. 1997). Embracing a broad view of Title VII’s
religious exemption “avoid[ed] the First Amendment
concerns which always tower over [courts] when
[they] face a case that is about religion.” Ibid.
In sum, federal appellate courts would protect the
Mission’s right to employ those it regards as
coreligionists who live out its religious teachings. But
the Washington Supreme Court, with little thought or
explanation, swept this autonomy away.

30
III. As rewritten by the Washington Supreme
Court, Washington’s law violates the Free
Exercise Clause by granting a broader
exemption to secular, small businesses than
it does to religious groups.
Because this is a religious-autonomy case,
Employment Division v. Smith, 494 U.S. 872 (1990),
does not control. Hosanna-Tabor, 565 U.S. at 190.
This Court should review and hold that the coreligionist exception is constitutionally required. But the
petition is worthy of review for additional reasons.
Government regulations “trigger strict scrutiny
under the Free Exercise Clause[ ] whenever they treat
any comparable secular activity more favorably than
religious exercise.” Tandon, 141 S. Ct. at 1296 (citing
Roman Catholic Diocese of Brooklyn v. Cuomo, 141 S.
Ct. 63, 67–68 (2020) (per curiam)). The WLAD gives
an outright exemption for small employers, those
employing seven or fewer persons, which includes
hundreds of secular businesses. RCW 49.60.040(11).
As rewritten by the Washington Supreme Court, the
WLAD gives religious employers only a partial
exemption—protection for ministerial hires but not
for coreligionist hires, so the law is “not . . . generally
applicable.” Fulton v. City of Philadelphia, 141 S. Ct.
1868, 1881 (2021). “It is no answer that a State treats
some comparable secular businesses or other
activities as poorly as or even less favorably than the
religious exercise at issue.” Ibid. (citing Cuomo, 141
S. Ct. at 66–67 (Kavanaugh, J., concurring)).
What’s more, the WLAD now “prohibits religious
conduct while permitting secular conduct that
undermines the government’s asserted interests in a

31
similar way.” Id. at 1877. For example, if a secular forprofit business with only a half-dozen employees
declined an applicant due to the organization’s
marriage views, the WLAD would not apply.4
Accordingly, the WLAD must be “examined under the
strictest scrutiny.” Id. at 1881. And that fact is fatal
because the small-employer exemption’s existence
undermines any contention that the WLAD’s “nondiscrimination policies can brook no departures.” Id.
at 1882 (citing Church of the Lukumi Babalu Aye, Inc.
v. Hialeah, 508 U.S. 520, 546–47 (1993)).
The Court need not reach this issue if it properly
upholds religious autonomy and affirms the longstanding right of religious groups to hire only
coreligionists. Such a result is consistent with the
Religion Clauses and with the WLAD’s express
language as the Legislature enacted it. But the
Washington Supreme Court’s redrafting of the WLAD
religious exemption means that religious employers
now face a greater burden than do small businesses.
And because there is “no compelling reason why
[Washington] has a particular interest in denying an
exception to [the Mission] while making [it] available
to others,” the ruling below cannot stand. Id. at 1882.
The Washington Supreme Court recognizes a common-law tort
claim of wrongful discharge against small employers, but that
claim does not exist for applicants like Woods. Roberts v. Dudley,
993 P.2d 901, 911 (Wash. 2000). (“[T]he tort of wrongful
discharge in violation of public policy clearly applies only in a
situation where an employee has been discharged.”) (emphasis
added). Even if the rule were otherwise, small employers would
still get the benefit of no administrative processes, statutorily
enhanced damages, and attorney fees under the WLAD, whereas
the Mission is subject to all three. Ibid.

4

32
IV. The Washington Supreme Court’s ruling
shows substantial hostility towards the
Mission’s religious beliefs and religious
exemptions generally.
In no event should this Court remand to the
Washington Supreme Court for further proceedings.
Through its opinion below, that court has shown
outright hostility for the Mission’s beliefs and toward
religious exemptions.
“The Free Exercise Clause bars even subtle
departures from neutrality on matters of religion.”
Masterpiece, 138 S. Ct. at 1731 (quotation omitted).
Yet the Washington Supreme Court’s “departure is
hardly subtle.” Calvary Chapel Dayton Valley v.
Sisolak, 140 S. Ct. 2603, 2605 (2020) (Alito, J.,
dissenting from denial of injunctive relief). The
history, effect, and content of the court’s ruling
demonstrate “a clear and impermissible hostility
toward the [Mission’s] sincere religious beliefs.”
Masterpiece, 138 S. Ct. at 1729.
First, as to history, the Washington Supreme
Court’s present narrowing of the WLAD’s religious
exemption sharply conflicts with its decision on the
same legal issue just seven years earlier, in a case
involving a security guard who sued his religioushospital employer for race and disability discrimination. Ockletree v. Franciscan Health Sys., 317 P.3d
1009, 1011–12 (Wash. 2014). Despite the employee’s
allegation of race discrimination and the employer’s
lack of any religious justification, the court’s response
was comparatively measured: (1) four justices held
that the WLAD’s religious exemption did not
implicate a privilege or immunity, id. at 1014–17;

33
(2) four justices declared that it did, and the
exemption was unconstitutional “as applied to WLAD
claims based on discrimination that is unrelated to an
employer’s religious purpose, practice, or activity,” id.
at 1020 (Stephens, J., dissenting); and (3) one justice
argued the exemption was unconstitutional unless an
employee’s “job description and responsibilities
include duties that are religious or sectarian in
nature,” id. at 1028 (Wiggins, J., concurring in part in
dissent).
But when Woods alleged sexual orientation
discrimination after the Mission declined to hire him
for religious reasons that were conceded to be sincere,
the Washington Supreme Court ruled unanimously
against the Mission, even though 8 of 9 justices
remained the same.5 App.1a–60a. Each of those eight
justices was suddenly less tolerant of religious
autonomy, despite the legal issues being identical.
App.63a–64a. Not a single justice here questioned the
privileges and immunities clause’s application, nor
did any justice credit that the Mission’s hiring policies
are grounded in its religious purpose, practice, and
activities. All nine justices limited the WLAD’s
religious exemption to the ministerial exception,
rendering the legislature’s safeguard of religion
superfluous. App.1a–60a. The only explanation is the
court’s hostility towards the Mission’s religious
beliefs, Masterpiece, 138 S. Ct. at 1730, specifically as
those beliefs pertain to marriage and sexuality.

The ninth justice, Justice Yu, authored a concurrence sharply
critical of the Mission’s free-exercise rights.

5

34
Second, concerning result, the Washington
Supreme Court effectively erased the Washington
Legislature’s religious exemption as it applies to
coreligionist hiring—even though the Washington
Legislature cited the religious exception in adding
sexual orientation to the WLAD, Final Bill Report,
https://perma.cc/994C-FCQD. It deemed the legislature’s safeguard of religious nonprofits’ free exercise
of religion unconstitutional unless it mirrors the
ministerial exception and achieves nothing state and
federal law did not already require.6 This forbids the
legislature from accommodating religion and
commands it violate religious nonprofits’ autonomy.
Cf. Espinoza v. Mont. Dep’t of Revenue, 140 S. Ct.
2246, 2262 (2020). Under the Washington Supreme
Court’s logic, not even houses of worship may employ
coreligionists in non-ministerial roles: Sikh gurdwaras must hire Hindus, Jewish synagogues must hire
Muslims, and Christian churches must hire atheists.
Such a groundless demolishing of religious communities smacks of “animosity to religion or distrust of its
practices.” Masterpiece, 138 S. Ct. at 1731.
Third, regarding content, the Washington
Supreme Court majority held (without explanation)
that the Mission’s right to hire coreligionists needed
“limitations,” even though the legislature imposed
none. App.14a. It “balanced” the Mission’s and
Woods’s rights in the most lopsided way possible by
confining the WLAD’s religious exception to the
The remand issue is whether the Mission’s Open Door lawyers
satisfy the ministerial exception, App.3a, 22a, and the Washington Supreme Court’s opinion tries to preordain the result.
App.21a–22a & n.6, 26a–30a.
6

35
ministerial exception. App.19a–21a. The Mission
went from a broad legislative exemption to no ability
to hire coreligionists, putting the Mission in the
position of having to shut its doors entirely or hire
those who want to change the Mission’s beliefs.
Religious nonprofits in Washington no longer
enjoy “proper protection as they seek to teach the
principles that are so fulfilling and so central to their
lives and faiths.” Masterpiece, 138 S. Ct. at 1727
(cleaned up). They must employ those with conflicting
views because the Washington Supreme Court
dislikes their religious doctrines. In fact, the majority
cited approvingly a concurrence, App.21a–22a & n.6,
that (1) repeatedly denigrated the Mission’s religious
autonomy as nothing more than a “free exercise right
to discriminate,” App.24a, (2) expressed “greatest
hope” that religious employers would hire based on
religious doctrines only when “absolutely necessary,”
App.25a, and (3) paired the claim that Christian staff
attorneys are legally forbidden to share the Gospel
with the warning that “this court” “has final authority
over the practice of law and legal ethics in
Washington,” App.28a–30a. Cf. Masterpiece, 138 S.
Ct. at 1729–30. All three arguments—to which no
justice objected—revealed “a negative normative
evaluation of the [Mission’s] justification for [its
hiring decision] and the religious grounds for it.”
Masterpiece, 138 S. Ct. at 1731 (cleaned up).
The partial “dissent” was equally hostile. It
declared the WLAD’s religious exemption facially
unconstitutional by focusing on the statute’s nondiscrimination goal to the exclusion of the First
Amendment. The dissent argued, quite implausibly,
that (1) no portion of the WLAD “attempts to

36
safeguard free exercise rights,” (2) the WLAD’s
purpose, irrespective of the First Amendment, “does
not encompass safeguarding the free exercise of
religion,” and (3) the legislature cannot exempt religious nonprofits because doing so fails to “serve[ ] the
legislature’s antidiscrimination goal.” App.46a–47a.
Vilifying religious autonomy as “carte blanche to
discriminate” or a “constitutional privilege to discriminate,” App.47a–48a, the dissent relied on
Masterpiece and endorsed forcing the Mission to hire
Woods as the application of “a neutral law of general
applicability”—even though the legislature expressly
exempted the Mission. App.51a, 58a. Every word of
the analysis “presuppose[d] the illegitimacy of [the
Mission’s] religious beliefs and practices.” Masterpiece, 138 S. Ct. at 1731.
The Washington Supreme Court’s “hostility was
inconsistent with the First Amendment’s guarantee
that our laws be applied in a manner that is neutral
toward religion.” Id. at 1732. This Court should, at the
least, invalidate its ruling because the Mission did not
receive “a neutral decisionmaker who would give full
and fair consideration to [its] religious objection as [it]
sought to assert it in all of the circumstances in which
this case was presented, considered, and decided.”
Ibid.

37
V. This case is an ideal vehicle to resolve a
conflict with dire ramifications for houses of
worship and other religious nonprofits.
The conflict between six circuits’ precedent and
the Washington Supreme Court’s decision is clear,
and resolving the clash immediately is imperative,
particularly now that Washington churches have lost
employment protections that federal courts would
honor. Washington now orders houses of worship and
other religious nonprofits to hire those who protest,
contradict, and seek to change their beliefs. App.127a.
Non-discrimination law’s capacity to “destroy the
freedom of Americans to practice their religions” is no
longer hypothetical; it is a reality. World Vision, 633
F.3d at 742 (Kleinfeld, J., concurring). And because
the Washington Supreme Court initiated this
religious-autonomy demolition project, only this
Court may apply the brakes.
If the Court declines to intervene, the Mission will
be subjected to intrusive legal proceedings involving
its religious tenets, precisely what the First Amendment prevents. Moreover, states like Washington will
not simply denigrate “those who continue to adhere to
traditional moral standards.” Espinoza, 140 S. Ct. at
2267 (Thomas, J., concurring). They will “‘stamp out
every vestige of dissent’ and ‘vilify Americans who are
unwilling to assent to the new orthodoxy.’”
Masterpiece, 138 S. Ct. at 1748 (Thomas, J.,
concurring) (quoting Obergefell, 576 U.S. at 741
(Alito, J., dissenting)). They extend these efforts to
religious nonprofits like the Mission, the last “buffers
between the individual and the power of the State.”
Hosanna-Tabor, 565 U.S. at 199 (Alito, J., concurring)
(quotation omitted).

38
The time has come for the Court to hold explicitly
what it has long suggested: the First Amendment
protects religious nonprofits’ right to employ
coreligionists. And this case is the perfect vehicle for
five reasons.
First, it is undisputed that the Mission is an
overtly religious nonprofit in the evangelical
tradition. The IRS places it in the same tax-exempt
category as a church. App.163a–168a.
Second, the Mission’s religious employment
criteria are uncontested and longstanding. No one
questions the sincerity of the Mission’s religious
beliefs or the even-handedness with which the
Mission applies its religious-lifestyle expectations.
E.g., App.56a (“I do not question whether SUGM
based its employment decision on a sincere religious
belief.”); App.80a (same). And forcing religious
organizations to hire those who do not share the
group’s religious beliefs is undeniably a significant
burden. E.g., App.56a (“I assume WLAD substantially
burdens the exercise of that belief by preventing
employment discrimination based on sexual
orientation.”).
Third, no one contests that the Mission serves
everyone with love and compassion.7 And not even
Woods suggests that the Mission’s religious views
negatively influence legal advice. App.79a n.4.
(“SUGM’s legal advice to clients is not influenced by
religious ministration” and does not violate ethical
duties).
Seattle’s Union Gospel
https://perma.cc/RMT6-PBZ9.

7

Mission,

Who

are

we?,

39
Fourth, the Washington Supreme Court’s holding
is clear and uncomplicated: the First Amendment, in
the employment context, requires nothing more than
the ministerial exception. App.19a–20a. That
directness will facilitate this Court’s review.
Finally, the whole point of doctrines like the
coreligionist exemption and the ministerial exception
is to prevent a religious organization from being
dragged through discovery and litigation proceedings
that place its religious beliefs at issue. This Court
must intervene or Washington and like-minded
jurisdictions will continue reducing religious nonprofits’ First Amendment rights to hire coreligionists
to a truncated version of the ministerial exception,
shattering religious communities and potentially
ending the invaluable social services they provide.
The Mission should not be forced to choose
between its faith and serving its homeless neighbors
to share the Gospel message. Certiorari is warranted.

40
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
KRISTEN K. WAGGONER
JOHN J. BURSCH
Counsel of Record
RORY T. GRAY
ALLIANCE DEFENDING
FREEDOM
440 First Street, N.W.
Suite 600
Washington, D.C. 20001
(616) 450-4235
jbursch@ADFlegal.org
NATHANIEL L. TAYLOR
ABIGAIL J. ST. HILAIRE
ELLIS, LI & MCKINSTRY
PLLC
1700 Seventh Ave.,
Suite 1810
Seattle, WA 98101
(206) 682-0565
AUGUST 2021

Counsel for Petitioner

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Washington Supreme Court En Banc
Opinion
March 4, 2021 ........................................................... 1a
King County Superior Court
Letter Order Granting Summary Judgment
June 25, 2018 (CP169-721)..................................... 61a
King County Superior Court
Order Granting Summary Judgment
July 9, 2018 (CP173-75) ......................................... 68a
Washington Supreme Court
Order Granting Direct Review
April 3, 2019 ........................................................... 71a
42 U.S.C. 2000e-1 ................................................... 73a
42 U.S.C. 2000e-2 ................................................... 73a
42 U.S.C. 12112(a) ................................................. 75a
42 U.S.C. 12113(d) ................................................. 75a
Excerpts of RCW 49.60.040 ................................... 76a
Excerpts of RCW 49.60.180 ................................... 76a

CP stands for the Clerk’s Papers transmitted by the trial court
as the record on appeal to the Washington Supreme Court.

1

iia
Excerpts from Plaintiff’s Statement of
Grounds For Direct Review
Filed on August 8, 2018 ......................................... 77a
Excerpts from Amended Brief of Appellant
filed November 8, 2018 .......................................... 78a
Excerpts from Brief of Respondent filed
December 7, 2018 ................................................... 81a
Excerpts from Reply Brief of Appellant filed
February 5, 2019 .................................................... 87a
Excerpts from Respondent’s Answer to
Amicus Briefs of WELA, ACLU, and Center
for Justice filed September 24, 2019 ..................... 89a
Complaint filed November 16, 2017 (CP1-7) ........ 96a
Excerpts from Answer
filed December 7, 2017 (CP15-16) ....................... 104a
Stipulation of the Parties
filed May 15, 2018 (CP 477-78) ........................... 106a
Excerpts from Defendant’s Motion for
Summary Judgment filed May 18, 2018
(CP58-62) .............................................................. 108a
Declaration of Terry Pallas in Support of
Defendant’s Motion for Summary Judgment
filed May 18, 2018 (CP63-67) .............................. 113a

iiia
Declaration of David Mace in Support of
Defendant’s Motion for Summary Judgment
filed July 26, 2018 (CP371-74)............................. 119a
Excerpts from Plaintiff’s Opposition to
Defendant’s Motion for Summary Judgment
filed June 4, 2018 (CP93-97)................................ 123a
Declaration of Matt Woods in Support of
Opposition to Defendant’s Motion for
Summary Judgment (CP111-15) ......................... 127a
Excerpts from Deposition of Terry Pallas
(CP695-709) .......................................................... 129a
Excerpts from Deposition of David Mace
(CP727-41; CP151-53) .......................................... 141a
Articles of Incorporation for Union Gospel
Mission Association of Seattle
(Article I through III) (CP71-72) ......................... 150a
Mission Website, About Us (CP77) ..................... 152a
Mission Website, Statement of Faith (CP82)...... 153a
Excerpts from Association of Gospel Rescue
Mission Webpage (CP454-56) .............................. 155a
Excerpts from Mission’s Employee Handbook
(CP350-64) ............................................................ 157a
IRS Tax-Exempt Letter dated February 27,
1998 (CP231) ........................................................ 163a

iva
IRS Tax-Exempt Letter dated April 24, 2003
(CP79-80) .............................................................. 166a
Excerpts from Christian Legal Society
Recommendations (CP380-90) ............................. 169a
Email from Mace to ODLS Volunteers dated
October 4, 2016 regarding job vacancy
(CP122) ................................................................. 174a
Staff Attorney Position Description
(CP401-03) ............................................................ 175a
Emails between Baier and Woods dated
October 2016 (CP124-25) ..................................... 181a
Emails between Mace and Woods dated
October 2016 (CP405) .......................................... 184a
Woods’ Staff Attorney Application
(CP131-33) ............................................................ 186a
Woods’ Cover Letter (CP135)............................... 195a
Email from Mace to Woods dated November
9, 2016 (CP756) .................................................... 197a
Declaration of Alissa Baier in Support of
Defendant’s Motion for Summary Judgment
filed July 26, 2018 (CP321-323)........................... 199a
50 State Survey of Religious Exemptions ........... 202a

1a

IN THE SUPREME COURT OF THE STATE OF
WASHINGTON
MATTHEW S. WOODS, an
individual,
Appellant,
v.
SEATTLE’S UNION
GOSPEL MISSION, a
Washington nonprofit,
Respondent.

)
)
)
)
)
)
)
)
)
)
)

No. 96132-8

En Banc
Filed: March
4, 2021

)
MADSEN, J.—We begin with the proposition that
the legislature is entitled to legislate. WASH. CONST.
art. II, § 1. It is entitled to make distinctions and to
carve out exceptions in its assessments of proper
public policy, within the constraints of the state and
federal constitutions. See, e.g., WASH. CONST. art. I, §
12. One constraint on legislative power is that it may

2a
not treat differently persons who are similarly
situated unless a rational basis exists to do so and
that it may not give persons immunity or privilege
without a reasonable basis when a fundamental right
is at stake. Id.; U.S. CONST. amend. XIV.
The issue in this case is whether the legislature
extended a privilege or immunity to religious and
other nonprofit, secular employers and whether, in
providing the privilege or immunity, the legislature
affected a fundamental right without a reasonable
basis for doing so. Lawmakers enacted Washington’s
Law Against Discrimination (WLAD), ch. 49.60 RCW,
to protect citizens from discrimination in employment, and exempts religious nonprofits from the
definition of “employer.” RCW 49.60.040(11). In
enacting WLAD, the legislature created a statutory
right for employees to be free from discrimination in
the workplace while allowing employers to retain
their constitutional right, as constrained by state and
federal case law, to choose workers who reflect the
employers’ beliefs when hiring ministers. Consequently, we must balance under law these competing
interests, and we look to both our state and federal
constitutions for guidance—specifically article I,
section 12; article I, section 11; the First Amendment;
and, the United States Supreme Court decision in
Our Lady of Guadalupe School v. Morrissey-Berru,
___ U.S. ___, 140 S. Ct. 2049, 207 L. Ed. 2d 870 (2020).
Here, Matthew Woods brought an employment
discrimination action against Seattle’s Union Gospel
Mission (SUGM). At trial, SUGM successfully moved
for summary judgment pursuant to RCW
49.60.040(11)’s religious employer exemption. Woods
appealed to this court, contesting the constitution-

3a
ality of the statute. SUGM now argues that RCW
49.60.040(11)’s exemption applies to its hiring
decisions because its employees are expected to
minister to their clients. Under Our Lady of
Guadalupe, a plaintiff’s employment discrimination
claim must yield in a few limited circumstances,
including where the employee in question is a
minister. Whether ministerial responsibilities and
functions discussed in Our Lady of Guadalupe are
present in Woods’ case was not decided below.
For the following reasons, we hold that RCW
49.60.040(11) does not violate article I, section 12 on
its face but may be constitutionally invalid as applied
to Woods. Accordingly, we reverse and remand the
case to the trial court to determine whether SUGM
meets the ministerial exception.
BACKGROUND
SUGM is a nonprofit, evangelical Christian
organization providing services to Seattle’s
unsheltered homeless population. In 1999, SUGM
opened its legal aid clinic, Open Door Legal Services
(ODLS), to address its guests’ many legal issues and
facilitate the SUGM’s gospel rescue work.
Woods, a professed Christian, signed SUGM’s
statement of faith when he began volunteering at the
ODLS clinic as a law student. Later, as a lawyer,
Woods inquired about the ODLS staff attorney
position that became available in October 2016,
disclosing that he was in a same-sex relationship.
SUGM informed Woods that it was contrary to
biblical teaching for him to engage in a same-sex
relationship. Woods challenged this interpretation

4a
and applied for the position. The ODLS director
notified Woods there would be no change to its policy.
SUGM did not hire Woods for the staff attorney
position.
In November 2017, Woods filed a complaint
against SUGM, alleging it had violated his right to be
free from discriminatory employment under WLAD.
Clerk’s Papers (CP) at 1-7. Woods claimed that RCW
49.60.040(11)’s exemption is unconstitutional as
applied to him because the staff attorney job duties
were “wholly unrelated to [SUGM’s] religious
practices or activities.” CP at 6. SUGM argued that
the religious exemption to WLAD applied under RCW
49.60.040(11), which excludes religious and sectarian
nonprofit organizations from the definition of
“employer.” SUGM successfully moved for summary
judgment, and Woods sought direct review, which this
court granted.
ANALYSIS
Standard of review
At issue is whether RCW 49.60.040(11) validly
exempts SUGM from WLAD provisions under the
facts of this case. This court reviews questions of
statutory interpretation and constitutionality de
novo. State v. Evergreen Freedom Found., 192 Wn.2d
782, 789, 432 P.3d 805, cert. denied, 139 S. Ct. 2647
(2019). Our primary objective in interpreting a
statute is to ascertain and give effect to the
legislature’s intent as manifested by the statute’s
language. See In re Marriage of Schneider, 173 Wn.2d
353, 363, 268 P.3d 215 (2011). This court also reviews
summary judgment de novo. Wash. Educ. Ass’n v.

5a
Dep’t of Ret. Sys., 181 Wn.2d 233, 241, 332 P.3d 439
(2014).
WLAD
“WLAD is a regulatory law enacted under the
legislature’s police power to promote the health,
peace, safety, and general welfare of the people of
Washington.” Ockletree v. Franciscan Health Sys.,
179 Wn.2d 769, 773 n.2, 317 P.3d 1009 (2014)
(plurality opinion) (citing RCW 49.60.010). Enacted in
1949, WLAD was promulgated with the “purpose of
ending discrimination by employers ‘on the basis of
race, creed, color, or national origin.’” Id. at 773
(quoting Griffin v. Eller, 130 Wn.2d 58, 63, 922 P.2d
788 (1996)). The legislature has expanded WLAD to
bar discrimination on the basis of age, sex, sexual
orientation, and disability, and to incorporate a
private right of action for employees and persons who
use public accommodations. Id. (citing RCW
49.60.040).
As originally enacted, WLAD exempted from the
definition of “employer” “any religious, charitable,
educational, social or fraternal association or
corporation, not organized for private profit.” LAWS OF
1949, ch. 183, § 3(b).1 The legislature rewrote WLAD’s
WLAD was modeled on a New York measure entitled the “Law
Against Discrimination,” which was enacted in 1945. Frank P.
Helsell, The Law Against Discrimination in Employment, 25
WASH. L. REV. & ST. B.J. 225, 225 (1950) (citing 1945 N.Y. Laws
457). The New York law, as in WLAD, originally excluded
religious nonprofit associations from the definition of
“employer.” 1945 N.Y. Laws 458; see also Morroe Berger, The
New York State Law Against Discrimination: Operation and
Administration, 35 CORNELL L.Q. 747, 750 (1949). The term
“employer” in the New York law was “strictly defined” to avoid

1

6a
definition of “employer” in 1957 to include secular
nonprofit organizations, exempting only small
employers and religious nonprofits. LAWS OF 1957, ch.
37, § 4. That definition is currently found in RCW
49.60.040(11), which provides, “‘Employer’ includes
any person acting in the interest of an employer,
directly or indirectly, who employs eight or more
persons, and does not include any religious or
sectarian organization not organized for private
profit.”
We are asked to review whether the religious
employer exemption violates article I, section 12 of
the Washington State Constitution.
Constitutionality of RCW 49.60.040(11)
We presume statutes are constitutional, and the
party challenging constitutionality bears the burden
of proving otherwise. Amunrud v. Bd. of Appeals, 158
Wn.2d 208, 215, 143 P.3d 571 (2006), overruled in part
by Chong Yim v. City of Seattle, 194 Wn.2d 682, 451
P.3d 694 (2019). “‘[A]n as-applied challenge to the
constitutional validity of a statute is characterized by
a party’s allegation that application of the statute in
the specific context of the party’s actions or intended
actions is unconstitutional.’” City of Seattle v. Evans,
184 Wn.2d 856, 862, 366 P.3d 906 (2015) (alteration
in original) (internal quotation marks omitted)
(quoting State v. Hunley, 175 Wn.2d 901, 916, 287
P.3d 584 (2012)). “‘Holding a statute unconstitutional
as-applied prohibits future application of the statute
in a similar context, but the statute is not totally
invalidated.’” Id. (internal quotation marks omitted)
constitutional inhibitions. See Current Legislation, 19 ST.
JOHN’S L. REV. 170, 171-72 (1945).

7a
(quoting Hunley, 175 Wn.2d at 916). A facial
challenge must be rejected unless there is “no set of
circumstances in which the statute[, as currently
written,] can constitutionally be applied.” In re Det. of
Turay, 139 Wn.2d 379, 417 n.27, 986 P.2d 790 (1999)
(quoting Ada v. Guam Soc’y of Obstetricians &
Gynecologists, 506 U.S. 1011, 1012, 113 S. Ct. 633,
121 L. Ed. 2d 564 (1992) (Scalia, J., dissenting)).
When determining whether a law is facially invalid,
courts must be careful not to exceed the facial
requirements and speculate about hypothetical cases.
Wash. State Grange v. Wash. State Republican Party,
552 U.S. 442, 449-50, 128 S. Ct. 1184, 170 L. Ed. 2d
151 (2008).
Facial claims are generally disfavored. State v.
McCuistion, 174 Wn.2d 369, 389, 275 P.3d 1092
(2012). They often rest on speculation and “‘run
contrary to the fundamental principle of judicial
restraint that courts should neither anticipate a
question of constitutional law in advance of the
necessity of deciding it nor formulate a rule of
constitutional law broader than is required by the
precise facts to which it is to be applied.’” Id.
We have previously considered and upheld
WLAD’s religious employer exemption from a facial
constitutional challenge in Ockletree. In that case, an
African-American security guard at a Catholic
hospital was terminated after he suffered a stroke. He
sued the hospital for, among other things, a violation
of WLAD, asserting that his termination was the
result of illegal discrimination on the basis of race and
disability. Ockletree, 179 Wn.2d at 772. The hospital
moved to dismiss Larry Ockletree’s WLAD claim,
arguing that the hospital was exempt as a nonprofit

8a
religious organization under RCW 49.60.040(11). This
court issued three opinions in a 4-4-1 split. The lead
opinion held that RCW 49.60.040(11) was not facially
unconstitutional under article I, section 12’s
privileges and immunities clause. Id. at 788-89
(Johnson, J., lead opinion). The concurrence agreed
that RCW 49.60.040(11) is not facially unconstitutional but said it would have held that the provision
is unconstitutional as applied to Ockletree. Id. at 805
(Wiggins, J., concurring in part in dissent). Thus, five
justices agreed that RCW 49.60.040(11)’s religious
employer exemption is not facially invalid. Id. at 772
(Johnson, J., lead opinion), 805 (Wiggins, J.,
concurring in part in dissent).
Because Woods challenges the religious employer
exemption under WLAD as it relates specifically to
his case, he advances an as-applied challenge, and we
review it as such.2
Article I, section 12
Article I, section 12 provides, “No law shall be
passed granting to any citizen, class of citizens, or
corporation other than municipal, privileges or
immunities which upon the same terms shall not
equally belong to all citizens, or corporations.” The
We do not opine on the effect of this decision on every
prospective employee seeking work with any religious nonprofit
such as universities, elementary schools, and houses of worship.
See Ockletree, 179 Wn.2d at 777 (noting employers covered under
RCW 49.60.040(11) include Catholic Community Services,
Jewish Family Services, CRISTA Ministries, YMCA, YWCA,
Salvation Army, and St. Vincent De Paul, as well as churches,
synagogues, and mosques). Woods does not prove and we do not
hold that no set of circumstances exist under which the religious
employer exemption can be constitutionally applied.
2

9a
purpose of article I, section 12 is to limit the type of
favoritism that ran rampant during Washington
State’s territorial period. Ockletree, 179 Wn.2d at 775
(citing ROBERT F. UTTER & HUGH D. SPITZER, THE
WASHINGTON STATE CONSTITUTION: A REFERENCE
GUIDE 26-27 (G. Alan Tarr ed., 2002)).
Though Washington courts have, at times,
analyzed article I, section 12 as equivalent to the
federal equal protection clause, this court also
recognized that the text and aims of the constitutional
provisions differed. Id. at 775-76. Article I, section 12
was intended to prevent favoritism and special
treatment to the few while disadvantaging others,
and the Fourteenth Amendment was intended to
prevent discrimination against disfavored individuals
or groups. Id. at 776 (citing State v. Smith, 117 Wn.2d
263, 283, 814 P.2d 652 (1991) (Utter, J., concurring)).
Due to these distinctions, our state’s privileges and
immunities clause can support an analysis independent of the Fourteenth Amendment. Id. at 776 (citing
Grant County Fire Prot. Dist. No. 5 v. City of Moses
Lake, 150 Wn.2d 791, 83 P.3d 419 (2004)).
We apply a two-pronged test to determine the
constitutionality of the religious employer exemption
under our article I, section 12: (1) whether RCW
49.60.040(11) granted a privilege or immunity implicating a fundamental right and (2) if a privilege or
immunity was granted, whether the distinction was
based on reasonable grounds. Schroeder v. Weighall,
179 Wn.2d 566, 573, 316 P.3d 482 (2014).
Two of Woods’ fundamental rights are present in
the current case: the right to an individual’s sexual
orientation and the right to marry. See Lawrence v.

10a
Texas, 539 U.S. 558, 577-78, 123 S. Ct. 2472, 156 L.
Ed. 2d 508 (2003); Bowers v. Hardwick, 478 U.S. 186,
215-20, 106 S. Ct. 2841, 92 L. Ed. 2d 140 (1986)
(Stevens, J., dissenting), overruled by Lawrence, 539
U.S. 558; Obergefell v. Hodges, 576 U.S. 644, 663-65,
135 S. Ct. 2584, 192 L. Ed. 2d 609 (2015). In
Lawrence, the Supreme Court struck down criminal
convictions of persons engaged in same-sex conduct,
holding that a liberty interest exists in a person’s
private, intimate conduct. 539 U.S. at 577-78. In so
holding, the Court observed that persons in same-sex
relationships enjoy the same liberty as those in
heterosexual relationships to make intimate and
personal choices central to their personal dignity and
autonomy. Id.; see also Planned Parenthood of Se. Pa.
v. Casey, 505 U.S. 833, 851, 112 S. Ct. 2791, 120 L.
Ed. 2d 674 (1992) (“At the heart of liberty is the right
to define one’s own concept of existence, of meaning,
of the universe, and of the mystery of human life.”).
Lawrence endorsed Justice Stevens’ dissenting
opinion in Bowers, explaining that this liberty
extends to unmarried as well as married persons.
Lawrence, 539 U.S. at 574, 577-78.
In Obergefell, the Supreme Court concluded the
fundamental right to marry includes same-sex
couples and is protected by due process and equal
protection clauses of the Fourteenth Amendment. 576
U.S. at 672-74; see also State v. Warren, 165 Wn.2d
17, 34, 195 P.3d 940 (2008) (citing Santosky v.
Kramer, 455 U.S. 745, 102 S. Ct. 1388, 71 L. Ed. 2d
599 (1982) (plurality opinion); Loving v. Virginia, 388
U.S. 1, 12, 87 S. Ct. 1817, 18 L. Ed. 2d 1010 (1967)
(stating that the right to marriage is fundamental));
see also State v. Vance, 29 Wash. 435, 458, 70 P. 34

11a
(1902) (identifying as a fundamental right of state
citizenship the right “to enforce other personal rights”
(emphasis added)); Corfield v. Coryell, 6 F. Cas. 546,
551-52 (C.C.E.D. Pa. 1823) (No. 3230) (listing the
right “to pursue and obtain happiness and safety” as
a fundamental right).
As Lawrence, Obergefell, and Justice Stevens’
dissent in Bowers contemplate, individuals possess
the fundamental rights to their sexual orientation
and to marry whomever they choose. See Lawrence,
539 U.S. at 574, 577-78; Obergefell, 576 U.S. at 65152 (“The Constitution promises liberty to all within its
reach, a liberty that includes certain specific rights
that allow persons, within a lawful realm, to define
and express their identity.” (emphasis added)), 664
(identifying and protecting fundamental rights
requires “courts to exercise reasoned judgment in
identifying interests of the person so fundamental
that the State must accord them its respect”); Bowers,
478 U.S. at 216 (Stevens, J., dissenting) (“[I]ndividual
decisions by married persons, concerning the
intimacies of their physical relationship, even when
not intended to produce offspring, are a form of
‘liberty’ protected by the Due Process Clause of the
Fourteenth Amendment. Moreover, this protection
extends to intimate choices by unmarried as well as
married persons.” (citation omitted)).3
The fundamental right to sexual orientation does not appear to
stem from just the federal constitution but from our state
constitution as well. See WASH. CONST. art. I, §§ 3, 7, 12; see also
State v. Jackson, 150 Wn.2d 251, 259, 76 P.3d 217 (2003) (“It is
now settled that article I, section 7 is more protective than the
Fourth Amendment.”); State v. Bartholomew, 101 Wn.2d 631,
639, 683 P.2d 1079 (1984) (“[W]e have repeatedly noted that the
3

12a
Here, Woods informed SUGM that he was
involved in a same-sex relationship and voiced a
desire to someday marry a man. E.g., CP at 135
(Woods’ cover letter to SUGM stated he could see
“marrying and starting a family with another man.”);
see also CP at 114 (Decl. of Matt Woods) (stating
Woods informed SUGM “that [he] had a boyfriend,
and that [he] could see marrying a man”). Though this
case also implicates the fundamental right to marry
whomever one chooses, it is not limited to this context.
Also implicated is the concomitant fundamental right
to sexual orientation. Woods has invoked these
fundamental rights, satisfying the first prong of the
article I, section 12 test. Schroeder, 179 Wn.2d at 573.
Turning to the second prong of that test, we hold
that reasonable grounds exist for WLAD to
distinguish religious and secular nonprofits. RCW
49.60.040(11) itself is evidence of reasonable grounds.
Courts routinely rely on statutory language to
ascertain and carry out legislative goals when
construing statutory and constitutional provisions.
See, e.g., Dep’t of Ecology v. Campbell & Gwinn, LLC,
146 Wn.2d 1, 11, 43 P.3d 4 (2002); Wash. Water Jet
Workers Ass’n v. Yarbrough, 151 Wn.2d 470, 477, 90
P.3d 42 (2004) (citing Anderson v. Chapman, 86
Wn.2d 189, 191, 543 P.2d 229 (1975)). Meaning is
discerned from the language itself, the context and
related provisions in relation to the subject of the
legislation, the nature of the act, the general object to
be accomplished, and the consequences that would
Supreme Court’s interpretation of the Fourteenth Amendment
does not control our interpretation of the state constitution’s due
process clause.”).

13a
result from construing a statute in a particular way.
Burns v. City of Seattle, 161 Wn.2d 129, 146, 164 P.3d
475 (2007). We find no persuasive reason not to
examine and rely on statutory language when
engaging in the context of article I, section 12’s
reasonable grounds analysis.
RCW 49.60.040(11) was originally included in the
1949 enactment of WLAD. Even when lawmakers
rewrote the definition of “employer” in 1957, the
statute continued to exempt religious nonprofits. This
exemption has remained, despite the expansion of
WLAD’s protections. See LAWS OF 1957, ch. 37, § 1
(adding prevention of discrimination in employment
in places of public resort, accommodation, or
amusement); LAWS OF 2006, ch. 4 (expanding WLAD’s
protection against discrimination based on sexual
orientation). RCW 49.60.040(11)’s inclusion in the
enacting legislation and its continued existence
demonstrate that the legislature plainly intended to
include the exemption in WLAD.
Our state’s protection of religion also explains the
religious employer exemption. RCW 49.60.040(11);
WASH. CONST. art. I, § 11. Ockletree noted the
critically important distinction between religious and
secular nonprofits: religious organizations have the
right to religious liberty. 179 Wn.2d at 783-84 (citing
WASH. CONST. art. I, § 11). The greater protection
offered by article I, section 11 than that of the First
Amendment is evidence for treating religious nonprofits differently. Id. at 784; see also First Covenant
Church v. City of Seattle, 120 Wn.2d 203, 224, 840
P.2d 174 (1992) (noting article I, section 11 of
Washington’s constitution is “stronger than the
federal constitution”).

14a
In addition, the United States Supreme Court has
upheld the exemption for religious organizations from
federal discrimination suits in order to avoid state
interference with religious freedoms. Ockletree, 179
Wn.2d at 784 (discussing Corp. of Presiding Bishop of
Church of Jesus Christ of Latter-Day Saints v. Amos,
483 U.S. 327, 336, 107 S. Ct. 2862, 97 L. Ed. 2d 273
(1987)). As five justices agreed in Ockletree, article I,
section 11 and avoidance of state interference with
religion constitute real and substantial differences
between religious and secular nonprofits, making it
“reasonable for the legislature to treat them
differently under WLAD.” Id. at 783, 806 (Wiggins, J.,
concurring in part in dissent).
Though we also conclude reasonable grounds
exist to RCW 49.60.040(11) as a matter of facial
constitutionality, the exemption may still be
unconstitutional as-applied to Woods. See Ockletree,
179 Wn.2d at 789 (Stephens, J., dissenting), 806
(Wiggins, J., concurring in part in dissent). Woods has
identified fundamental rights of state citizenship: the
right to one’s sexual orientation as manifested as a
decision to marry. The first requirement of our article
I, section 12 analysis is therefore satisfied. See
Schroeder, 179 Wn.2d at 573. To determine whether
reasonable grounds exist to support a constitutional
application of RCW 49.60.040(11)(a)’s exemption in
this case, we look to the ministerial exception outlined
by the United States Supreme Court.
Ministerial exception
Because WLAD contains no limitations on the
scope of the exemption provided to religious
organizations, we seek guidance from the First

15a
Amendment as to the appropriate parameters of the
provision’s application. The Supreme Court’s recent
decision in Our Lady of Guadalupe, 140 S. Ct. at 2055,
is instructive based on SUGM’s argument that all of
its employees are expected to minister to their clients.
In Our Lady of Guadalupe, the Court reviewed
and clarified the ministerial exception it previously
outlined in Hosanna-Tabor Evangelical Lutheran
Church & Sch. v. Equal Emp’t Opportunity Comm’n,
565 U.S. 171, 132 S. Ct. 694, 181 L. Ed. 2d 650 (2012).
The Hosanna-Tabor Court addressed an employee’s
claims of wrongful termination under the Americans
with Disabilities Act (ADA) of 1990 and state law.4
The employer, a Lutheran church and school, moved
for summary judgment arguing that the teacher’s suit
was barred by the First Amendment because the
claims at issue concerned the employee relationship
between a religious institution and one of its
ministers. According to the employer, the employee
teacher was a minister and was fired for a religious
reason. Id. at 180.
The trial court granted summary judgment for
the employer. It ruled that the facts surrounding the
teacher’s employment in a religious school with a
sectarian mission supported the employer’s
characterization of the teacher as a minister, and the
court inquired no further into the teacher’s claims of
retaliation. Id. at 180-81.
The employee teacher exerted claims for unlawful retaliation
under both the ADA, 104 Stat. 327, 42 U.S.C. §§ 12101-12213
(1990), and the Michigan Persons with Disabilities Civil Rights
Act, MICH. COMP. LAWS § 37.1602(a). See Hosanna-Tabor, 565
U.S. at 179-80.

4

16a
The Sixth Circuit Court of Appeals vacated the
ruling, directing the trial court to proceed to the
merits of the teacher’s retaliation claims. Id. at 181.
The Supreme Court reversed and reinstated
summary judgment for the employer, observing, “The
First Amendment provides, in part, that ‘Congress
shall make no law respecting an establishment of
religion, or prohibiting the free exercise thereof.’” Id.
The Court acknowledged that while “there can be
‘internal tension . . . between the Establishment
Clause and the Free Exercise Clause,’” id. (alteration
in original) (quoting Tilton v. Richardson, 403 U.S.
672, 677, 91 S. Ct. 2091, 29 L. Ed. 2d 790 (1971)
(plurality opinion)), there was no such tension in the
matter at hand. “Both Religion Clauses bar the
government from interfering with the decision of a
religious group to fire one of its ministers.” Id.
Our Lady of Guadalupe revisited the ministerial
exception. In that case, two teachers at Catholic
primary schools were terminated and sued their
employers for discrimination. 140 S. Ct. at 2057-59.
Both trial courts granted summary judgment for the
school employers based on the Hosanna-Tabor
exception. Id. at 2058. The Ninth Circuit reversed,
noting that while the respective teachers had
“‘significant religious responsibilities,’” their duties
alone were not dispositive under Hosanna-Tabor:
they did not have the formal title of minister, had
limited formal religious training, and did not hold
themselves out to the public as religious leaders or
ministers. Id.
The Supreme Court disagreed with the Ninth
Circuit, concluding the ministerial exception applied
and foreclosed the teachers’ employment claims. The

17a
Court observed that the First Amendment precludes
the government from interfering with the right of
religious entities to decide matters of “faith and
doctrine.” Id. at 2060. Similarly, religious institutions
are insulated from government intrusion on matters
of “church government,” which includes religious
entities’ internal management decisions, such as the
selection of individuals who play key roles. Id. The
ministerial exception, based on this notion, protects
the freedom of religious institutions to choose and
remove ministers without government interference.
Id. at 2060-61.
Whether a position falls within the ambit of the
ministerial exception depends on a “variety of
factors.” Id. at 2063. Importantly, the Court clarified
that the factors discussed in Hosanna-Tabor were not
meant to be a “checklist.” Id. at 2067. The “recognition
of the significance of those factors . . . did not mean
that they must be met—or even that they are
necessarily important—in all other cases.” Id. at
2063. For example, the title of minister is not itself
dispositive, especially considering some religions do
not use the title or are not even formally organized.
Id. at 2063-64. Ultimately, what matters “is what an
employee does.” Id. at 2064.
As explained below, Our Lady of Guadalupe and
Hosanna-Tabor should guide our analysis here.
Woods cites Hosanna-Tabor as supporting his
contention that an inquiry into the secular nature of
the attorney work performed by SUGM staff
attorneys is permissible. He correctly notes that the
Supreme Court performed such an inquiry in
Hosanna-Tabor, and more recently in Our Lady of
Guadalupe, to conclude that the ministerial exception

18a
applied and barred the discrimination claims of the
complaining employee teachers. 565 U.S. at 190.
Both cases recognize that a plaintiff’s
employment discrimination claim must yield where
the employee in question is a minister. The claimant
teacher in Hosanna-Tabor was determined to be a
minister, which turned in part on how the church and
the teacher held herself out to the world as a minister
of the church. The organization “issued [the teacher]
a ‘diploma of vocation’ according her the title
‘Minister of Religion, Commissioned.’” Id. at 191. The
receipt of such title “reflected a significant degree of
religious training followed by a formal process of
commissioning.” Id. The teacher had to complete eight
college-level courses in subjects such as biblical
interpretation and church doctrine, obtain the
endorsement of her local church, and pass an oral
examination by a faculty committee at a Lutheran
college. Id. She was then commissioned as a minister
only upon election by the congregation and such
status could be rescinded only upon a supermajority
vote of the congregation. Id. Further, she claimed a
special housing allowance on her taxes available only
to employees earning their compensation in the
exercise of the ministry. Id. at 192.
As for the teacher’s job duties, she was charged
with nurturing the Christian development of the
students at her Lutheran school. In addition to
secular subjects, she taught religion classes four days
a week, led her students in prayer three times a day,
took her students to weekly chapel services, and
conducted such services herself twice a year. She also
led her fourth graders in daily morning devotionals.
Id. In short, the teacher “performed an important role

19a
in transmitting the Lutheran faith to the next
generation.” Id.
The Court made clear in Our Lady of Guadalupe
that the above circumstances were important to
consider, but not “essential” to qualifying as a
minister. 140 S. Ct. at 2062-63. “What matters, at
bottom, is what an employee does.” Id. at 2064. To
that end, the Court concluded the Catholic school
teachers at issue performed vital religious duties:
guiding the faith lives of their students, providing
instruction on subjects that included religion, praying
and attending religious services with students, and
preparing students for other religious activities. Id. at
2064-65. In short, though the teachers did not carry
the official title of “minister,” their “core
responsibilities as teachers of religion were
essentially the same.” Id. at 2066. The teachers
therefore qualified for Hosanna-Tabor’s ministerial
exemption. Id.
Recognizing the need for a careful balance
between the religious freedoms of the sectarian
organization and the rights of individuals to be free
from discrimination in employment, the Supreme
Court has fashioned the ministerial exception to the
application of antidiscrimination laws in accord with
the requirements of the First Amendment. See id. at
2060-66; Hosanna-Tabor, 565 U.S. at 188-196. Here,
Woods seeks employment as a lawyer with SUGM.
SUGM has rejected his application because it
maintains that all employees’ first duty is to minister.
In order to balance Woods’ fundamental rights with
the religious protections guaranteed to SUGM, we
hold that article I, section 12 is not offended if
WLAD’s exception for religious organizations is

20a
applied concerning the claims of a “minister” as
defined by Our Lady of Guadalupe and HosannaTabor.
This approach balances the competing rights
advanced by Woods and SUGM. On one hand, Woods’
sexual orientation and his right to marry are within
his fundamental rights of citizenship. Obergefell, 576
U.S. at 656-60, 663-65; Lawrence, 539 U.S. at 574,
577-78; Warren, 165 Wn.2d at 34. On the other hand,
SUGM has the right to exercise its religious beliefs,
and central to this freedom is the messenger of those
beliefs. WASH. CONST. art. I, § 11; Hosanna-Tabor, 565
U.S. at 201 (Alito, J., concurring) (“When it comes to
the expression and inculcation of religious doctrine,
there can be no doubt that the messenger matters.”).
The First Amendment “gives special solicitude to the
rights of religious organizations.” Hosanna-Tabor,
565 U.S. at 189. Article I, section 11 of the
Washington State Constitution offers even more
robust protections. See First Covenant Church of
Seattle, 120 Wn.2d at 224 (noting article I, section 11
of Washington’s constitution is “stronger than the
federal constitution”). The ministerial exception,
recognized by the United States Supreme Court,
every circuit court, and 12 other state supreme
courts,5 provides a fair and useful approach for
determining
whether
application
of
RCW
49.60.040(11) unconstitutionally infringes on Woods’
fundamental right to his sexual orientation and right

Douglas Laycock, Hosanna-Tabor and the Ministerial
Exception, 35 HARV. J.L. & PUB. POL’Y 839, 846 (2012) (noting all
12 geographic circuits and 12 state supreme courts recognize the
existence of the ministerial exception).
5

21a
to marry.
Whether
ministerial
responsibilities
and
functions equivalent to those discussed in Our Lady
of Guadalupe and Hosanna-Tabor are present in
Woods’ case that would similarly render an
employment discrimination claim under WLAD
unavailable is an open factual question that the trial
court did not decide. While some of the criteria noted
in Our Lady of Guadalupe and Hosanna-Tabor are
present here, other criteria are not. Justice Yu’s
concurring opinion is helpful in this regard. See
concurrence at 3-6. Whether an employee qualifies as
a “minister” is a legal question and the title a legal
term. Hosanna-Tabor, 565 U.S. at 190. Woods
acknowledges that all SUGM employees are expected
to evangelize, but there is no evidence that staff
attorneys had titles as ministers or training in
religious matters comparable to Hosanna-Tabor’s
teacher. And while staff attorneys are expected to
share their faith with clients as opportunities arise,
there is no evidence that they are expected to nurture
their converts’ development in the Christian faith
similar to the job duties performed by the teachers in
Our Lady of Guadalupe and Hosanna-Tabor. Further,
neither SUGM nor ODLS is a church or religious
entity principally responsible for the spiritual lives of
its members. SUGM employees are expected to be
active members of local churches; SUGM employment
alone does not appear to be sufficient religious
affiliation. Employees held to be ministers in Our
Lady of Guadalupe and Hosanna-Tabor led faith
groups and taught religious doctrine. The record
indicates that these duties occur outside SUGM, in
local churches for SUGM employees. Moreover,

22a
Woods sought employment with SUGM as a lawyer
specifically, not as a religious minister or teacher, and
there is no indication that religious training is
necessary for the staff attorney position, unlike the
teachers in Hosanna-Tabor.6 See concurrence at 6
(citing Hosanna-Tabor, 565 U.S. at 191). It is best left
to the trial court to determine whether staff attorneys
can qualify as ministers and, consequently, whether
Woods’ discrimination claim under WLAD must be
barred.
CONCLUSION
We conclude that RCW 49.60.040(11) does not
facially violate article I, section 12 of our state
constitution. However, we recognize that the
provision may still be unconstitutional as applied to
Matthew Woods. To properly balance the competing
rights advanced by Woods and SUGM, we apply the
federal ministerial exception test established in
Hosanna-Tabor and clarified in Our Lady of
Guadalupe. A material question of fact remains
concerning whether the SUGM staff attorneys qualify
as ministers. Accordingly, we reverse and remand to
the trial court to answer this open factual question.

Justice Yu’s concurring opinion also reviews the ethical
constraints specific to lawyers. Concurrence at 4-7 (discussing
relevant Rules of Professional Conduct). These considerations
also serve to distinguish lawyers from ministers under HosannaTabor and Our Lady of Guadalupe.

6

23a

WE CONCUR:

24a
No. 96132-8
YU, J. (concurring) — I concur with the court’s
determination that the legislature’s decision to
exempt religious employers from the right to be free
from discrimination is subject to a careful balance of
rights under our state constitution, the First
Amendment to the United States Constitution, and
United States Supreme Court decisions. I am
cognizant of the evolving legal landscape at the
national level and agree that a limited “as applied”
approach is an appropriate exercise of judicial
restraint and a prudent way to resolve this case.
Our court’s decision today is not a carte blanche
license to discriminate against members of the
LGBTQ+ community who are employed by religious
institutions. Rather it recognizes the statutory
prohibitions against discrimination while also
recognizing a limited and narrow ministerial
exception required to alleviate a substantial and
concrete burden on the free exercise of religious
freedom. As noted by the majority and the dissent
(Justice Stephens dissenting in part and concurring
in part), we utilize a two pronged analysis to
determine whether a statutory provision violates
article I, section 12 of the Washington Constitution.
We ask: Does the statute grant a privilege or
immunity and if so, are there reasonable grounds for
such privilege or immunity? (see majority at 9; dissent
in part at 11). I would hold that there are no
reasonable grounds to afford the privilege of the
WLAD exemption to SUGM because SUGM cannot
enjoy a free exercise right to discriminate against an
employee who performs nonreligious duties, such as a

25a
staff attorney. However, because there are factual
questions regarding the duties of the staff attorney, I
ultimately concur in the court’s decision to remand.
Our state law protects the right to employment
free from discrimination on the basis of LGBTQ+
status (as well as on the basis of race, gender, etc.).
The law also protects the right of religious
institutions to choose their ministers. Thus, I agree
with the majority that a religious institution, such as
a church, has the freedom to discriminate on the basis
of LGBTQ+ status when choosing its ministers in
accordance with its religious doctrines. I also agree
with the majority that this license to discriminate
belongs only to religious institutions and not to other
entities such as legal, medical, or commercial
institutions. It is also important to point out that this
license to discriminate exists only with respect to the
institution’s choice of ministers (not with respect to
its choice of nonministers) and that this freedom to
discriminate is not a mandate to do so.
Given our state’s long-standing commitment to
eradicating discrimination and to fostering a diverse
workforce, it is my greatest hope that religious
institutions will recognize and embrace the choice to
limit the “ministerial exception” to those employees
for whom such an exception is absolutely necessary
and grounded in sound reason and purpose. After all,
the right to exclude the LGBTQ+ community from
ministerial employment by religious institutions is
not a right that must be exercised. Rather, it is a
choice by that religious institution and it is a choice
that is not governed by an external judicial doctrine
but rather one carved out by the religious entity itself.
Religious institutions making such a choice should be

26a
forewarned that today’s decision bars redefining
every aspect of work life as “ministerial.” This court,
like the United States Supreme Court, will insist that
trial courts carefully evaluate claims that a particular
employee who is not a traditional minister should
nevertheless be reclassified, in hindsight, as a
minister. In the case of lawyers licensed by the state,
subject to the Rules of Professional Conduct, and
obligated to let the client define the goal of the
representation, such a claim will likely be difficult to
prove.
Because this case is remanded for further
proceedings, I write to offer guidance on the
application of the “ministerial exception” as outlined
in Hosanna-Tabor Evangelical Lutheran Church &
School
v.
Equal
Employment
Opportunity
Commission, 565 U.S. 171, 132 S. Ct. 694, 181 L. Ed.
2d 650 (2012), and further developed in Our Lady of
Guadalupe Sch. v. Morrissey-Berru, ___ U.S. ___, 140
S. Ct. 2049, 207 L. Ed. 2d 870 (2020).
The task of reviewing whether any specific job
falls within the ministerial exception remains an
important judicial function; a charge that will require
scrutiny of the actual job functions and the religious
institution’s explanation of the role. See Our Lady of
Guadalupe Sch., 140 S. Ct. at 2066. The United States
Supreme Court “called on courts to take all relevant
circumstances into account and to determine whether
each particular position implicated the fundamental
purpose of the exception.” Id. at 2067 (citing HosannaTabor, 565 U.S. at 190). And the fundamental
purpose of the exception is to respect matters of faith
and doctrine, or ecclesiastical governance, so that we
do not meddle or undermine the independence of

27a
religious institutions.
The ministerial exception, required by both
religion clauses of the First Amendment, is a guide
that will help courts “stay out of employment disputes
involving those holding certain important positions
with churches and other religious institutions.” Id. at
2060. Whether a particular employment position
qualifies as “ministerial” is a question of law, and in
this context, “minister” is a legal term, rather than a
religious one, because the ministerial exception
prohibits “government interference with an internal
church decision that affects the faith and mission of
the church itself.” Hosanna-Tabor, 565 U.S. at 190. A
person does not have to be “the head of a religious
congregation” to qualify for the ministerial exception,
but there is no “rigid formula” for determining when
the exception applies. Id. Instead, we must consider
“all the circumstances” of the employment position at
issue. Id.
Here, some of the circumstances weigh in favor of
finding the ministerial exception applies. Seattle’s
Union Gospel Mission (SUGM) describes Open Door
Legal Services (ODLS) as a “ministry” that operates
with an “evangelical purpose,” and ODLS staff
attorneys “show the love of God by loving the client
holistically, not just attending to legal needs.” Clerk’s
Papers (CP) at 371-73. However, as SUGM has
acknowledged, there is “a difference between being
engaged in the ministry of a church and being a
minister” for purposes of the ministerial exception.
Wash. Supreme Court oral argument, Woods v.
Seattle’s Union Gospel Mission, No. 96132-8 (Oct. 10,
2019), at 28 min., 21 sec., video recording by TVW,
Washington State’s Public Affairs Network,

28a
http://www.tvw.org.
On the other hand, most of the circumstances of
an ODLS staff attorney weigh against finding that
such a position qualifies for the ministerial exception.
Unlike the employer in Hosanna-Tabor, SUGM does
not hold a staff attorney “out as a minister, with a role
distinct from that of most of its members.” 565 U.S. at
191. To the contrary, to the extent ODLS staff
attorneys are tasked with furthering SUGM’s
religious mission, the same is true of “every Mission
employee.” CP at 64; see also id. at 699. Also unlike
the employment position in Hosanna-Tabor, the
ODLS staff attorney position does not require “a
significant degree of religious training followed by a
formal process of commissioning” as a minister.
Hosanna-Tabor, 565 U.S. at 191. There is also no
evidence that any ODLS staff attorney has held
themselves out as a minister by claiming “a special
housing allowance on [their] taxes that [is] available
only to employees earning their compensation ‘in the
exercise of the ministry,’” or that staff attorneys were
ever expected or required to do so. Id. at 192 (internal
quotation marks omitted).
As noted by the majority, the Supreme Court has
further clarified the inquiry by cautioning against the
use of titles as an exclusive test since “what matters,
at bottom, is what an employee does.” Our Lady of
Guadalupe Sch., 140 S. Ct. at 2064. And unlike the
teachers at issue in Hosanna-Tabor and Our Lady of
Guadalupe School, the ODLS staff attorneys practice
law first and foremost. They practice law in a context
“primarily serving the homeless and others in great
need.” CP at 64. It is this court that has final
authority over the practice of law and legal ethics in

29a
Washington, and attorneys are required to comply
with the Washington Rules of Professional Conduct
(RPCs). There is no dispute that ODLS staff attorneys
are required to comply with the RPCs. And in the
context of a nonprofit legal aid organization serving
the civil legal needs of vulnerable populations, I
believe it is simply not possible to simultaneously act
as both an attorney and a minister while complying
with the RPCs.
Without question, the RPCs do not prohibit
religious considerations from being a factor in legal
practice because “[i]n rendering advice, a lawyer may
refer not only to law but to other considerations such
as moral, economic, social and political factors, that
may be relevant to the client’s situation.” RPC 2.1.
However, in Washington, a lawyer must be guided by
the client’s interests, not the lawyer’s (or their
employer’s) interests because the client has “the
ultimate authority to determine the purposes to be
served by legal representation.” RPC 1.2 cmt. 1. Thus,
“[c]oncurrent conflicts of interest can arise from . . .
the lawyer’s own interests.” RPC 1.7 cmt. 1.
In the particular context of a legal aid
organization serving the needs of vulnerable
populations, the likelihood of concurrent conflicts of
interest would be enormous if an attorney attempted
to act as a minister and a lawyer at the same time.
This conflict is likely if the necessary legal advice
conflicts with the religious message of the lawyer.
SUGM provides legal counsel to clients regardless of
clients’ own religious views, creating a high risk of
conflict between SUGM’s religious mission and the
client’s goals for representation. And because SUGM
is providing desperately needed civil legal aid to

30a
vulnerable populations, the likelihood that a client
would feel coerced into acquiescing to SUGM’s
religious purposes would be very high if an ODLS
staff attorney attempted to simultaneously play the
dual roles of lawyer and minister. To provide just one
example, if a same-sex couple had the goal of
facilitating an adoption, a lawyer would be required
to provide the clients with legal advice for achieving
their goal, while a minister promoting SUGM’s
religious beliefs may be required to discourage the
clients from pursuing such an adoption. When ODLS
staff attorneys are faced with such situations, they
properly respond as lawyers, not as ministers,
because, as the ODLS director confirmed, “[o]ur legal
advice is our legal advice.” CP at 149-50.
Thus, in the particular context presented here, if
SUGM raises the ministerial exception as an
affirmative defense on remand, the facts asserted in
this record strongly support a conclusion that an
ODLS staff attorney cannot qualify for the ministerial
exception as a matter of law. Unlike the educators in
Our Lady of Guadalupe School, these staff attorneys
are not charged with the responsibility of elucidating
or teaching the tenets of the faith. They are first and
foremost charged with providing objective legal
advice that may, in fact, conflict with the employing
entity’s religious doctrine. A religious organization
that chooses to employ an attorney in order to provide
civil legal aid cannot control the legal advice by
requiring the attorney to serve as minister and
attorney at the same time.
I concur.

31a

32a
No. 96132-8
STEPHENS, J. (dissenting in part and concurring
in part)—Matthew Woods applied for an attorney
position at Open Door Legal Services (ODLS), a legal
aid clinic of Seattle’s Union Gospel Mission (SUGM).
Though Woods had volunteered at the clinic for about
three years starting in law school, SUGM rejected his
employment application because Woods is bisexual.
As a condition of employment, SUGM requires
employees to obey a biblical moral code that excludes
‘“homosexual behavior.’” Clerk’s Papers (CP) at 4
(quoting SUGM’s Employee Code of Conduct). Woods
sued, alleging SUGM violated Washington’s Law
Against Discrimination (WLAD), ch. 49.60 RCW. The
superior court granted SUGM’s motion for summary
judgment and dismissed Woods’s suit based on RCW
49.60.040(11). That statute categorically exempts
“any religious or sectarian organization not organized
for private profit” from WLAD’s definition of
“employer.” RCW 49.60.040 (11). In other words, the
court ruled that WLAD grants religious nonprofits a
statutory privilege or immunity from WLAD liability
for employment discrimination. We granted review to
determine whether this statutory exemption is
unconstitutional.
In my view, we should hold RCW 49.60.040(11)
violates our state constitutional privileges and
immunities clause because it favors religious
nonprofits over all other employers without
reasonable grounds for doing so. While both the state
and federal constitutions afford protections for
religious freedom, those protections extend to
employers only in the narrow context of ministerial

33a
employment and do not provide reasonable grounds
for the categorical exemption from WLAD liability.1
On this basis, I dissent from the majority’s
holding under article I, section 12 of the Washington
State Constitution, though I concur in the result to
reverse the superior court’s order granting summary
judgment. I would hold the religious nonprofit
exemption under RCW 49.60.040(11) violates article
I, section 12’s antifavoritism principles, and remand
for further proceedings to give SUGM the chance to
brief and argue its affirmative defense to WLAD
liability based on the ministerial exception.
FACTS
SUGM incorporated in 1939 for the purpose of
“preaching . . . the gospel of Jesus Christ by
conducting rescue mission work in the City of
Seattle.” CP at 72. Its mission “is to serve, rescue and
transform those in greatest need through the grace of
Jesus Christ.” Id. at 118. Its articles of incorporation
As explained below, whether the ministerial exception
applies to the facts here is not before us on review but may be
considered on remand. See generally Hosanna-Tabor
Evangelical Lutheran Church & Sch. v. Equal Emp’t
Opportunity Comm’n., 565 U.S. 171, 188, 132 S. Ct. 694, 181 L.
Ed. 2d 650 (2012) (holding that the First Amendment to the
United States Constitution’s religion clauses contain a
ministerial exception that prevents government from interfering
with a religious group’s employment practices related to
ministerial or ecclesiastical offices); see also Our Lady of
Guadalupe Sch. v. Morrissey-Berru, ___ U.S. ___, 140 S. Ct. 2049,
2069, 207 L. Ed. 2d 870 (2020) (determining the First
Amendment’s ministerial exception precluded two parochial
school teachers from suing for alleged employment
discrimination).
1

34a
provide, “[A]ny phase of the work other than direct
evangelism shall be kept entirely subordinate and
only taken on so far as seems necessary or helpful to
the spiritual work.” Id. at 72. In November 1943, the
Internal Revenue Service (IRS) recognized SUGM as
exempt from federal income tax under 26 U.S.C. §
501(c)(3). The IRS classified SUGM under 26 U.S.C.
§§ 509(a)(1) and 170(b)(1)(A)(i) as a publicly
supported church or a convention or association of
churches. In other words, SUGM is a religious
nonprofit organization.
Woods is Christian. After entering law school, he
decided to volunteer with SUGM’s legal clinic, ODLS.
As part of his volunteer service, Woods willingly
signed SUGM’s statement of faith, which requires,
among other things, agreement that the Bible is the
infallible word of God. SUGM belongs to the
Association of Gospel Rescue Missions, a group of
roughly 300 evangelical Christian ministries. All
member associations must comply with a similar
evangelical Christian statement of faith for their
volunteers and employees. The statement of faith
Woods signed did not mention sexual orientation.
As a volunteer, Woods helped ODLS clients
resolve various legal issues involving divorce, child
support, and immigration issues, and he represented
his clients at administrative hearings. Woods found
satisfaction in his volunteer work, which aligned with
his faith. He hoped to someday obtain paid, full-time
employment with SUGM. In 2014, shortly after
Woods was admitted to practice law in Washington
State, a staff attorney position with ODLS opened,
and Woods received an e-mail encouraging him and
other volunteers to apply. ODLS employs a managing

35a
attorney, two staff attorneys, and an administrative
assistant/interpreter. The job description listed
several essential job duties and required knowledge,
skills, and abilities, many of which had religious
aspects. The application also required answers to
several questions about the applicant’s religious
beliefs.
Woods is bisexual. Unsure whether SUGM would
accept his sexual orientation, he reached out to a
friend and colleague at ODLS whom he had known
since they were undergraduates together. He asked
her if she thought his sexual orientation might pose a
problem. At first, she did not think so, but she later
found a policy in SUGM’s employee handbook that
gave her pause. The handbook stated, “‘All staff
members are required to sign the doctrinal standard
of Seattle’s Union Gospel Mission. All staff members
are expected to live by a Biblical moral code that
excludes . . . homosexual behavior.’” CP at 4
(alteration in original) (quoting SUGM’s Employee
Code of Conduct). She suggested that Woods ask the
ODLS director, David Mace, for more information.
Woods e-mailed Mace and disclosed his
bisexuality. He informed Mace that he had a
boyfriend and that he could see himself marrying a
man someday. He asked if that would impact his
chances of employment. Mace told him that he could
not apply given SUGM’s code of conduct and
confirmed the employee handbook prohibited
“homosexual behavior.”2 Id. at 226. Woods applied
SUGM’s chief program officer stated, “[T]he Mission’s
sincerely held religious belief is that the Bible calls Christians to
abstain from any sexual activity outside of heterosexual
2

36a
anyway and, in his cover letter, he asked SUGM to
reconsider its policy. SUGM refused to consider him
for employment.
Woods sued under WLAD, alleging SUGM
engaged in discriminatory employment practices by
refusing to hire him because of his sexual orientation.
He directly challenged the constitutionality of RCW
49.60.040(11), WLAD’s religious nonprofit exemption,
arguing it violates our state privileges and
immunities clause, article I, section 12. SUGM
stipulated it would be facing a prima facie case of
sexual orientation discrimination if it were a secular
employer. But because SUGM is a religious nonprofit
exempt from WLAD under RCW 49.60.040(11), it
moved for summary judgment on the ground that it is
not an employer subject to WLAD liability.
The superior court issued a letter ruling and order
granting SUGM’s motion for summary judgment. It
found that SUGM qualifies as a religious nonprofit
employer and that the staff attorneys’ job duties
extend beyond providing legal counsel, to include
providing spiritual guidance. The court ruled it would
be impermissible to “determine . . . the relative merits
of different religious beliefs.” CP at 171. It concluded
marriage, including abstaining from homosexual behavior. This
belief is based, in part, on passages such as Romans 1:26-27, 1
Corinthians 6:9, and Matthew 19:4. The Mission further believes
that a Mission employee who publicly rejects this teaching
undermines the Mission’s ability to carry out its religious
purpose. For example, because Mission employees model this
surrender for our clients, we believe it is very difficult for an
employee to urge a recovering addict to surrender his or her life
to God when the employee publicly rejects well-known Christian
teaching.” CP at 65.

37a
a trial would improperly focus on which activities
within SUGM are secular and which are religious,
observing “societal tensions between religion and
LGBTQ disputes ‘must be resolved with tolerance
[and] without undue disrespect to sincere religious
beliefs.’” Id. (alteration in original) (quoting
Masterpiece Cakeshop, Ltd. v. Colo. Civil Rights
Comm’n, ___ U.S. ___, 138 S. Ct. 1719, 1732, 201 L.
Ed. 2d 35 (2018)). As a result, the superior court
dismissed Woods’s claims with prejudice. The court
did not address the ministerial exception or any
constitutional defenses to WLAD liability raised by
SUGM.
We granted direct review.
ANALYSIS
The majority frames the issue in this case as
whether RCW 49.60.040(11)’s religious nonprofit
exemption can be constitutionally applied under the
ministerial exception, but this approach evades the
constitutional question actually before us. Woods
contends the exemption violates article I, section 12
of the Washington State Constitution on both
legislative favoritism grounds and equal protection
grounds. Our state privileges and immunities clause
requires that we consider the statutory exemption as
it exists—not as we might rewrite it. Moreover,
whether SUGM could successfully assert a
constitutional affirmative defense to WLAD liability
for acts of discrimination involving its ministers does
not answer whether the (much broader) religious
nonprofit exemption violates article I, section 12.
Addressing the constitutionality of the exemption as

38a
it was actually applied here, I would hold exempting
SUGM from WLAD liability based on its status as a
religious nonprofit violates article I, section 12
antifavoritism principles. I would also reject SUGM’s
asserted defenses under the First Amendment to the
United States Constitution except insofar as it can
prove the ministerial exception applies to Woods’s
employment.
A. The Religious Nonprofit Exemption Violates
Article I, Section 12 Antifavoritism Principles
Article I, section 12 provides, “No law shall be
passed granting to any citizen, class of citizens, or
corporation other than municipal, privileges or
immunities which upon the same terms shall not
equally belong to all citizens, or corporations.”
In years past, we interpreted article I, section 12
like the federal equal protection clause. Schroeder v.
Weighall, 179 Wn.2d 566, 571, 316 P.3d 482 (2014).
But over time “[o]ur cases . . . recognized that the text
and aims of article I, section 12 differ from that of the
federal equal protection clause.” Ockletree v.
Franciscan Health Sys., 179 Wn.2d 769, 775-76, 317
P.3d 1009 (2014) (lead opinion). Congress passed the
Fourteenth Amendment after the Civil War in part to
prevent states from denying any person equal
protection under the law. See State v. Smith, 117
Wn.2d 263, 283, 814 P.2d 652 (1991) (Utter, J.,
concurring). The framers of our privileges and
immunities clause, in contrast, “intended to prevent
people from seeking certain privileges or benefits to
the disadvantage of others.” Id. The clause aims to
prevent “favoritism and special treatment for a few.”
Id. For this reason, we now apply an independent

39a
analysis from the federal equal protection clause in
cases involving legislative favoritism. E.g., Ass’n of
Wash. Spirits & Wine Distribs. v. Wash. State Liquor
Control Bd., 182 Wn.2d 342, 359, 340 P.3d 849 (2015)
(citing Grant County Fire Prot. Dist. No. 5 v. City of
Moses Lake, 150 Wn.2d 791, 805, 811, 83 P.3d 419
(2004)). Still, this independent, antifavoritism
analytical framework “did not overrule our long line
of article I, section 12 cases addressing laws that
burden vulnerable groups” on state equal protection
grounds. Schroeder, 179 Wn.2d at 577.
Under the antifavoritism framework, the terms
“privileges” and “immunities” “pertain alone to those
fundamental rights which belong to the citizens of the
state by reason of such citizenship.” State v. Vance, 29
Wash. 435, 458, 70 P. 34 (1902). The threshold
question in our antifavoritism analysis is whether the
challenged statute implicates or encroaches on a
fundamental right of state citizenship. Schroeder, 179
Wn.2d at 572.3
As for the threshold question, the majority holds
the fundamental rights implicated here are the right
to an individual’s sexual orientation and the right to
marry. Majority at 9. But it locates these rights
exclusively in federal due process cases that
If a statutory benefit does not first encroach on a
fundamental right of state citizenship, this constitutional
inquiry ends. See, e.g., Grant, 150 Wn.2d at 814; Ventenbergs v.
City of Seattle, 163 Wn.2d 92, 102-05, 178 P.3d 960 (2008)
(determining that while the constitutional inquiry under article
I, section 12 must end because the right at issue there was not a
fundamental right, courts would still analyze the disputed law
under a general rubric of reasonableness because the legislature
must exercise its police power in a reasonable way).
3

40a
erroneously tie (and thereby limit) principles of
antidiscrimination recognized as fundamental in
Washington.4 Majority at 9-11 (citing Lawrence v.
Texas, 539 U.S. 558, 577-78, 123 S. Ct. 2472, 156 L.
Ed. 2d 508 (2003); Bowers v. Hardwick, 478 U.S. 186,
215-20, 106 S. Ct. 2841, 92 L. Ed. 2d 140 (1986)
(Stevens, J., dissenting); Obergefell v. Hodges, 576
U.S. 644, 663-65, 135 S. Ct. 2584, 192 L. Ed. 2d 609
(2015)). Whether a statute violates due process is
distinct from whether a statute grants a privilege or
immunity. The majority’s analysis is plainly built on
the wrong constitutional foundation.5
To be clear, I would welcome the recognition of marriage
and the right to live free from discrimination based on sexual
orientation as fundamental rights of state citizenship. But that
is not what today’s majority does. The majority recognizes those
rights as fundamental rights under federal constitutional
principles and subtly distances fundamental rights of state
citizenship, concluding only that there may be “the right to one’s
sexual orientation as manifested as a decision to marry.”
Majority at 13. Importantly, the majority does not address
Andersen v. King County, 158 Wn.2d 1, 30-31, 138 P.3d 963
(2006) (plurality opinion) (rejecting marriage equality as a
fundamental right), overruled by Obergefell v. Hodges, 576 U.S.
644, 135 S. Ct. 2584, 192 L. Ed. 2d 609 (2015). The result is a
“fundamental right to marry” and a “fundamental right to sexual
orientation” under the due process clause of the federal
constitution, but if the majority intends to protect these rights
under our state constitution, it should explicitly hold they are
fundamental to state citizenship.
4

We have never equated fundamental rights guaranteed by
the federal due process clause with the fundamental rights of
state citizenship protected under article I, section 12. Those two
categories of fundamental rights are distinct—they protect
different rights for different reasons. It would be anachronistic
for the framers of Washington’s constitution in 1889 to have
intended to safeguard rights that would not be protected under
5

41a
Worse, after positing fundamental due process
rights to open the door to a privileges and immunities
analysis, the majority promptly abandons them and
minimizes the import of WLAD. I would hold WLAD
implicates a right we have long recognized as a
fundamental right of state citizenship—the civil right
to seek redress for discrimination. Ockletree, 179
Wn.2d at 794-97 (Stephens, J., dissenting)
(recognizing that protection from discrimination is a
“personal,” civil right redressable at common law), see
id. at 806 (Wiggins, J., concurring in part in dissent)
(“I agree with the dissent that the exemption of
religious and sectarian organizations in RCW
49.60.040(11) is subject to scrutiny under the
privileges and immunities clause of article I, section
12 of the Washington Constitution.”); see also Cotten
v. Wilson, 27 Wn.2d 314, 317-20, 178 P.2d 287 (1947)
(holding the right to sue in negligence is a privilege of
state citizenship protected by article I, section 12). We
should recognize Woods enjoys a fundamental right of
state citizenship to seek redress for employment
discrimination and proceed under our two part
privileges and immunities analysis. Schroeder, 179
Wn.2d at 572-73. “First, we ask whether a challenged
law grants a ‘privilege’ or ‘immunity’ for purposes of
our state constitution.” Id. at 573 (quoting Grant, 150
Wn.2d at 812). “If the answer is yes, then we ask
federal due process for a generation. See Meyer v. Nebraska, 262
U.S. 390, 399, 43 S. Ct. 625, 67 L. Ed. 1042 (1923). Moreover,
fundamental rights of state citizenship are not necessarily
fundamental federal constitutional rights. See Ockletree, 179
Wn.2d at 793 (Stephens, J., dissenting) (collecting cases and
noting we have applied a standard less stringent than strict
scrutiny to cases involving the fundamental right to sell cigars,
animal feed, and eggs).

42a
whether there is a ‘reasonable ground’ for granting
that privilege or immunity.” Id. (quoting Grant
County Fire Prot. Dist. No. 5 v. City of Moses Lake,
145 Wn.2d 702, 731, 42 P.3d 394 (2002)).
As to the first question, we must consider the
religious nonprofit exemption as it was written and
how it was actually applied in this case. The
exemption categorically exempts religious nonprofits
from WLAD, thereby creating a status-based
privilege to discriminate in employment (or stated
differently, an immunity from WLAD liability for
employment discrimination). It operates solely on the
basis of the employer’s status as a religious nonprofit.
Ockletree, 179 Wn.2d at 797 (Stephens, J.,
dissenting), 806 (Wiggins, J., concurring in part in
dissent); cf. Farnam v. CRISTA Ministries, 116 Wn.2d
659, 672-81, 807 P.2d 830 (1991) (holding that RCW
49.60.040 categorically exempts religious nonprofits,
including subsidiaries of larger religious nonprofit
entities, no matter if the subsidiary itself has an
independent religious purpose). Because the
exemption grants religious nonprofits a privilege or
immunity within the meaning of article I, section 12,
we next consider whether reasonable grounds exist
for granting such a privilege.
The majority offers several justifications for a
WLAD exemption that respects employers’ religious
freedoms. It describes the religious employer
exemption as balancing the “statutory right for
employees to be free from discrimination” against
religious employers’ “constitutional right . . . to choose
workers who reflect the employers’ beliefs when

43a
hiring ministers.”6 Majority at 2. But, this description
is both counter-factual and inconsistent with the
majority’s own fundamental rights analysis.
Contrary to the majority’s description, the
religious employer exemption reflects no balancing of
interests based on an employer’s exercise of religious
freedoms. It applies only to religious nonprofits and,
as observed in Farnam, it applies to all activities of
such nonprofits regardless of whether they are
religious activities. 116 Wn.2d at 676-77. Thus, a
secular employer exercising protected religious rights
cannot claim the exemption, while a religious
nonprofit enjoys the legislatively granted immunity
carte blanche. The majority, under the guise of an asapplied challenge, imagines an exemption that does
not exist—and that was not applied here. It is
undisputed that SUGM claimed, and was granted, the
exemption based on its status as a religious nonprofit,
period.

Today’s majority repeats the rejected view of the lead
opinion in Ockletree, which had insisted that “protection from
discrimination in private employment is a creature of statutory
enactment.” 179 Wn.2d at 780. However, both the concurrence
and dissent in Ockletree held that the statutory exemption
implicates a fundamental right and is thus subject to scrutiny
for reasonable grounds under article I, section 12. Id. at 806
(Wiggins, J., concurring in part in dissent), 794-97 (Stephens, J.,
dissenting). Indeed, given WLAD’s recognition of the “civil right”
to “obtain and hold employment without discrimination,” RCW
49.60.030(1)(a), the dissent in Ockletree observed, “It is simply
incredible for the lead opinion to suggest that Washington
citizens enjoyed no state common-law remedy for discrimination
until 1973⸺and that even today they must rely on state and
federal legislative grace to vindicate their rights.” 179 Wn.2d at
796.
6

44a
Moreover, the majority’s characterization of
Woods’s right to be free from discrimination as merely
a statutory right contradicts its conclusion under the
first part of its privileges and immunities analysis.
There, the majority concluded Woods’s claim
implicates the fundamental constitutional rights to
marriage and sexual orientation. Majority at 9. While
I disagree with the majority’s grounding of the
relevant rights in the federal due process clause, it is
true that Woods has a fundamental right to be free
from discrimination based on sexual orientation.
Under the majority’s own framework, it is Woods’s
constitutional rights that we must balance against the
religious employers’ statutory privilege, not the other
way around. The majority’s failure to properly weigh
the rights at issue in this case undermines its
subsequent determination that reasonable grounds
support the religious employer exemption.
“The article I, section 12 reasonable grounds test
is more exacting than rational basis review. Under
the reasonable grounds test a court will not
hypothesize facts to justify a legislative distinction.”
Schroeder, 179 Wn.2d at 574. Instead, we “scrutinize
the legislative distinction to determine whether it in
fact serves the legislature’s stated goal.” Id. The
distinction must depend on “real and substantial
differences bearing a natural, reasonable, and just
relation to the subject matter of the act.” State ex rel.
Bacich v. Huse, 187 Wash. 75, 84, 59 P.2d 1101 (1936),
overruled on other grounds by Puget Sound Gillnetters
Ass’n v. Moos, 92 Wn.2d 939, 603 P.2d 819 (1979). Put
differently, “[t]he distinctions giving rise to the
classification must be germane to the purposes
contemplated by the particular law.” Id. We “do not

45a
extend the legislature permission to ‘proceed
incrementally,’ instead [we] tak[e] a statute as [we]
find it.” Ockletree, 179 Wn.2d at 797 (Stephens, J.,
dissenting) (quoting Jonathan Thompson, The
Washington Constitution’s Prohibition on Special
Privileges and Immunities: Real Bite for “Equal
Protection” Review of Regulatory Legislation?, 69
TEMPLE L. REV. 1247, 1278-79 (1996)).
RCW 49.60.010 states the legislature’s goal or
purpose:
This chapter shall be known as the “law
against discrimination.” It is an exercise of
the police power of the state for the protection
of the public welfare, health, and peace of the
people of this state, and in fulfillment of the
provisions of the Constitution of this state
concerning civil rights. The legislature hereby
finds and declares that practices of
discrimination against any of its inhabitants
because of race, creed, color, national origin,
citizenship or immigration status, families
with children, sex, marital status, sexual
orientation, age, honorably discharged
veteran or military status, or the presence of
any sensory, mental, or physical disability or
the use of a trained dog guide or service
animal by a person with a disability are a
matter of state concern, that such
discrimination threatens not only the rights
and proper privileges of its inhabitants but
menaces the institutions and foundation of a
free democratic state.

46a
In the context at issue, WLAD’s stated goal is quite
simply the “elimination and prevention of discrimination in employment.” Id.
While legislatures sometimes include blanket
exemptions for religious organizations in various
statutes, and such exemptions may reflect legislative
attempts to safeguard free exercise rights, see State v.
Arlene’s Flowers, Inc., 193 Wn.2d 469, 520, 441 P.3d
1203 (2019), there is no evidence of that here.
Contrary to the majority’s characterization, WLAD’s
stated goal or purpose does not encompass
safeguarding the free exercise of religion (or avoiding
excessive entanglement with religion). See generally
RCW 49.60.010. And we are not free to infer or
“hypothesize” such a goal simply because the
exemption exists. See Schroeder, 179 Wn.2d at 574
(“Under the reasonable ground test a court will not
hypothesize facts to justify a legislative distinction.”).
Doing so risks the reasonable grounds standard—a
heightened standard of review—devolving into
rational basis review.
Indeed, the majority’s reasoning appears to be
circular by gleaning the legislature’s goal or purpose
from the legislative distinction itself. See majority at
11 (noting that “RCW 49.60.040(11) itself is evidence
of reasonable grounds”). But we do not analyze
reasonable grounds as a syllogism (i.e., legislative
distinctions encompass legislative goals; the religious
nonprofit exemption here is a legislative distinction;
thus, the religious nonprofit exemption encompasses
a legislative goal). The reasonable grounds test would
be a pointless exercise if that were the case, a
tautology. Instead, we look at the broader goal or
purpose of the statutory scheme. State ex rel. Bacich,

47a
187 Wash. at 84 (determining the distinction must
bear a true “relation to the subject matter of the act”
(emphasis added)). Here, the law against
discrimination’s goal or purpose is just that:
antidiscrimination. See generally RCW 49.60.010.
The question thus becomes whether exempting
religious nonprofits in fact serves the legislature’s
antidiscrimination goal. It does not. The legislative
distinction here is antithetical to WLAD’s stated goal
or purpose because it gives religious nonprofits carte
blanche to discriminate in employment.
Despite bearing no relationship to WLAD’s
purpose, the majority argues Ockletree held the
religious nonprofit exemption rests on reasonable
grounds. Majority at 13. I disagree.
The Ockletree court could not agree on a common
line of reasoning establishing reasonable grounds for
the exemption so it establishes no precedent on that
point of law. The lead opinion and Justice Wiggins
agreed reasonable grounds existed but neither
accepted the other’s reasoning. See Ockletree, 179 Wn.
2d. at 783-86 (lead opinion), 806 (Wiggins, J.,
concurring in part in dissent). The dissent
determined, on the other hand, no reasonable grounds
existed. Id. at 797-800 (Stephens, J., dissenting).
Accordingly, Ockletree did not hold WLAD’s
stated goal or purpose encompasses fostering free
exercise or avoiding entanglement with religion.
Whether reasonable grounds ultimately justify the
religious nonprofit employer exemption remains an
open question.
To answer this question, we must focus on the
exemption as it actually exists and was applied in this

48a
case. The majority errs by instead aligning the
statutory exemption with the ministerial exception
developed under First Amendment doctrine. See
majority at 13 (“To determine whether reasonable
grounds exist . . . in this case, we look to the
ministerial exception outlined by the United States
Supreme Court.”). But the United States Supreme
Court’s jurisprudence recognizing a limited
constitutional privilege to discriminate has no
bearing on whether the Washington legislature
articulated reasonable grounds for granting religious
employers a categorical privilege in RCW
49.60.040(11). This is particularly true given that the
Supreme Court did not recognize the ministerial
exception until 2012, fully 63 years after our
legislature created WLAD’s religious employer
exemption. See Hosanna-Tabor, 565 U.S at 188-89
(first recognizing the ministerial exception); LAWS OF
1949, ch. 183, § 3(b) (exempting religious nonprofits
from the definition of employer).7
Taking the religious employer exemption as we
find it—a requirement for reasonable grounds review
under article I, section 12—I would hold the
categorical exemption of religious nonprofits from
WLAD’s definition of employer grants an
To be fair, lower federal courts had recognized the
ministerial exception well before the United States Supreme
Court. See McClure v. Salvation Army, 460 F.2d 553, 558 (5th
Cir. 1972). But even this earliest articulation of the ministerial
exception came 23 years after the Washington legislature
exempted religious nonprofits from WLAD. The Washington
State legislature could not have relied on this theory of federal
constitutional law to provide reasonable grounds for its decision
to exempt religious nonprofits from WLAD in 1949.
7

49a
unconstitutional privilege to a favored class of
employers. By its plain terms, the exemption
categorically carves out religious nonprofits from
WLAD, no matter if their activities have any religious
purpose. RCW 49.60.040(11); Farnam, 116 Wn.2d at
672-81 (holding that the legislature categorically
exempted all religious nonprofits entities from
liability under WLAD, including subsidiaries not
engaged in religious activities). Even if we were to
impermissibly hypothesize that the exemption
expresses a legislative intent to foster free exercise, it
favors the free exercise rights of religious nonprofits
over all other employers who might also hold sincere
religious beliefs. That act of legislative favoritism
unconstitutionally violates our state privileges and
immunities clause because it does not rest on
reasonable grounds—it does not serve WLAD’s stated
goals. See, e.g., Schroeder, 179 Wn.2d at 574.8

The majority fundamentally misunderstands the
reasonable grounds analysis under article I, section 12 when it
suggests we should not reach the question of facial invalidity as
to the religious nonprofit exemption. See majority at 7-8. We are
not at liberty to rewrite RCW 49.60.040(11), and that exemption
categorically removes religious nonprofits from the definition of
“employer” based solely on their status. Even framing the
question as whether any circumstances exist under which the
exemption can stand, it must fail because religious nonprofit
status is not reasonable grounds for discrimination. The
majority would collapse into its reasonable grounds analysis the
separate⸺and as yet unaddressed⸺defense that SUGM may
raise to application of WLAD based on the ministerial exception
recognized under the First Amendment and article I, section 11.
We cannot assume the existence of SUGM’s unproven as-applied
challenge to WLAD liability in order to rewrite the statute and
then put the burden to Woods to challenge it. I would hold the
8

50a
Recognizing that the religious nonprofit
exemption violates article I, section 12 does not mean
employers like SUGM stand defenseless to assert
religious
freedoms
against
allegations
of
discrimination under WLAD. The First Amendment’s
ministerial exception may still serve as a
constitutional defense to suits brought under
antidiscrimination laws. But it must remain just
that—a constitutional defense. We should refuse to
rewrite an unconstitutional statute. See City of
Redmond v. Moore, 151 Wn.2d 664, 668-69, 91 P.3d
875 (2004). By erroneously applying Hosanna-Tabor
in the context of article I, section 12, my colleagues
risk endorsing government entanglement with
religion, not to mention prematurely reaching
constitutional claims that are not before us. SUGM
does not advance any specific argument on direct
review claiming that the ministerial exception applies
and it does not explicitly argue its lawyers are
ministers under Hosanna-Tabor. SUGM correctly
recognizes, “[I]n Hosanna-Tabor, it was the employer
who put the job role at issue as a constitutional,
affirmative defense to a generally applicable law.” Br.
of Resp’t at 25. That is not the posture of the case
before us. Doctrinally speaking, courts consider
Hosanna-Tabor’s reasoning when raised as a
constitutional defense to WLAD under the First
Amendment—not to construct reasonable grounds for
the exemption under article I, section 12. Since
SUGM asserted the ministerial exception as an
affirmative defense in its answer, CP at 16, I would
remand for further proceedings and allow the parties
categorical exemption
unconstitutional.

that

is

actually

before

us

is

51a
to brief and argue about the applicability of that
defense in the superior court. See, e.g., Erdman v.
Chapel Hill Presbyterian Church, 175 Wn.2d 659,
665-66, 286 P.3d 357 (2012) (plurality opinion)
(remanding Title VII of the Civil Rights Act of 1964
claim for further proceedings to establish whether the
ministerial exception applies).
A remaining question is whether SUGM should
also be able to pursue other defenses grounded in
claims of religious freedoms. Specifically, SUGM
broadly asserts application of WLAD to its
employment decisions would violate its free exercise
rights under the First Amendment and article I,
section 11 of the Washington State Constitution. As
discussed next, this assertion is inconsistent with
established law interpreting these constitutional
provisions. WLAD liability generally applies to
religious nonprofits for discriminatory employment
practices except in the narrow context of ministerial
employment.
B. WLAD—A Neutral Law of General
Applicability—Does Not Violate SUGM’s
Right to Free Exercise under the First
Amendment
Absent
a
Showing
the
Ministerial Exception Applies
SUGM argues that allowing it to be held liable
under WLAD by invalidating the religious nonprofit
exemption violates its free exercise rights under the
First Amendment. But WLAD is a neutral law of
general applicability that survives constitutional
scrutiny. Courts may apply WLAD to a religious
employers’ alleged employment discrimination except
in the narrow context of ministerial employment.

52a
“The First Amendment provides, in part, that
‘Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof.’” Trinity Lutheran Church of
Columbia, Inc. v. Comer, ___ U.S. ___, 137 S. Ct. 2012,
2019, 198 L. Ed. 2d 551 (2017). The free exercise
clause applies to the states through the Fourteenth
Amendment. Church of Lukumi Babalu Aye, Inc. v.
City of Hialeah, 508 U.S. 520, 531, 113 S. Ct. 2217,
124 L. Ed. 2d 472 (1993) (citing Cantwell v.
Connecticut, 310 U.S. 296, 303, 60 S. Ct. 900, 903, 84
L. Ed. 1213 (1940)). But “[n]ot all burdens on religion
are unconstitutional,” and “[t]he state may justify a
limitation on religious liberty by showing that it is
essential to accomplish an overriding governmental
interest.” United States v. Lee, 455 U.S. 252, 257-58,
102 S. Ct. 1051, 1055, 71 L. Ed. 2d 127 (1982).
We apply two levels of scrutiny to laws that
allegedly burden religion under the free exercise
clause. Arlene’s Flowers, 193 Wn.2d at 519. We apply
rational basis review to neutral laws of general
applicability. Id. And we apply strict scrutiny to “laws
that discriminate against some or all religions (or
regulate conduct because it is undertaken for religious
reasons).” Id.
“A law is not neutral for purposes of a First
Amendment free exercise challenge if ‘the object of
[the] law is to infringe upon or restrict practices
because of their religious motivation.’” Id. (alteration
in original) (quoting Lukumi Babalu Aye, 508 U.S. at
533). The object of WLAD in the context at issue here
is the “elimination and prevention of discrimination
in employment.” RCW 49.60.010. The legislature did
not intend WLAD to infringe on or restrict

53a
employment decisions because of their religious
motivation. SUGM has not shown, for example, that
the legislature enacted WLAD to burden religious
employers’ employment practices or to specifically
target them based on their creeds. I would hold
WLAD is neutral under First Amendment free
exercise doctrine. The next question is whether
WLAD is a law of general applicability.
A law generally applies if it does not selectively
“impose burdens only on conduct motivated by
religious belief.” Lukumi Babalu Aye, 508 U.S. at 543.
As currently drafted, WLAD generally applies to all
employers except “any religious or sectarian
organization not organized for private profit.” RCW
49.60.040(11). WLAD does not seek to selectively
burden religiously motivated conduct. Holding the
religious nonprofit exemption unconstitutional under
our state privileges and immunities clause does not
change the general applicability of the statute.
Without the unconstitutional exemption, WLAD
applies to all employers except religious employers
that raise and prove an affirmative defense based on
the ministerial exception. I would therefore construe
WLAD as a law of general applicability.
Because I would construe WLAD as a neutral law
of general applicability, I would apply rational basis
review. See Arlene’s Flowers, 193 Wn.2d at 519, 523
(“WLAD is a neutral, generally applicable law subject
to rational basis review.”). WLAD easily meets that
standard because it is rationally related to the
government’s legitimate interest in the “elimination
and prevention of discrimination in employment.”
RCW 49.60.010.

54a
That said, “the Religion Clauses ensure[] that the
[government has] . . . no role in filling ecclesiastical
offices.” Hosanna-Tabor, 565 U.S. at 184. “Both
Religion Clauses bar the government from interfering
with the decision of a religious group” on the
employment of its “ministers.” Id. at 181. Because
“there is a ministerial exception grounded in the
Religion Clauses of the First Amendment,” id. at 190,
WLAD cannot constitutionally apply in the context of
ministerial or ecclesiastical employment. “This does
not mean that religious institutions enjoy a general
immunity from secular laws, but it does protect their
autonomy with respect to internal management
decisions that are essential to the institution’s central
mission. And a component of this autonomy is the
selection of the individuals who play certain key
roles.” Our Lady of Guadalupe, 140 S. Ct. at 2060.
Application of WLAD to SUGM’s discriminatory
employment practices does not violate SUGM’s free
exercise rights under the First Amendment with
reference to nonministerial positions. But that
holding does not preclude SUGM or any religious
employer from arguing a constitutional affirmative
defense under the First Amendment’s religion clauses
based on the ministerial exception. See generally id.;
Hosanna-Tabor, 565 U.S. 171. Whether SUGM’s
lawyers are ministers is not before us on review and
remains to be addressed on remand. I next turn to
SUGM’s state constitutional claim that article I,
section 11 shields SUGM from liability under the
statute—it does not.

55a
C. WLAD Does Not Violate SUGM’s Right to
“Absolute Freedom of Conscience in All
Matters of Religious Sentiment, Belief and
Worship” under Article I, Section 11 except in
the
Narrow
Context
of
Ministerial
Employment
Besides asserting its First Amendment rights,
SUGM argues holding it liable under WLAD would
violate article I, section 11 of the Washington State
Constitution.
Article I, section 11 provides, in part, “Absolute
freedom of conscience in all matters of religious
sentiment, belief and worship, shall be guaranteed to
every individual, and no one shall be molested or
disturbed in person or property on account of
religion.” “[W]e have specifically held [in some
contexts] . . . that article I, section 11 is more
protective of religious free exercise than the First
Amendment is.” Arlene’s Flowers, 193 Wn.2d at 527
(“‘[O]ur state constitutional and common law history
support a broader reading of article [I], section 11,
than of the First Amendment.’” (second alteration in
original) (quoting First Covenant Church of Seattle v.
City of Seattle, 120 Wn.2d 203, 224, 840 P.2d 174
(1992))). SUGM did not provide an independent state
constitutional analysis, and neither party addresses
what level of scrutiny should apply under article I,
section 11. But even assuming without deciding strict
scrutiny applies, SUGM’s article I, section 11
argument fails.
Generally, “we have applied the same fourpronged analysis in an article I, section 11 challenge:
where a party has (1) a sincere religious belief and (2)

56a
the exercise of that belief is substantially burdened by
the challenged law, the law is enforceable against
that party only if it (3) serves a compelling
government interest and (4) is the least restrictive
means of achieving that interest.” Id. (citing City of
Woodinville v. Northshore United Church of Christ,
166 Wn.2d 633, 642, 211 P.3d 406 (2009)).
I do not question whether SUGM based its
employment decision on a sincere religious belief that
“‘[a]ll staff members are expected to live by a Biblical
moral code that excludes . . . homosexual behavior,’”
CP at 4 (alteration in original) (quoting SUGM’s
Employee Code of Conduct), and I assume WLAD
substantially burdens the exercise of that belief by
preventing employment discrimination based on
sexual orientation. See RCW 49.60.030(1)(a). So the
question becomes whether WLAD serves a compelling
governmental interest and is the least restrictive way
to achieve that interest. Arlene’s Flowers, 193 Wn.2d
at 527.
In the context of racial discrimination in
employment, the United States Supreme Court has
held, “The Government has a compelling interest in
providing an equal opportunity to participate in the
work force without regard to race, and prohibitions on
racial discrimination are precisely tailored to achieve
that critical goal.” Burwell v. Hobby Lobby Stores,
Inc., 573 U.S. 682, 733, 134 S. Ct. 2751, 189 L. Ed. 2d
675 (2014). The same result applies here. Preventing
employment discrimination based on sexual
orientation is a compelling governmental interest just
like preventing employment discrimination based on
race is. See, e.g., Telescope Media Grp. v. Lucero, 936
F.3d 740, 777 (8th Cir. 2019) (“If eradicating

57a
discrimination based on race or sex is a compelling
state interest, then so is Minnesota’s interest in
eradicating discrimination based on sexual
orientation.”).9 Discrimination against protected
classes “menaces the institutions and foundation of a
free democratic state.” RCW 49.60.010. WLAD serves
a compelling governmental interest—it safeguards
the right of protected classes to obtain and hold
employment without discrimination. See RCW
49.60.030(1)(a).
Although “[t]he least-restrictive-means standard
is exceptionally demanding,” Hobby Lobby, 573 U.S.
at 728, there is no less restrictive means available
here to satisfy the government’s compelling interest
in eliminating and preventing employment
discrimination based on sexual orientation. Our
recent decision in Arlene’s Flowers reveals this truth.
There, a flower shop owner discriminated based on
sexual orientation by refusing to provide custom floral
arrangements for a same-sex wedding. 193 Wn.2d at
483-84. We concluded “public accommodations laws
do not simply guarantee access to goods or services.
Instead, they serve a broader societal purpose:
eradicating barriers to the equal treatment of all
Jurists across the country have reached similar
conclusions. See, e.g., Gay Rights Coal. of Georgetown Univ. Law
Ctr. v. Georgetown Univ., 536 A.2d 1, 32 (D.C. 1987) (concluding
that the eradication of sexual orientation discrimination is a
compelling governmental interest of the highest order that may
override legitimate claims to free exercise of religion); Hively v.
Ivy Tech Cmty. Coll. of Ind., 853 F.3d 339, 355 (7th Cir. 2017)
(Posner, J., concurring) (recognizing “[t]he compelling social
interest” against discrimination based on sexual orientation
under Title VII “as a sensible deviation from the literal or
original meaning of the statutory language”).
9

58a
citizens in the commercial marketplace. Were we to
carve out a patchwork of exceptions for ostensibly
justified discrimination, that purpose would be fatally
undermined.” Id. at 531 (footnote omitted). We
unanimously held WLAD survives strict scrutiny in
an article I, section 11 challenge. Id. at 528-32.
The reasoning in Arlene’s Flowers applies equally
here because employment and public accommodation
antidiscrimination laws serve the same purpose—
“eradicating barriers to the equal treatment of all
citizens.” See id. at 531. Providing ad hoc exemptions
for sincere religious beliefs would frustrate WLAD’s
goal of “elimination and prevention of discrimination
in employment.” RCW 49.60.010; see Masterpiece
Cakeshop, 138 S. Ct. at 1727 (noting that if the Court
did not confine the refusal to provide goods and
services to ministers who object to LGBTQ lifestyles
on moral and religious grounds, “then a long list of
persons who provide goods and services . . . might
refuse to do so for gay persons, thus resulting in a
community-wide stigma inconsistent with the history
and dynamics of civil rights laws that ensure equal
access
to
goods,
services,
and
public
accommodations”). Allowing religious employers to
discriminate against LGBTQ persons outside the
context of ministerial employment would likewise
lead to “a community-wide stigma” that WLAD aims
to eliminate. See Masterpiece Cakeshop, 138 S. Ct. at
1727.
More to the point, like the court in Arlene’s
Flowers, I cannot locate “any case invalidating an
antidiscrimination law under a free exercise strict
scrutiny analysis.” See 193 Wn.2d at 530-31
(collecting cases in which antidiscrimination laws

59a
have survived strict scrutiny). I would therefore hold
that SUGM’s broadly asserted defense under article
I, section 11 fails, even assuming strict scrutiny
applies. See id. at 528-32. On remand, SUGM may
seek to establish a narrow affirmative defense based
on the ministerial exception, but that defense is not
part of our article I, section 12 analysis and is not
before us on review.
CONCLUSION
RCW 49.60.040(11)’s exemption of religious
nonprofits from WLAD’s definition of employer
violates our state privileges and immunities clause on
antifavoritism grounds. Applying reasonable grounds
review, I would invalidate the categorical exemption
as it was actually applied here—to categorically
exempt SUGM from Woods’s claims of employment
discrimination. While I believe this is the correct
holding under article I, section 12, such a holding does
not deny employers like SUGM religious freedoms.
Though broadly asserted claims of free exercise fail,
the narrow ministerial exception may be asserted as
a defense to WLAD liability. I would remand to the
superior court so that SUGM may seek to prove that
applying WLAD to its decision not to hire Woods
violates its right under the federal and state religion
clauses based on the ministerial exception.
Accordingly, while I dissent from the majority’s
analysis and conclusion under article I, section 12, I
concur in the result.

60a

61a

June 25, 2018
J. Denise Diskin
Sara Amies
Teller & Associates
1139 34th Avenue, Suite B
Seattle, WA 98122
Nathaniel L. Taylor
Abigail J. St. Hilaire
Ellis Li McKinstry
2025 First Avenue, Penthouse A
Seattle, WA 98121-3125
RE: Woods v. Seattle’s Union Gospel Mission
King County Superior Court Case
No. 17-2-29832-8
Dear Counsel,
This case involves the difficult balance between civil
rights and the exercise of religious beliefs.
Mr. Woods is a bisexual Christian who believes in the
teachings of Jesus Christ. His “world view is shaped
by the ministry of Jesus Christ who teaches [him] that
social justice is critical in a world where we have

62a
enough resources that no one need go without their
basic needs ....” Woods Decl., Ex 5. Mr. Woods wished
to exercise his beliefs through an opportunity that he
considered to be his dream job: working with the Open
Door Legal Services (ODLS) clinic with Seattle’s
Union Gospel Mission (the “Mission”). Woods Decl.,
Ex 6. He was denied the opportunity of being
considered for this job despite possessing the required
skills and education and despite his history of
volunteering with, and being supportive of OLDS,
because of his sexual orientation. Diskin Decl., Ex F.
The Mission stipulated that it would be facing a prima
facie case of sexual orientation discrimination were
they a secular employer.
The Mission is a religious non-profit organization.
The Mission’s Articles of Incorporation state that the
“objects and purposes of this corporation are and shall
be the preaching of the gospel of Jesus Christ by
conducting rescue mission work in the City of Seattle,
and to carry on such work as may be necessary or
convenient for the spiritual, moral and physical
welfare of any of those with who it may work .... and
that any phase of the work other than direct
evangelism shall be kept entirely subordinate and
only taken on so far as seems necessary or helpful to
the spiritual work ....” Mitchell Decl., Ex 1. On its
website, the Mission describes the organization as “a
passionate community of people who follow Christ in
his relentless, redeeming love for all people. [Its]
mission is to serve, rescue, and transform those in
greatest need through the grace of Jesus Christ.”

63a
The Mission brought a motion for summary judgment
on the basis that it is statutorily exempt from the
Washington Law Against Discrimination (WLAD)
RCW 49.60.040(11)1. Mr. Woods alleges that there are
genuine issues of material fact as to whether the
religious exemption to WLAD is unconstitutional as
applied.
Mr. Woods urges the court to find that Justice
Wiggins’ partial concurrence with the dissent in
Ockletree v. Franciscan Health System, 179 Wn.2d
769 establishes a “job duties” test that would allow
the court to undertake an objective examination of the
job description at issue as well as the employee’s
responsibilities within the organization. Mr. Woods
argues that the duties of an ODLS attorney are
entirely secular and are just like the duties he
performs in his current job as a public interest
attorney.
Setting aside the question of how to interpret a 4-4-1
opinion and the determination of what the holding in
Ockletree actually was, even if the court were to adopt
Justice Wiggins’ test, he clearly states that the
exemption in 49.60.040(11) is reasonable to the extent
that it relates to employees whose job responsibilities
relate to the organization’s religious practices.
Ockletree at 806. Justice Stephens’ dissent likewise
states that the exemption in 49.60.040(11) is
unconstitutional as applied to discrimination that is
unrelated to an employer’s religious purpose,
Since enacted, the legislature has not revised the religious
employer exemption to limit the scope of RCW 49.60.040(11),
despite broadening categories of protection.

1

64a
practice, or activity. Ockletree at 789-90.
In Ockletree, there was clearly no relationship
between the employment duties of Mr. Ockletree and
religious beliefs or practices. Nor was there a nexus
between the basis of the claimed discrimination (race
and disability) and the organizations religious belief
or practices. Here, however, there is an assertion that
employment duties are based on religious beliefs and
practices.
If we focus solely on the legal counseling duties there
is no nexus between the job duties and the
discrimination, but the Mission claims the job duties
extend beyond legal advice to include spiritual
guidance and praying with the clients. See e.g. Baier
Decl. and Mace Decl. Ms. Baier declared that her job
duties include spiritual guidance: She is encouraged
to talk openly about her faith and ask her clients
about their religious beliefs. Further, her faith
“strongly influences” discussions about family law
matters, domestic violence issues and immigration.
Bair Decl. 1- 2.
The job duties and requirements for the staff attorney
position include, aside from secular legal
responsibilities:
• Work cooperatively with other Mission
departments as a team to efficiently and
positively accomplish the work of the Mission.
• Attend all Mission meetings and training
sessions, as required.
• Must support the Legal Services mission

65a
statement: to seek justice for the poor and
minister to the needy through the provision of
legal services, to practice law in a manner that
honors and glorifies God, and to love others and
share the gospel of Jesus Christ.
It also put applicants on notice that a successful
candidate would have to accept the Mission’s
Statement of Faith, which references the Bible as “the
inspired, the infallible, authoritative Word of God” as
well as other Evangelical Christian doctrines.
While individuals and other religious organizations
may interpret the Bible differently, it is not for this or
any court to determine the validity of the Mission’s
religious beliefs. “It is not the role of the courts to
reject a group’s expressed values because they
disagree with those values or find them internally
inconsistent.” Boy Scouts of America v. Dale, 530 U.S.
640, 651, 120 S. Ct. 2446, 147 L.Ed.2d 554
(2000)(internal quotes omitted.)
If the court were to deny the motion for summary
judgment, the case would then focus on which
activities within the Mission are secular and which
are religious. As the Supreme Court noted in Corp. of
Presiding Bishop of Church of Jesus Christ of LatterDay Saints v. Amos, 483 U.S. 327, 107 S.Ct. 2862, 97
L.Ed.2d 273 (1987):
[I]t is a significant burden on a religious
organization to require it, on pain of
substantial liability, to predict which of its
activities a secular court will consider

66a
religious. The line is hardly a bright one, and
an organization might understandably be
concerned that a judge would not understand
its religious tenets and sense of mission. Fear
of potential liability might affect the way an
organization carried out what it understood to
be its religious mission.
EEOC v. RG and GR Harris Funeral Homes, Inc. 884
F.3d 560 (6th Cir. 2018), which Mr. Woods asks this
court to rely upon, is persuasive in many respects.
However, it is distinguishable in that the funeral
home was not a religious institution; its Articles of
Incorporation did not state any religious purpose.
Here, there can be no doubt that the Mission is a
religious organization.
Summary judgment is proper if, after viewing all the
pleadings, affidavits, depositions, admissions, and
reasonable inferences in favor of the nonmoving
party, the court concludes that (1) there is no genuine
issue as to any material fact; (2) reasonable persons
could reach only one conclusion; and (3) the moving
party is entitled to judgment as a matter of law.
Eugster v. State, 171 Wn.2d 839, 843,259P.3d146
(2011); Ellis v. City of Seattle, 142 Wn.2d 450, 458,
13P.3d1065 (2000).
If the court were to deny the Mission’s motion all
remaining factual questions revolve around the
Mission’s sincerely held religious beliefs and whether
the roles of the staff attorneys include religious
duties. There are no other genuine issues as to
material facts. In case after case, the courts remind

67a
us that judges and the courts cannot determine the
importance of or the relative merits of different
religious beliefs. The societal tensions between
religion and LGBQT disputes “must be resolved with
tolerance [and] without undue disrespect to sincere
religious beliefs.” Masterpiece Cakeshop, Ltd. V.
Colorado Civil Rights Comm’n No. 16-111, 2018 WL
2465172 (U.S. June 4, 2018).
For the reasons stated above, the court thus grants
the Mission’s motion.

Karen Donohue
Judge, King County Superior Court

68a

SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY
MATTHEW WOODS, an
individual,
Plaintiff,
vs.
SEATTLE’S UNION
GOSPEL MISSION, a
Washington nonprofit,
Defendants.

NO. 17-2-29832-8 SEA
ORDER GRANTING
DEFENDANT
SEATTLE’S UNION
GOSPEL MISSION’S
MOTION FOR
SUMMARY
JUDGMENT

THIS MATTER having come for hearing on
Defendant Seattle’s Union Gospel Mission’s Motion
for Summary Judgment, and this Court having heard
oral argument and considered the briefing of the
parties and the pleadings and paper on record,
including:
1. Defendant Seattle’s Union Gospel Mission’s
Motion for Summary Judgment;
2. Declaration of Alissa Baier and its exhibits;
3. Declaration of Mary Douglas and its exhibits;
4. Declaration of David Mace and its exhibits;
5. Declaration of Terry Pallas and its exhibits;

69a
6. Declaration of David Mitchell and its exhibits;
7. Plaintiff Matthew Woods’ Opposition to
Defendant's Motion for Summary Judgment;
8. Declaration of J. Denise Diskin and its
exhibits;
9. Declaration of Matthew Woods and its
exhibits;
10. Defendant’s Reply in Support of Motion for
Summary Judgment; and
11. Declaration of Nathaniel Taylor and its
exhibits;
12. Plaintiff Matthew Woods’ Briefing
Supplemental
Authority
Offered
Defendant at Oral Argument; and

on
by

13. Defendant Seattle’s Union Gospel Mission’s
Reply to Plaintiff’s Briefing on Supplemental
Authority.
The court heard argument from counsel for both
parties. Being fully advised, and for the reasons laid
out in this court’s June 25, 2018 memorandum
opinion and order, the court hereby ORDERS that
Defendant Seattle’s Union Gospel Mission’s Motion
for Summary Judgment is GRANTED. Accordingly,
all claims asserted against Defendant are dismissed
with prejudice.
DATED: July 9, 2018

70a
Presented by:
ELLIS, LI & McKINSTRY PLLC
By: s/ Nathaniel Taylor
Nathaniel L. Taylor WSBA No. 27174
Abigail J. St. Hilaire WSBA No. 48194
Ellis, Li & McKinstry, PLLC
2025 First Avenue PHA
Seattle, WA 98121
Telephone: (206) 682-0565
Fax: (206) 625-1052
Email: ntaylor@elmlaw.com
asthilaire@elmlaw.com
Attorneys for Defendant
Approved as to Form:
TELLER & ASSOCIATES, PLLC
By: J. Denise Diskin
J. Denise Diskin WSBA No. 41425
Sara Amies WSBA No. 36626
Teller & Associates, PLLC
1139 34th Ave., Suite B
Seattle, WA 98122
Telephone: (206) 324-8969
Fax: (206) 860-3172
Email: denise@stellerlaw.com
sara@stellerlaw.com
Attorneys for Plaintiff

71a

THE SUPREME COURT OF WASHINGTON
MATT WOODS,
Appellant,
v.
SEATTLE’S UNION
GOSPEL MISSION,
Respondent.

)
)
)
)
)
)
)
)
)
)
)
)

No. 96132-8

ORDER
King County
Superior Court
No. 17-2-29832-8
SEA

Department I of the Court, composed of Chief
Justice Fairhurst and Justices Johnson, Owens,
Wiggins and Gordon McCloud, considered at its April
2, 2019, Motion Calendar whether this case should be
retained for decision by the Supreme Court or
transferred to the Court of Appeals. The Department
unanimously agreed that the following order be
entered.
IT IS ORDERED:
That this Court will retain this case for hearing
and decision.

72a
DATED at Olympia, Washington, this 3rd day of
April, 2019.
For the Court

73a
42 U.S.C. 2000e-1
Exemption
(a) Inapplicability of subchapter to certain
aliens and employees of religious entities
This subchapter shall not apply to an employer with
respect to the employment of aliens outside any State,
or to a religious corporation, association, educational
institution, or society with respect to the employment
of individuals of a particular religion to perform work
connected with the carrying on by such corporation,
association, educational institution, or society of its
activities.
*****

42 U.S.C. 2000e-2
Unlawful Employment Practices
(a) Employer practices
It shall be an unlawful employment practice for an
employer-(1) to fail or refuse to hire or to discharge any
individual, or otherwise to discriminate against
any individual with respect to his compensation,
terms, conditions, or privileges of employment,
because of such individual’s race, color, religion,
sex, or national origin; or
*****

74a
(e) Businesses or enterprises with personnel
qualified on basis of religion, sex, or national
origin; educational institutions with personnel
of particular religion
Notwithstanding any other provision of this
subchapter, (1) it shall not be an unlawful
employment practice for an employer to hire and
employ employees, for an employment agency to
classify, or refer for employment any individual, for a
labor organization to classify its membership or to
classify or refer for employment any individual, or for
an employer, labor organization, or joint labormanagement committee controlling apprenticeship or
other training or retraining programs to admit or
employ any individual in any such program, on the
basis of his religion, sex, or national origin in those
certain instances where religion, sex, or national
origin is a bona fide occupational qualification
reasonably necessary to the normal operation of that
particular business or enterprise, and (2) it shall not
be an unlawful employment practice for a school,
college, university, or other educational institution or
institution of learning to hire and employ employees
of a particular religion if such school, college,
university, or other educational institution or
institution of learning is, in whole or in substantial
part, owned, supported, controlled, or managed by a
particular religion or by a particular religious
corporation, association, or society, or if the
curriculum of such school, college, university, or other
educational institution or institution of learning is
directed toward the propagation of a particular
religion.
*****

75a
42 U.S.C. 12112(a)
Discrimination
(a) General rule
No covered entity shall discriminate against a
qualified individual on the basis of disability in regard
to job application procedures, the hiring, advancement, or discharge of employees, employee compensation, job training, and other terms, conditions, and
privileges of employment.
*****
42 U.S.C. 12113(d)
Defenses
*****
(d) Religious entities
(1) In general
This subchapter shall not prohibit a religious
corporation, association, educational institution,
or society from giving preference in employment
to individuals of a particular religion to perform
work connected with the carrying on by such
corporation, association, educational institution,
or society of its activities.
(2) Religious tenets requirement
Under this subchapter, a religious organization
may require that all applicants and employees
conform to the religious tenets of such
organization.
*****

76a
Excerpts of RCW 49.60.040
Definitions
*****
(11) “Employer” includes any person acting in the
interest of an employer, directly or indirectly, who
employs eight or more persons, and does not include
any religious or sectarian organization not organized
for private profit.
*****
Excerpts of RCW 49.60.180
Unfair Practices of Employers
It is an unfair practice for any employer:
(1) To refuse to hire any person because of age, sex,
marital status, sexual orientation, race, creed, color,
national origin, citizenship or immigration status,
honorably discharged veteran or military status, or
the presence of any sensory, mental, or physical
disability or the use of a trained dog guide or service
animal by a person with a disability, unless based
upon a bona fide occupational qualification:
PROVIDED, That the prohibition against discrimination because of such disability shall not apply if the
particular disability prevents the proper performance
of the particular worker involved: PROVIDED, That
this section shall not be construed to require an
employer to establish employment goals or quotas
based on sexual orientation.
*****

77a

No. 96132-8
SUPREME COURT OF THE STATE OF
WASHINGTON
MATTHEW S. WOODS,
Plaintiff/Petitioner,
v.
SEATTLE’S UNION GOSPEL
MISSION,
Defendant/Respondent.

STATEMENT
OF GROUNDS
FOR DIRECT
REVIEW BY
THE
SUPREME
COURT

*****
B. ISSUE PRESENTED FOR REVIEW
Washington law prohibits employers from
discriminating against any person in the terms or
conditions of employment because of sexual
orientation. SUGM has an ongoing policy and
practice of excluding from employment,
regardless of the job duties of the position in
question, all persons who engage in “homosexual
behavior.” Did the Superior Court err in finding
that all employment with SUGM is exempt from
Washington’s Law Against Discrimination under
RCW 49.60.040(11)?
*****

78a
No. 96132-8
SUPREME COURT OF THE STATE OF
WASHINGTON
_________________________________________________
MATTHEW S. WOODS, Appellant,
v.
SEATTLE’S UNION GOSPEL MISSION,
Respondent
_________________________________________________
AMENDED BRIEF OF
APPELLANT
_________________________________________________
*****
ii. The RPCs prevent ODLS staff attorneys
from placing SUGM’s religious beliefs ahead
of the ethical obligations to provide
independent legal analysis, free from
discrimination.
The Rules of Professional Conduct for attorneys
licensed in Washington State also underscore that
SUGM’s religious beliefs cannot override the
obligations of ODLS staff attorneys to represent their
clients independently and without discrimination.
SUGM argues that each of its programs is a
“Ministry,” and all employees, including ODLS
attorneys, are united by the employees’ prime
directive of evangelizing. CP 706 (Pallas 125:11127:2, “I think the primary thing is we are expecting

79a
the staff attorney … to be a minister of the gospel first
and foremost.”). But ODLS attorneys, like all lawyers,
owe an undivided ethical duty to their clients, not to
their employer or to any religious institution. RPC
5.4. In giving counsel, lawyers may refer to moral,
ethical and social factors that influence their advice,
but the lawyer must be free to exercise independent
judgment to give candid advice. RPC 2.1 and cmt 2.4
A non-lawyer employer, even if it is a religious entity,
cannot impose its values over the professional
judgment of lawyer employees, mandating that they
provide advice that prioritizes the employer’s
religious agenda over a client’s legal objectives. Nor is
ODLS allowed to commit discriminatory acts in
connection with its lawyers’ professional activities.
RPC 8.4(g) (“it is professional misconduct to commit a
discriminatory act on the basis of sexual orientation
if such an act would violate this Rule when committed
on the basis of sex, race, age, creed, religion, color,
national origin, disability, honorably discharged
veteran or military status or marital status.”).
The ODLS job description itself emphasized that
staff attorneys must “strictly comply with the
Washington Rules of Professional Conduct.” CP 402.
In order to comply with the RPCs, staff attorneys
It is important to note that the record clearly reflects that
SUGM’s legal advice to clients is not influenced by religious
ministration. CP 723 (Mace 27:9-29:21). Also, nowhere does the
record reflect that Mr. Woods would object to praying with
clients upon request in keeping with his Christian faith. Mr.
Woods does not assert that ODLS is performing legal services
which violate the RPCs, but rather that the RPCs demand that
ODLS staff attorneys perform their jobs without allowing
religious beliefs to override their fundamental and secular
obligations to their clients.
4

80a
cannot be required to put SUGM’s religious beliefs or
practices ahead of their professional responsibilities
and obligations as lawyers – a point that the trial
court did not address.
*****
Mr. Woods does not contest that SUGM’s beliefs are
sincerely held, but SUGM has presented no evidence
that hiring him would substantially burden its
beliefs, i.e.; it has not shown that hiring him would
have a “coercive effect in the practice of [its] religion.”
Niemann v. Vaughn Cmty. Church, 118 Wn. App. 824,
831, 77 P.3d 1208 (2003), aff'd, 154 Wn.2d 365, 113
P.3d 463 (2005), citing First Covenant Church of
Seattle, 120 Wn.2d at 218. As an ODLS attorney he
would have led no religious services, performed no
religious instruction, and SUGM’s religious beliefs
regarding sexual orientation would have been
entirely irrelevant to his representation. CP 113, 723
(Mace, 27:9-29:21). SUGM is not being asked to
endorse his sexual orientation in any way, only to
offer him equal opportunity for employment as a staff
attorney.
Indeed, affording Mr. Woods WLAD protection has a
“clear justification … in the necessities of …
community life” and prevents a “‘clear and present,
grave and immediate’ danger to public health, peace,
and welfare.” First Covenant Church of Seattle, 120
Wn.2d at 226-27 (citations omitted). The WLAD’s
exemption for religious employers must be narrowed
to protect the other fundamental rights embodied by
the statute.
*****

81a
No. 96132-8
IN THE SUPREME COURT
OF THE STATE OF WASHINGTON
_________________________________________________
MATTHEW S. WOODS,
Appellant,
v.
SEATTLE’S UNION GOSPEL MISSION,
Respondent.
_________________________________________________
BRIEF OF RESPONDENT
_________________________________________________
*****
G. The relief sought by Mr. Woods violates the
Mission’s rights under the First Amendment
and article I, section 11.
Mr. Woods attempts to shift his constitutional
burden of proof to the Mission, as if the Mission were
asking this Court for relief from a law of general
applicability. Am. App. Br. at 34 (The Mission “has
provided no evidence that hiring [Mr. Woods] would
substantially burden its beliefs.”). But Mr. Woods has
the burden of proving the WLAD exemption
unconstitutional beyond a reasonable doubt. See
Section III.A, supra, at 12. Mr. Woods cites no legal
authority for the proposition that the Mission must
articulate a specific burden on religious expression in

82a
order to claim the WLAD exemption.14 Nevertheless,
the burden on the Mission’s rights under the First
Amendment and article I, section 1115 is well
established in the trial court record.
1. Mr. Woods openly opposed the Mission’s
religious beliefs and forcing the Mission
to hire him would unconstitutionally
regulate its religious expression.
Mr. Woods states that because he self-identifies
as a Christian the Mission cannot claim that its
employment decisions were based on religion. Am.
App. Br. at 35-6. But the record demonstrates that
Mr. Woods disagrees with the Mission’s sincerely held
religious beliefs, see section II.D, supra, at 8, and in
prior pleadings he charged the Mission with holding
“anti-gay religious belief[s]” and described its beliefs
as “invidious.” CP 97, 107.
Mr. Woods counters that he affirmed the
Mission’s Statement of Faith “multiple times as a
volunteer and in his application for employment.”
Am. App. Br. at 36. But it is for the Mission, not a
court, to determine whether Mr. Woods would fairly
express the Mission’s religious message. See
Employment Div., Dept. of Human Resources of Ore.
The cases cited at pages 31-34 of Mr. Woods’ brief involve laws
of general applicability.
14

The Washington constitution imposes even greater protection
for the Mission’s free exercise of religion than the First
Amendment. See First Covenant Church of Seattle v. City of
Seattle, 120 Wn.2d 203, 224, 840 P.2d 174 (1992) (applying
analysis from State v. Gunwall, 106 Wn.2d 54, 720 P.2d 808
(1986) in determining that the free exercise provisions of article
I, section 11 of the Washington Constitution are “significantly
different and stronger than the federal constitution.”).
15

83a
v. Smith, 494 U.S. 872, 887, 110 S. Ct. 1595, 108
L.Ed.2d 876 (1990) (The Supreme Court will not
“question the centrality of particular beliefs or
practices to a faith, or the validity of particular
litigants’ interpretations of those creeds.”) (internal
quotations omitted); Presbyterian Church in U.S. v.
Mary Elizabeth Blue Hull Memorial Presbyterian
Church, 393 U.S. 440, 450, 89 S. Ct. 601, 21 L.Ed.2d
658 (1969) (holding that “the First Amendment
forbids civil courts from” interpreting “particular
church doctrines” and determining “the importance of
those doctrines to the religion”).
As described in section II.B, supra, at 5, the
Mission requires all of its employees to express its
religious beliefs and believes that publicly rejecting
traditional Christian teaching on marriage and
sexuality is tantamount to rejecting that the Bible is
the infallible, inspired, authoritative word of God.16
Mr. Woods’ rejection of the Mission’s beliefs
implicates the Mission’s ability to accomplish its
expressive religious purpose for the reasons Justices
Alito and Kagan describe in their Hosanna-Tabor
concurrence: “When it comes to the expression and
inculcation of religious doctrine, there can be no doubt
that the messenger matters. . . . both the content and
credibility of a religion’s message depend vitally on
the character and conduct of its teachers. A religion
Sidestepping the doctrine of infallibility, Mr. Woods argued at
the trial court level that many Christian churches are open and
affirming. CP 90. The Mission designated a seminary professor
as an expert in biblical hermeneutics who would testify that the
Mission’s beliefs on marriage and sexuality flow directly from
the doctrine of infallibility contained in the Mission’s statement
of faith. RP 15.
16

84a
cannot depend on someone to be an effective advocate
for its religious vision if that person’s conduct fails to
live up to the religious precepts that he or she
espouses.” Hosanna-Tabor, 565 U.S. at 201, 132 S. Ct.
694 (Alito, J., concurring) (emphasis added).
2. Forcing the Mission, under threat of
liability, to employ a person who opposes
its religious beliefs would unconstitutionally interfere “with an internal
church decision that affects the faith
and mission of the church itself.”
The WLAD employment provisions are not
generally applicable because Washington—like all
other states where sexual orientation is a protected
class—has a religious exemption. But even if a court
were to do what Mr. Woods requests—pretend the
exemption did not exist—it would violate the
Mission’s rights under the First Amendment and
article I, section 11.
Mr. Woods’ desired remedy—civil liability and
injunctive relief– would unconstitutionally interfere
in the internal affairs of the Mission. The Supreme
Court in Hosanna-Tabor emphasized that religious
organizations’ freedom of association is significantly
greater than that enjoyed by secular groups: “the text
of the First Amendment itself, [ ] gives special
solicitude to the rights of religious organizations.”
Hosanna-Tabor, 565 U.S. at 189, 132 S. Ct. 694
(unanimous opinion). Moreover, there is distinction
between
constitutionally
permissible
state
interference with “outward physical acts”—like
denying unemployment benefits for ingestion of
peyote—and “government interference with an

85a
internal church decision that affects the faith and
mission of the church itself.” Id. at 190, 132 S. Ct. 694;
see Trinity Lutheran, ___U.S.___, 137 S. Ct. 2012,
2021 n.2 (“This is not to say that any application of a
valid and neutral law of general applicability is
necessarily constitutional under the Free Exercise
Clause.”); see generally Christian Legal Soc. Chapter
of the Univ. of California, Hastings Coll. of the Law v.
Martinez, 561 U.S. 661, 682-83, 130 S. Ct. 2971, 2986,
177 L. Ed. 2d 838 (2010) (the Supreme Court has
emphasized “in diverse contexts” that its “decisions
have distinguished between policies that require
action and those that withhold benefits.”); Thomas v.
Review Bd. of Indiana Employment Sec. Div., 450 U.S.
707, 718, 101 S. Ct. 1425, 1432, 67 L. Ed. 2d 624
(1981) (recognizing the “substantial pressure” on an
adherent to modify religious beliefs, burdening
religious exercise, where a benefit is conditioned on
“conduct proscribed by a religious faith.”).
*****
Here, Mr. Woods asks the state to force a church to
hire employees who do not agree with or respect its
religious beliefs—ignoring that the very way the
church expresses its religious beliefs is through its
employees.
Finally, and most importantly, the issue here is
not race, but religious views on marriage and
sexuality internal to the Mission. The Obergefell
Court stated “it must be emphasized that religions,
and those who adhere to religious doctrines, may
continue to advocate with utmost, sincere conviction
that, by divine precepts” their views on marriage and
sexuality and that “[t]he First Amendment ensures

86a
that religious organizations and persons are given
proper protection as they seek to teach the principles
that are so fulfilling and so central to their lives and
faiths.” Obergefell v. Hodges, ___U.S.___, 135 S. Ct.
2584, 2607, 192 L.Ed.2d 609 (2015). The Mission’s
religious belief “has been held—and continues to be
held—in good faith by reasonable and sincere people
here and throughout the world.” Id. ___U.S.___, 135
S. Ct. at 2594, 192 L. Ed. 2d 609.
IV. CONCLUSION
Mr. Woods bears the burden of proving the WLAD
religious exemption unconstitutional beyond a
reasonable doubt “after searching legal analysis.” He
acknowledges the sincerity of the Mission’s sincerely
held religious beliefs. He does not contest that the
Mission’s employment decisions were based on its
sincerely held religious beliefs. But he wants this
Court to completely rewrite existing article I, section
12 jurisprudence, then remand for a trial on how the
Mission’s purpose to share the gospel of Jesus Christ
is carried out in its work serving the poor and
vulnerable.
Mr. Woods’ request for an invasive inquiry into
the Mission’s religious practices perfectly illustrates
the reasonable grounds for WLAD religious
exemption. The trial court correctly entered summary
judgment and its ruling should be affirmed.
*****

87a
No. 96132-8
SUPREME COURT OF THE STATE OF
WASHINGTON
_________________________________________________
MATTHEW S. WOODS, Appellant,
v.
SEATTLE’S UNION GOSPEL MISSION,
Respondent.
_________________________________________________
REPLY BRIEF OF APPELLANT
_________________________________________________
*****
Hosanna-Tabor Evangelical Lutheran Church
and School v. E.E.O.C. provides guidance as to the
extent of the First Amendment-derived free exercise
right to discriminate on grounds other than being “coreligionist.” See gen. 565 U.S. 171, 132 S.Ct. 694
(2012). There, the Supreme Court performed a factbased analysis of religious versus secular job duties.
Id. at 191-92. The result was that a church seeking to
discriminate against an employee with a disability
could only permissibly do so if the employee’s job
duties were ministerial – not by adopting any
particular quota of religiosity, id. at 190 (“We are
reluctant … to adopt a rigid formula”) but because the
duties and qualifications denoted the employee’s
responsibility for teaching and disseminating her
employer’s religious message. Id. at 192 (“In light of
these considerations—the formal title given Perich by

88a
the Church, the substance reflected in that title, her
own use of that title, and the important religious
functions she performed for the Church—we conclude
that Perich was a minister covered by the ministerial
exception.”).
In this case, Mr. Woods has extensive personal
knowledge about the job duties performed by SUGM’s
staff attorneys based on his long service to the
organization as a full-time legal intern and a
volunteer attorney. Based on his experience, he has
offered evidence to raise material issues of fact
regarding whether the job duties for the position are
religious in nature. Mr. Woods asks that this Court
narrowly tailor the religious employer exemption to
only the accommodation absolutely necessary to avoid
a concrete and substantial burden on SUGM’s
religious freedom, and allow Mr. Woods to pursue his
claims.
*****

89a
No. 96132-8
IN THE SUPREME COURT
OF THE STATE OF WASHINGTON
_________________________________________________
MATTHEW S. WOODS,
Appellant,
v.
SEATTLE’S UNION GOSPEL MISSION,
Respondent.
_________________________________________________
RESPONDENT’S ANSWER TO AMICUS CURIAE
BRIEFS OF WELA, ACLU, AND CENTER FOR
JUSTICE, ET AL.
_________________________________________________
*****
I.

INTRODUCTION

The single issue in this case is whether Mr. Woods
has proved—beyond a reasonable doubt, through
searching legal analysis—absence of “reasonable
grounds” for the religious employer exemption under
article I, section 12 of the Washington Constitution.
He has not and cannot.
So, avoiding the legal issue, Amici offer policyoriented arguments for limiting the exemption using
an invasive, fact-specific inquiry into the religious
qualifications and duties of every job at every religious
institution that seeks to employ only co-religionists.

90a
Amici offer no legal reason why their policy proposals
are required under article I, section 12. Moreover,
their proposals are not permitted under the First
Amendment and article I, section 11 of the
Washington Constitution.
*****
2. Incredibly, amici claim that religious
organizations may not consider religion
in employment decisions regarding nonministers.
Amici Center for Justice, et al. are honest about
the extreme result they seek: they argue for a
limitation of the WLAD exemption to ministers even
in employment decisions related to religion.33
Meaning, it would be unlawful discrimination in
Washington State for religious nonprofits to hire
employees on the basis of religion. Their proposed rule
is unconstitutional. Hall v. Baptist Mem’l Health Care
Corp., 215 F.3d 618, 623 (6th Cir. 2000) (Title VII
exception for all employees recognizes “constitutionally-protected interest of religious organizations
in
making
religiously-motivated
employment
decisions.”); Little v. Wuerl, 929 F.2d 944, 948 (3rd
Cir. 1991) (“attempting to forbid religious
discrimination against non-minister employees where
Amici Ctr. for Justice, et al. actually make the point twice.
First, “the issue is whether a religious organization may use its
views of a person’s religious beliefs . . . as a litmus test for a job
that . . . is not a ministry position,” Amici Ctr for Justice, et al.
Br. 5; and, second, “the issue is . . . whether a religious
organization may use its views of a person’s religious beliefs . . .
as a litmus test for a job that is not a ministry position by its
nature.” Amici Ctr for Justice, et al. Br. 18.
33

91a
the position involved has any religious significance is
uniformly recognized as constitutionally suspect, if
not forbidden.”).34
Further, amici’s argument is untethered from
Ockletree; nothing in Ockletree suggests the
exemption is or should be limited to “ministers” or
that religious organizations do not have the right—
grounded in statute or constitution—to make
religious employment decisions for non-ministers.
3. Amici ignore the protections provided
by Washington’s Article I, Section 11 and
the hybrid rights doctrine under the U.S.
Constitution.
Article I, section 11 provides that “Absolute
freedom of conscience in all matters of religious
sentiment, belief, and worship, shall be guaranteed,”
and this Court has made clear that its protection is
“significantly different and stronger than” the First
Amendment. First Covenant Church of Seattle v. City
of Seattle, 120 Wn.2d 203, 224 (1992). If state action
substantially burdens a sincerely held religious belief,
that state action is subject to strict scrutiny under
article I, section 11 and therefore must be the least
restrictive means of achieving a compelling
governmental interest. City of Woodinville v.
Northshore United Church of Christ, 166 Wn.2d 633,
642 (2009); Backlund v. Board of Com’rs of King
County Hosp. Dist. 2, 106 Wn.2d 632, 641 (1986).
Amici and Mr. Woods consistently ignore this and
Biel notes “had [the employer] asserted a religious justification
for terminating [the employee], our holding would neither have
commanded nor permitted the district court to assess the
religious validity of that explanation.” Biel, 911 F.3d at 611 n.6

34

92a
suggest that the WLAD can be extended to prevent
and punish the Mission’s actions without offering
either: (1) a compelling state interest—which has not
been asserted by Washington or any other
jurisdiction—in prohibiting religious employers from
making religious employment decisions; or (2) how
amici’s proposed tests are narrowly tailored to
achieve this interest.
The federal constitution also requires strict
scrutiny of any state action that would purport to
restrict the Mission’s ability to make religious
employment decisions. First, Mr. Woods and amici’s
arguments trigger hybrid rights analysis because
they implicate not only the Mission’s free exercise
rights but also its religious autonomy, expressive
association, and ability to speak.35 Employment Div.,
Dep’t of Human Res. of Oregon v. Smith, 494 U.S. 872,
881-82, 110 S. Ct. 1595, 108 L. Ed. 2d 876 (1990)
(strict scrutiny is required in hybrid rights cases);
First Covenant, 120 Wn.2d at 225. The Mission’s core
purpose is expressive.36 And the Mission’s ability to
accomplish its expressive purpose is dependent on its
ability to hire individuals who share its beliefs and its
understanding of the evangelical purpose for its work.
CP 65, 372, 402, 695; RP 15. As recognized by the
lower court, CP 171, it is for the Mission to determine
what its religious beliefs are, who shares those beliefs,
35

See Br. of Resp’t 25-26, 44-46.

See Reply. Br. of Appellant 45; CP 72, 403, 706 (quoting Mark
8:36). The Mission engages in religious speech through its
employees, all of whom are required to share the Gospel through
both their words and their personal conduct. CP 65, 372, 402,
695-96. This requirement is in the ODLS attorney job
description. CP 402 (“share the Gospel of Jesus Christ.”).
36

93a
and who is qualified to and capable of accomplishing
its evangelical purpose. See Boy Scouts of Am. v. Dale,
530 U.S. 640, 648, 120 S. Ct. 2446, 147 L. Ed. 2d 554
(2000). Mr. Woods has not asserted any state interest
that could justify the sweeping burdens he seeks.
Second, this case implicates the Supreme Court’s
clearly articulated limitation on the reach of even
generally applicable and neutral laws. The Mission
gets to determine what it believes, who shares its
beliefs, and exactly how to—and much “religion” is
required to—accomplish its mission to “serve, rescue,
and transform those in greatest need through the
grace of Jesus Christ” Compare CP 77, 64-65, with CP
203 (Mr. Woods’ cover letter expressing religious
disagreement with how to accomplish the Mission’s
stated purpose). These are each an “internal [Mission]
decision that affects the faith and mission of [the
Mission] itself.” Hosanna-Tabor, 565 U.S. at 190, 132
S. Ct. 694; see Trinity Lutheran, 137 S. Ct. at 2021
n.2. These decisions are reserved to the Mission and
cannot be regulated or punished by even generally
applicable and neutral laws.
G. Amici ask this Court to render an
unconstitutional value judgment on the
Mission’s religious purpose and agree
with amici’s misinterpretation of the
Mission’s beliefs.
Amici Center for Justice, et al. offer
heartbreaking statistics about LGBTQ youth to argue
for limiting co-religionist exemptions to ministers.
Amici indicate that “having staff who identified as
LGBTQ” better serves that population and failure to
do so is “denying LGBTQ clients a safe and accepting

94a
resource.”37 This aligns with Mr. Woods’ argument
that “I am a good legal aid attorney because of my
sexuality.”38
This illustrates the Mission’s point that
relationships developed in the course of providing
legal services allow an attorney to share other
messages—in the Mission’s case, the Gospel—in
furtherance of the employer’s purpose. The Mission
has a religious purpose and takes an evangelistic
approach where loving people holistically creates
opportunities for all Mission employees to talk about
the transforming power of Jesus. CP 64, 696.
Amici state that the Mission’s religious
employment practices are harmful to its clients and
guests. Implicit in this argument is what Mr. Woods
also suggests, that the Mission requires its employees
to “preach its religious beliefs against marriage
equality or same-sex relationships.”39 This is a false
assumption, unsupported by the record, that runs
contrary to the Mission’s religious purpose to express
the unconditional love of Christ to nonbelievers. CP
64, 696. It exemplifies the dangers of policy
arguments
and
civil
cases
turning
on
(mis)interpretations and assumptions about religious
doctrine. See Amos, 483 U.S. at 336, 107 S. Ct. 2862
(religious organization “might understandably be
concerned that a judge would not understand its
religious tenets and sense of mission.”).
The Mission believes its employees must live
37

Br. of Amici Ctr. for Justice, et al. 15-16.

38

Am. Br. of Appellant 13.

39

Reply Br. of Appellant 20 n.5.

95a
consistent with its beliefs about the Bible’s teachings
in order to effectively deliver the Gospel message. CP
65. That does not mean sitting in condemning
judgment on its clients and guests, which is a
caricature of the Mission’s beliefs about the Gospel
message.
Amici ask this Court to engage in multiple
unconstitutional determinations about the relevance
of the Mission’s religious purpose, what it means to
express its religious purpose, and the comparative
values of the Mission’s religious purpose and the
purposes of other nonprofits. Respectfully, this Court
cannot, consistent with the First Amendment or
article I, section 11, make any of those
determinations.
III. CONCLUSION
The WLAD exemption accommodates the
Mission’s constitutional rights to make religious
employment decisions and serves the secular purpose
of reducing state entanglement in religious affairs. It
therefore satisfies reasonable grounds. The
unprecedented results sought by amici and Mr.
Woods would be a dramatic departure from Ockletree
and are neither constitutionally required nor
permitted. The Mission respectfully requests that the
trial court’s entry of summary judgment be affirmed.
*****

96a
IN THE SUPERIOR COURT OF THE STATE OF
WASHINGTON
IN AND FOR THE COUNTY OF KING
MATTHEW S. WOODS,
an individual
Plaintiff,
v.
SEATTLE’S UNION
GOSPEL MISSION, a
Washington nonprofit,

Case No.:
COMPLAINT FOR
DECLARATORY
AND INJUNCTIVE
RELIEF

Defendant.
Plaintiff Matthew S. Woods (“Plaintiff” or
“Woods”) brings this Complaint for Declaratory and
Injunctive Relief against Defendant Seattle’s Union
Gospel Mission (“Defendant” or “UGM”), and alleges
as follows:
I. PARTIES
1. Plaintiff was and is a resident of King County
and sought employment with Defendant in King
County, Washington.
2. Defendant is a nonprofit organization operating in King County, Washington. It provides aid
services to homeless and impoverished individuals.
II. JURISDICTION AND VENUE
3. This Court has subject-matter jurisdiction
over the parties pursuant to RCW 2.08.010.
4. This Court has personal jurisdiction over
Defendant.

97a
5. Venue is proper in this Court under RCW
4.12.020 because the events giving rise to this action
occurred in King County.
III. FACTUAL ALLEGATIONS
6. Defendant had more than eight employees at
all relevant time periods.
7. Upon information and belief, Defendant
provides certain non-religious aid services to poor
and/or homeless individuals in Seattle and greater
King County, including emergency food and shelter,
transitional housing, addiction and recovery support,
dental services, mental health services, and legal
services.
8. Upon information and belief, Defendant
provides certain religious support services to poor
and/or homeless individuals in Seattle and greater
King County, including a youth ministry and prison
ministry.
9. Upon information and belief, Defendant
provides legal services through its Open Door Legal
Services (“ODLS”) program, which operates weekly
free legal clinics in four locations in Seattle, Bellevue,
and Everett. The ODLS program description reads:
We’re giving poor and homeless men and women
a voice, so they can move on to the next stage of
life. By clearing up their legal issues we equip
them to leave chronic homelessness in the past.
Our volunteer lawyers and paralegals meet with
each client to hear their story. Then we help them
build a plan to address the issue. We exist to
provide affordable legal assistance to those in
greatest need.

98a
See http://www.ugm.org/site/PageServer?pagename=
programs_legal (last accessed November 15, 2017).
The ODLS program description and list of services do
not reference religion.
10. Upon information and belief, the job duties of
staff attorneys employed by Defendant are wholly
unrelated to any religious practice or activity. UGM
staff attorneys’ duties are not religious or sectarian in
nature; UGM staff attorneys do not provide
ministerial services, UGM does not require its staff
attorneys to lead or participate in religious services,
and does not require that UGM staff attorneys lead
prayer or participate in other religious activities with
UGM staff or clients. UGM staff attorney duties are
similar to the job duties of an attorney employed by a
non-religious provider of free or low-cost legal
services.
11. Upon information and belief, staff attorneys
and other individuals employed by Defendant are
asked to profess a personal Christian faith, contained
in the organization’s Statement of Faith. Defendant’s
Statement of Faith does not reference or prohibit
homosexual behavior.
12. Woods is an attorney licensed by the
Washington State Bar Association.
13. Woods is a bisexual man.
14. Woods is a Christian, and reviewed UGM’s
Statement of Faith prior to volunteering with the
organization. He shares a common belief in the tenets
expressed in UGM’s Statement of Faith.
15. Between approximately June and September
2012, Woods served as an intern with ODLS while he

99a
was in law school. Woods was supervised by the
attorneys employed by UGM. He continued to
volunteer for UGM’s ODLS program as a law student
and volunteer attorney through approximately March
2015.
16. At all times relevant to this lawsuit, the UGM
Employee Code of Conduct contained a prohibition on
same-sex romantic relationships. Upon information
and belief, UGM’s Employee Code of Conduct does not
apply to student interns or volunteer attorneys.
17. During his tenure as an ODLS intern and
volunteer, Woods was not required to sign the UGM
Employee Code of Conduct.
18. During his tenure as an ODLS intern and
volunteer, Woods was not aware of the UGM
Employee Code of Conduct’s prohibition of same-sex
romantic relationships.
19. On or around October 4, 2016, Woods received
notification of an open ODLS staff attorney position
via email from ODLS Director David Mace.
20. In response to Mace’s email of October 4,
2016, Woods inquired with ODLS staff attorney
Alissa Baier about the open position. Baier responded
that she, Mace, and other ODLS staff had been
“wondering … if you would be looking for something
new. Please do apply!”
21. On or around October 13, 2016, Woods
contacted Mace expressing interest in the open staff
attorney position, and disclosed that he was in in a
same-sex relationship.
22. On or around October 14, 2016, Mace
responded to Woods’ inquiry and disclosure of his

100a
relationship status, stating he was “sorry you won’t
be able to apply,” citing UGM’s Employee Code of
Conduct.
23. UGM’s Employee Code of Conduct states: “All
staff members are required to sign the doctrinal
standard of Seattle’s Union Gospel Mission. All staff
members are expected to live by a Biblical moral code
that excludes … homosexual behavior … and any
activity that would have an appearance of evil.”
24. Woods submitted an application to the open
staff attorney position in the days prior to November
11, 2016. His application met the qualifications
described in UGM’s call for applications.
25. In response to Woods’ application to UGM, he
was contacted by a UGM staff member requesting a
phone interview. When Woods asked whether she was
aware of his sexual orientation, she stated she would
need to get back to him to schedule the interview.
26. Directing Attorney David Mace verbally
confirmed to Woods that UGM would not consider his
application for the open UGM staff attorney position
because of Woods’ sexual orientation: that is, his
disclosure that he was in a same-sex relationship.
27. Woods was not selected for the UGM staff
attorney position.
28. As a direct and proximate result of
Defendant’s unlawful actions, Plaintiff has lost
business opportunities, suffered monetary damages,
and other compensable damage.
29. As of the date of this filing, UGM’s Employee
Code of Conduct prohibits UGM from hiring any
person who discloses to UGM that they engage in

101a
sexual behavior with members of the same sex.
IV. CAUSE OF ACTION
Violation of the Washington Law Against
Discrimination
30. Plaintiff re-alleges and incorporates by
reference the allegations set forth in paragraphs 1-29
above.
31. UGM is subject to civil liability under RCW
49.60, et seq. because the job duties of the position for
which Plaintiff applied and for which UGM refused to
consider his application were unrelated to any
religious practices or activities.
32. The Washington Law Against Discrimination, RCW 49.60, protects the citizens of Washington
from discrimination on the basis of sexual orientation
in employment. RCW 49.60.030; RCW 49.60.180.
33. The Washington Law Against Discrimination
defines “sexual orientation” as “heterosexuality,
homosexuality, bisexuality, and gender expression or
identity.” RCW 49.60.040(26). The definition includes
“having or being perceived as having … behavior …
different from that traditionally associated with the
sex assigned to that person at birth.” Id.
34. Plaintiff is a bisexual man in a romantic
same-sex relationship and, for the purposes of the
definitions set forth in the Washington Law Against
Discrimination, he is protected based upon his “sexual
orientation.”
35. By categorically excluding from employment
any individual, including Plaintiff, who engages in
“homosexual behavior,” Defendant has drawn a

102a
classification that discriminates on the basis of sexual
orientation.
36. As a result of this exclusion, individuals who,
like Plaintiff, identify as homosexual, bisexual, or
whose gender identity and/or expression encompasses
behavior prohibited by Defendant’s policy are
excluded from employment, but heterosexual
individuals are not excluded.
37. By
excluding
said
individuals
from
consideration for any employment with UGM,
Defendant has unlawfully discriminated – and
continues to unlawfully discriminate – on the basis of
sexual orientation in violation of the Washington Law
Against Discrimination.
38. Defendant violated Plaintiff’s rights under
Washington’s Law Against Discrimination, RCW
49.60, by refusing to consider Plaintiff for
employment as a staff attorney because of his sexual
orientation.
39. To the extent that Defendant asserts an
exemption under RCW 49.60.040(11), this exemption
is unconstitutional because the position for which
Plaintiff sought employment was wholly unrelated to
UGM’s religious practices or activities.
V. DAMAGES
40. As a result of Defendant’s actions, Plaintiff
has lost nominal back pay and front pay, business
opportunities, and other benefits in an amount to be
established at trial.
41. As a result of Defendant’s actions, Plaintiff
has incurred out-of-pocket legal costs and expenses in
an amount to be established at trial.

103a
VI. PRAYER FOR RELIEF
WHEREFORE, Plaintiff prays for damages as
appropriate to compensate for such injuries, as
described above, under law as appropriate, including:
1. A money judgment against Defendant and in
favor of Plaintiff in an amount to be determined at
trial;
2. Declaratory
relief
pursuant
Washington Law Against Discrimination;

to

the

3. Injunctive relief pursuant to the Washington
Law Against Discrimination;
4. An award of statutory and reasonable
attorneys’ fees and costs of suit as allowed under law;
and
5. For such other relief as the court deems just
and equitable.
DATED this 16th day of November, 2017.
TELLER & ASSOCIATES, PLLC

104a
SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY
MATTHEW S. WOODS,
an individual,
Plaintiff,

NO. 17-2-29832-8
SEA
ANSWER

vs.
SEATTLE’S UNION
GOSPEL MISSION, a
Washington nonprofit,
Defendant.
*****
V. AFFIRMATIVE DEFENSES
Having answered Plaintiff’s claims, UGM raises
the following affirmative defenses:
1. Plaintiff’s Complaint fails to state a claim on
which relief can be granted.
2. The Court lacks subject matter jurisdiction
because Plaintiff’s Complaint asks this Court to
interpret UGM’s religious doctrine in violation of the
First Amendment to the U.S. Constitution and Article
I, Section 11 of the Washington Constitution.
3. The Court lacks subject matter jurisdiction
because UGM is a religious nonprofit and exempt
from the employment provisions of RCW 49.60.
4. The relief sought by Plaintiff would violate
UGM’s freedom of association, freedom of speech, and
free exercise of religion in violation of the First

105a
Amendment to the U.S. Constitution and Article I,
Section 11 of the Washington Constitution.
5. The relief sought by Plaintiff is barred by the
ministerial exception.
6. Plaintiff was not qualified for employment
with UGM based upon material disclosed in his
application that did not pertain to sexual activity.
7. To the extent Plaintiff claims lost back pay,
front pay, business opportunities, or other benefits,
the loss is a result of Plaintiff’s failure to mitigate.
8. To the extent Plaintiff would have been
damaged, such damages are mitigated because the
position for which he applied was eliminated for fiscal
reasons in August 2017.
9. UGM reserves the right to add additional
affirmative defenses.
*****

106a
THE HONORABLE KAREN DONOHUE
IN THE SUPERIOR COURT OF THE STATE OF
WASHINGTON
IN AND FOR THE COUNTY OF KING
MATT WOODS, an
individual
Plaintiff,
v.

Case No.: 17-229832-8 SEA
STIPULATION OF
THE PARTIES

SEATTLE’S UNION
GOSPEL MISSION, a
Washington nonprofit,
Defendant.
THE PARTIES HEREBY STIPULATE:
Plaintiff noted a CR 30(b)(6) definition of Seattle’s
Union Gospel Mission on a number of different
subjects, including “The definition of the term
‘homosexual behavior’ as used by Defendant in its
Employee Handbook and/or as applied to Defendant’s
employees.”
The Mission objected, stating that this term is
explicitly stated to be part of a “Biblical moral code”
and any definition required an examination into the
details of the Mission’s religious beliefs in violation of
its First Amendment rights.
Plaintiff agrees to strike this subject of the CR
30(b)(6) deposition (without prejudice) in exchange for

107a
the Mission’s stipulation as follows:
The Mission stipulates that for purposes of its
forthcoming dispositive motion on the application of
the religious employer exemption under RCW
49.60.040(11), if the Mission were a secular employer,
plaintiff would have established a prima facie case of
sexual orientation discrimination under the burden
shifting test in Mikkelsen v. Pub. Util. Dist. No. 1 of
Kittitas Cty., 189 Wash. 2d 516, 533 (2017).

108a

The Honorable Karen Donohue
Hearing Date: June 15, 2018
With Oral Argument
SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY
MATTHEW S. WOODS,
an individual,
Plaintiff,
vs.
SEATTLE’S UNION
GOSPEL MISSION, a
Washington nonprofit,

NO. 17-2-29832-8
SEA
DEFENDANT’S
MOTION FOR
SUMMARY
JUDGMENT

Defendant.
*****
C. The First Amendment and article I,
section 11 compel the Court to dismiss
the case; further discovery and trial
would violate the Mission’s free exercise
of religion, impermissibly entangle this
Court, and risk chilling religious
expression.
1. There is no dispute of material fact.
Plaintiff will no doubt stress that the Court must
construe all disputes of material fact in Plaintiff’s
favor as the non-moving party. Presumably Plaintiff

109a
will argue that there is a dispute as to whether the
alleged discrimination is related to the Mission’s
religious views (the Ockletree dissent test) and
whether the qualifications and duties of the job for
which Plaintiff applied are related to religion (the
Justice Wiggins’ concurrence test). But “when
reasonable minds can reach but one conclusion,”
summary judgment is appropriate. Owen v.
Burlington N. & Santa Fe R.R. Co., 153 Wn.2d 780,
788 (2005). Moreover, a material fact is one on which
the outcome of the litigation depends. In re Estate of
Black, 153 Wn.2d 152, 160 (2004).
Even with every reasonable inference and
favorable construal, reasonable minds can conclude
only that the Mission is a religious nonprofit and the
Mission’s requirement that employees abstain from
homosexual behavior is related to the Mission’s
religious beliefs. Furthermore, although ODLS staff
attorneys may often perform similar work to secular
legal aid attorneys, their qualifications and duties are
overtly related to religion and the Mission’s religious
purpose. Reasonable minds may differ as to the
degree or importance of those relationships, but no
reasonable mind could conclude the complete absence
of a relationship. Thus even construing facts and
inferences in Plaintiff’s favor, the court must conclude
that the RCW 49.60.040(11) exemption is
constitutional as applied here.
To overcome these conclusions and survive
summary judgment, Plaintiff bears the heavy burden
of proving the exemption’s unconstitutionality and
Ockletree’s error. Under the plain language of WLAD
and the direction of Ockletree, any relationship
between the alleged discrimination and religion or the

110a
job qualifications and duties and religion compels this
Court to enter summary judgment.
2. Further discovery would have a chilling
effect on the religious expression of the
Mission and countless other faith-based
organizations.
In Spencer v. World Vision, the Ninth Circuit
observed the significant First Amendment problems
presented by discovery into religious doctrine. “It is
not only the conclusions that may be reached . . .
which may impinge on rights guaranteed by the
Religion Clauses, but also the very process of inquiry
leading to findings and conclusions.” Spencer, 633
F.3d at 731 (emphasis in original) (quoting NLRB v.
Catholic Bishop, 440 U.S. 490, 502, 99 S.Ct. 1313
(1979)). “[I]nquiry into . . . religious views . . . is not
only unnecessary but also offensive. It is well
established . . . that courts should refrain from
trolling though a person’s or institution’s religious
beliefs.” World Vision, 633 F.3d at 731 (emphasis
added) (quoting Mitchell v. Helms, 530 U.S. 793, 828,
120 S.Ct. 2530, 147 L.Ed.2d 660 (2000)).
In the present case, Plaintiff has propounded 41
interrogatories, 44 requests for production, and
sought a CR 30(b)(6) deposition on 15 different topics.
The Mission has produced 649 pages of documents.
Much of the discovery delves into the Mission’s
religious beliefs and the manner in which they were
formulated or possibly reconsidered. The Mission
moved for a protective order61 before the parties
reached a temporary compromise, a material element
61

See Dkt. Nos. 18-20.

111a
of which was the Mission being forced to stipulate to
a material element of Plaintiff’s case. If religious
organizations are forced to reveal their internal
discussions and deliberations about their theological
views—including who took part in those
discussions—it will have a severe chilling effect on the
First Amendment right to free exercise for any such
organization and those who choose to associate with
it.
3. The Court cannot resolve any alleged
factual issue without interpreting religious
doctrine.
In additional to the intrusiveness of discovery
itself, what issues would be decided at trial? Whether
the Mission has a sincerely held religious belief on
marriage? Whether the ODLS staff attorney position
is related to the Mission’s religious belief? In Spencer
v. World Vision, the Ninth Circuit described the
“religious” vs. “secular” job description inquiry to be a
“constitutional minefield” and noted that the
Supreme Court in Amos found “exactly this sort of
inquiry problematic in the contest of determining
whether a particular employee’s duties were religious
or secular.” Spencer, 633 F.3d at 730. Indeed, the
exact concern expressed by the Amos Court has now
manifest itself in the form of Plaintiff’s lawsuit:
[I]t is a significant burden on a religious
organization to require it, on pain of substantial
liability, to predict which of its activities a secular
court will consider religious. The line is hardly a
bright one, and an organization might understandably be concerned that a judge would not
understand its religious tenets and sense of

112a
mission. Fear of potential liability might affect
the way an organization carried out what it
understood to be its religious mission.
Amos, 483 U.S. at 336, 107 S.Ct. 2862 (emphasis
added).
The Supreme Court in Amos went on to describe
the potential chilling effect on religious expression
created by lawsuits such as Plaintiff’s: “While a
church may regard the conduct of certain functions as
integral to its mission, a court may disagree” and, as
a result, “the [religious] community's process of selfdefinition would be shaped in part by the prospects of
litigation.” Id. at 343-44.
*****
VI. CONCLUSION
The Mission is statutorily exempt from Plaintiff’s
claim. Not only is the statute constitutional as
applied, it would violate the Mission’s constitutional
rights if the Court were to permit further discovery
and trial. Accordingly, the Mission respectfully
requests the Court dismiss the complaint under CR
56.
*****

113a

The Honorable Karen Donohue
Hearing Date: June 15, 2018
With Oral Argument
SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY
MATTHEW WOODS, an
individual,
Plaintiff,
vs.
SEATTLE’S UNION
GOSPEL MISSION, a
Washington nonprofit,
Defendant.

NO. 17-2-29832-8
SEA
DECLARATION OF
TERRY PALLAS IN
SUPPORT OF
DEFENDANT’S
MOTION FOR
SUMMARY
JUDGMENT

I, Terry Pallas, declare as follows:
1. I am over the age of 18, competent to testify
to the matters stated herein and make this declaration based on my personal knowledge.
2. I have served as Seattle’s Union Gospel
Mission Chief Program Officer since October 2016. I
have worked at the Mission since 2006 and, prior to
serving as Chief Program Officer, served as the Vice
President for People and Culture and the Director of
Men’s Ministry. In my current role as Chief Program
Officer, I head the Mission’s Program Ministries
division, including our Outreach ministry, Emergency

114a
Shelters, Men’s Recovery ministry, Women and
Children’s ministries, Open Door Legal Services
ministry (or “ODLS”), 118 Designs, Dental Clinic, and
Mental Health Outreach ministry. I am responsible
for the overall direction, development, and vision of
these ministries and for ensuring that these programs
and activities operate in a manner consistent with the
Mission’s mission statement, goals, and core values.
As part of these responsibilities, I oversee and provide
input in hiring and, when necessary, discipline and
termination, of employees.
3. I have a Master of Divinity graduate degree
and am ordained through the Evangelical Church
Alliance.
4. The Mission exists to preach the Gospel of
Jesus Christ. Because of this, the primary responsibility of every Mission employee, even in the face of
urgent physical need, is to preach the Gospel. We
understand this to be our primary responsibility
because we take Jesus’s words seriously when he
asks: “For what does it profit a man to gain the whole
world and forfeit his soul?” Mark 8:36. In every one of
our ministries and at every step of Mission guests’
recovery process, we share the Gospel of Jesus Christ.
Through both word and deed, we point our clients to
Jesus as the ultimate source of healing and hope
while alive, and the basis for salvation and eternal life
after death for those who believe in Him.
5. For this evangelical purpose, the Mission
operates over twenty ministries, primarily serving
the homeless and others in great need. These
ministries work collaboratively to create a “Gospel
rescue” continuum of care: search & rescue, welcome

115a
& embrace, provide & serve, heal & reconcile, and
restore & equip.
6. Although guests can enter Mission programs
at any appropriate stage of the continuum of care, the
Mission’s primary focus on King County’s roughly
5,000 unsheltered homeless means that the Mission
usually starts with physical needs for food and
shelter. To do this, we operate several outreach
ministries that bring food, coffee, blankets, and
friendship. We emphasize relationship in this work
because it often takes repeated encounters with any
given homeless individual – frequently suffering from
mental illness or substance addiction – to develop the
trust to come off the streets and enter the Mission’s
emergency shelter. Once Mission guests begin to
physically stabilize, the Mission can help with
underlying mental health or addiction issues through
long-term recovery programs, providing dental care,
and helping clients with legal needs. We are also able
to offer transitional housing, continuing education,
and job placement.
7. The Mission has a number of ordained
ministers on staff and conducts several chapel
services daily, but we expect all employees to share
the Gospel. All Mission employees are encouraged to
develop trusting friendships with Mission clients, to
pray with them, and to discuss issues of faith. We
have designed our ministries to create opportunities
for Mission employees to do just that.
8. The Mission expresses its religious beliefs and
accomplishes its religious purpose through its
employees. Because of this, we require our employees
to affirm our statement of faith and live in accordance

116a
with what the Bible teaches. One of the core teachings
of the Bible is the call to surrender your life to God
and live a life of obedience, even if you do not
understand or agree with what the Bible teaches.
9. The Mission’s statement of faith provides that
“We believe the Bible to be the inspired, the infallible,
authoritative Word of God.” Based on this
interpretation of the Bible, the Mission’s sincerely
held religious belief is that the Bible calls Christians
to abstain from any sexual activity outside of
heterosexual marriage, including abstaining from
homosexual behavior. This belief is based, in part, on
passages such as Romans 1:26-27, 1 Corinthians 6:9,
and Matthew 19:4. The Mission further believes that
a Mission employee who publicly rejects this teaching
undermines the Mission’s ability to carry out its
religious purpose. For example, because Mission
employees model this surrender for our clients, we
believe it is very difficult for an employee to urge a
recovering addict to surrender his or her life to God
when the employee publicly rejects well-known
Christian teaching.
10. In our ODLS ministry, volunteer lawyers are
required to affirm the Mission’s statement of faith.
ODLS volunteers have significant interactions with
clients and, as an outward-facing volunteer, ODLS
volunteers must serve in a manner consistent with
the Mission’s religious beliefs and purpose.
Recognizing that extensive reference checks and
interviews would deter many volunteers from serving
and consume substantial Mission resources, we rely
on volunteers’ representations concerning their
alignment with the Mission’s religious beliefs. If the
Mission became aware of an ODLS volunteer who was

117a
publicly not in alignment with the Mission’s
teachings–on sexuality or otherwise–we would likely
end the volunteer relationship.
11. The requirement that ODLS volunteers
affirm the Mission's statement of faith stands in
contrast to other volunteer opportunities at the
Mission, such as serving meals, where volunteers are
not required to affirm the statement of faith. The
Mission seeks to evangelize to volunteers and not just
clients, and, in volunteer roles without the same level
of client interaction, the Mission welcomes volunteers
from every faith, orientation, and conviction.
12. ODLS staff attorneys share all Mission
employees’ responsibilities to spread the Gospel, and
the ODLS ministry operates for the purpose of seeing
Gospel transformation in the lives of its clients.
13. ODLS staff attorneys are required to
participate in Mission events such as monthly AllMission Worship Services (including prayer, worship
music, Bible reading, a sermon, and, occasionally,
communion), other prayer meetings, all staff
meetings (most of which include prayer and
devotionals), trainings, Christmas parties, and other
events.
14. In mid-October, 2016, I was notified of
Plaintiff’s exchange with David Mace concerning
Plaintiff’s sexual orientation and the Mission’s
Biblical lifestyle expectations.
15. I have reviewed Plaintiff’s description of his
relationship with Jesus Christ in his application for
employment. Similar answers from other applicants
for Mission jobs usually trigger further scrutiny in a

118a
follow-up interview, if not by the department head,
then others who must approve all new hires,
including me. Very generally speaking, people who
describe their faith relationship with Christ in purely
social justice terms similar to Plaintiff do not share
the Mission’s view that its work is a means to the end
of
developing
a
life-transforming,
personal
relationship with Jesus. The Mission attempts to
explore these theological beliefs and approach to
ministry in follow-up interviews for job candidates
that are otherwise qualified.
I declare under penalty of perjury under the laws
of the State of Washington that the foregoing is true
and correct.
SIGNED this 18 day of May, 2018, at Seattle,
Washington.

119a

SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY
MATTHEW WOODS, an
individual,
Plaintiff,
vs.
SEATTLE’S UNION
GOSPEL MISSION, a
Washington nonprofit,
Defendant.

NO. 17-2-29832-8
SEA
DECLARATION OF
DAVID MACE IN
SUPPORT OF
DEFENDANT’S
MOTION FOR
SUMMARY
JUDGMENT

I, David Mace, declare as follows:
1. I am over the age of 18, competent to testify
to the matters stated herein and make this
declaration based on my personal knowledge.
2. I serve as Director and managing attorney of
Seattle’s Union Gospel Mission’s Open Door Legal
Services ministry (ODLS). I have held this position
since 2007.
3. The Mission opened ODLS in 1999. Currently
there are four Mission employees working at ODLS: a
managing attorney, two staff attorneys, and an
administrative assistant/ interpreter.

120a
4. ODLS provides legal aid to Mission guests as
well as others in need of legal assistance. Many
Mission guests have warrants, child support, debt
collection, and other legal issues disproportionately
impacting the poor and vulnerable, and on-site legal
aid fits well with the Gospel rescue work of the
Mission. Mission guests may schedule appointments
with ODLS and individuals not participating in other
Mission programs may attend an ODLS walk-in
clinic. ODLS walk-in clinics occur weekly.
5. A network of volunteer lawyers staff ODLS’s
clinics. These volunteers serve with differing degrees
of regularity, but typically once or twice a month.
Volunteer lawyers generally do intakes, issue spot,
offer initial advice or referral, and then pass the
client’s matter on to one of the staff attorneys for
further follow-up when appropriate. During these
clinics, volunteers are encouraged to pray with and
offer spiritual guidance to clients but are not
compelled to do so.
6. ODLS staff attorneys are Mission employees
and have primary responsibility and serve as the
point of contact for ODLS clients and matters.
Because of the ongoing nature of this relationship,
ODLS staff attorneys often develop relationships with
clients, regularly praying with them, encouraging
them, collaborating with the client’s caseworker (for
those in Mission programs), and otherwise trying to
show the love of God by loving the client holistically,
not just attending to legal needs. Staff attorneys are
required to participate in many other Mission events
such as monthly All-Mission Worship Services
(including prayer, worship music, Bible reading, and
a sermon), other prayer meetings, all staff meetings

121a
(most of which include prayer and devotionals),
trainings, Christmas parties, and other events.
7. ODLS is part of a network of over seventy
legal aid clinics affiliated with the Christian Legal
Society. Exhibit 1 is a true and accurate copy of the
Christian Legal Society introductory manual for new
Christian legal aid clinics, explaining the evangelical
purpose of Christian legal aid ministry. ODLS
operates with the same evangelical purpose.
8. I met Plaintiff, Matthew Woods, through his
volunteer work at ODLS. We developed a positive
working relationship during his 2012 summer
internship at ODLS, and that relationship continued
as he regularly volunteered in law school and after his
graduation. Matt volunteered regularly until he
accepted a job at the federal district court, and, after
that, continued to volunteer sporadically.
9. As a volunteer intern, Plaintiff spent more
time at ODLS than a typical volunteer but did not
have the duties and responsibilities of a staff
attorney, nor was he expressly subject to the
qualifications and requirements, including the
Biblical lifestyle expectations, the Mission requires of
its employees
10. Exhibit 2 is a true and accurate copy of an
email, dated October 4, 2016, that I sent to various
listservs (which included ODLS volunteer attorneys)
to announce the open ODLS staff attorney position.
This email included the ODLS staff attorney job
description.
11. Exhibit 3 is a true and accurate copy of the
ODLS staff attorney job description included with my

122a
October 4th email.
12. Exhibit 4 is a true and accurate copy of an
email exchange, dated October 14, 2016, between
Plaintiff and me regarding his interest in the ODLS
staff attorney position, his concern about the
Mission’s statement of faith and the standards of
conduct required of employees, and my confirmation
that Plaintiff would not be able to apply for the staff
attorney position because he did not agree with the
Mission’s Biblical lifestyle expectations.
13. I did not author the Mission’s Statement of
Faith, the employee handbook’s description of a
Biblical moral code, or any other policy statement
regarding standards of conduct for employees.
14. Following my email exchange with Plaintiff, I
informed my supervisor of Plaintiff’s inquiry
regarding his ability to apply for the ODLS staff
attorney position. I then contacted Plaintiff to
arrange a meeting between Plaintiff and the Mission’s
chief program officer, who is an ordained minister.
I declare under penalty of perjury under the laws
of the State of Washington that the foregoing is true
and correct.
SIGNED this 17th day of May, 2018, at Seattle,
Washington.

DAVID MACE

123a

IN THE SUPERIOR COURT OF THE STATE OF
WASHINGTON
IN AND FOR THE COUNTY OF KING
MATTHEW S. WOODS,
an individual
Plaintiff,
v.
SEATTLE’S UNION
GOSPEL MISSION, a
Washington nonprofit,
Defendant.

Case No.: 17-229832-8 SEA
PLAINTIFF’S
OPPOSITION TO
DEFENDANT’S
MOTION FOR
SUMMARY
JUDGMENT

*****
A. SUGM is a Religious Non‐Profit, But is
Not Wholly Exempt from the WLAD.
SUGM argues that its status as a religious non‐
profit facially qualifies it exemption from the WLAD
under RCW 49.60.040)(11). Woods disputes, however,
that the religious exemption applies to the ODLS staff
attorney job. See, Ockletree v. Franciscan Health
System, 179 Wn.2d 769, Dissent nn.1 & 6, 317 P. 3d
1009 (2014). ODLS cannot be a “ministry” of SUGM
due to the nature of the specialized legal services it
provides, nor, under the RPCs, can SUGM ethically
require ODLS attorney employees to subjugate their

124a
professional legal judgment to SUGM’s spiritual
goals. Rules of Professional Conduct (“RPC”) 1.2, 5.4,
8.4(2)(g). Factual disputes about the relevance of
SUGM’s beliefs to the duties and ethical obligations
of an ODLS staff attorney mandate denial of SUGM’s
Motion. SUGM’s faith simply has no bearing on
Woods’ discrimination claim.
*****
In Ockletree, the Court created a constitutional
bright line: The anti‐discrimination protections
afforded under the WLAD are not constitutionally
applicable to those who have religious job duties, but
in contrast, the WLAD fully applies to protect
employees without religious or sectarian job
functions, regardless of their beliefs. See also
Hosanna‐Tabor Evangelical Lutheran Church v.
EEOC, 565 U.S. 171, 132 S. Ct. 694, 703 (2012) (the
First Amendment “ministerial exception” applies only
to “ministers”).
Here, unlike the defendant in Ockletree, SUGM
asserts its religious beliefs broadly insulate its
discriminatory policy on sexual orientation, and it
asserts that an ODLS lawyer’s job duties are
religious. These factual differences compel close
examination of the WLAD’s religious exemption when
it would be used offensively to infringe on the civil
rights of protected classes whose jobs are not
ministerial, and to confront directly whether religious
groups that target marginalized populations for
discrimination do so in violation of Washington’s
Constitution.
*****

125a
D. The
Religious
Exemption
is
Unconstitutional as Applied to Woods,
Because Staff Attorney Job Duties are not
Religious or “Ministerial”.
Because the Ockletree Concurrence is binding
precedent, this Court should hold that SUGM’s anti‐
gay hiring policy cannot be constitutionally applied to
Woods, and deny SUGM Summary Judgment.
Even if this Court finds the Dissent and
Concurrence too dissimilar in rationale to create
binding precedent, however, limiting the application
of the exemption to ministerial employees would
preserve both the free exercise rights of religious
employers and the constitutional and civil rights of
employees. While SUGM represents that all its
employees must evangelize as a core job
responsibility, that assertion is not borne out in
ODLS’s job descriptions, structure, hiring procedures,
or relationships with clients or the larger
organization. Moreover, SUGM cannot articulate any
logical connection between its anti‐gay religious belief
and the duties performed by its non‐ministerial
employees. Mace, ODLS’s Director, testified that
sexual orientation had never come up as a legally
relevant issue in his eleven years with ODLS, but also
testified that the ability to work effectively and build
relationships with unhoused individuals was a “core
point” of the ODLS staff attorney position. Ex. E
(Mace 28:1‐21; 170:23‐171:1).
Woods appreciates that this Court must be “fully
convinced, after a searching legal analysis, that the
[exemption] violates the constitution” as applied to
him. Sch. Districts’ Alliance for Adequate Funding of

126a
Special Educ. V. State, 170 Wn.2d 599, 605, 244 P.3d
1 (2010). But SUGM is incorrect that the State
Supreme Court recognized the Legislature’s
reasonable ground for the exemption in “cases like
this.” Mtn, 20. Rather, Ockletree held that the
exemption was not constitutional as applied to
individuals whose job duties are not religious in
nature.
*****

127a

IN THE SUPERIOR COURT OF THE STATE OF
WASHINGTON
IN AND FOR THE COUNTY OF KING
MATT WOODS, an
individual

Case No.: 17-229832-8 SEA

Plaintiff,
v.
SEATTLE’S UNION
GOSPEL MISSION, a
Washington nonprofit,
Defendant.

DECLARATION OF
PLAINTIFF MATT
WOODS IN
SUPPORT OF
OPPOSITION TO
DEFENDANT’S
MOTION FOR
SUMMARY
JUDGMENT

I, Matt Woods, being over the age of 18 and a
resident of the State of Washington declare that the
following statements are true, correct, based on my
personal knowledge, and made under penalty of
perjury:
*****
17. Even though I was told my application would not
be accepted, I applied for the staff attorney job
anyway, to ask for reconsideration and to protest
SUGM’s discriminatory policy. In reliance on Mr.
Mace’s statement that I did not meet eligibility

128a
requirements, I did not try to answer every
question on the ODLS application fully. I believed
that if ODLS was willing to reconsider its policy,
we would likely have an opportunity to discuss
other details about my application at a later date.
*****

129a
Excerpts from Deposition of Terry Pallas
(CP695-709)
_____________________________________________
30(b)(6) DEPOSITION UPON ORAL
EXAMINATION OF TERRY PALLAS
_____________________________________________
9:31 o’clock a.m.
May 23, 2018
1139 34th Avenue, Suite B
Seattle, Washington
*****
[CP695-96]
Is it your understanding that neither employees,
nor Union Gospel Mission hold this as a binding
agreement?
A If an employee does not agree with the handbook,
nor the Statement of Faith, whether they are just
coming into employment or if their, if their
theology or thoughts have changed while being an
employee, then it would be reason for dismissal
from the Mission.
Q Has UGM ever dismissed any employee for
essentially revising their beliefs?
A We have, if somebody is unwilling to sign the
Statement of Faith, we have a series of meetings
and conversations with them. If they still do not
agree with either the Code of Conduct or the
Statement of Faith, then steps are taken to
terminate the employment.

130a
*****
Q Okay. And if you’ll turn a few pages in advance to
Page 43 on the bottom right, if you look under the
first paragraph under the top heading, Spiritual
Life. I’m going to read to you starting with the
second sentence, which is, “The Mission is not the
place to ‘take in’ what you need to ‘give out’.” What
does that mean?
A It means that we believe that every single
employee needs to be completely and totally filled
with the Holy Spirit. The Holy Spirit can only come
from a person that has given their life to Jesus
wholly and completely and that is the absolute
driving force in their life.
We expect every single employee to be coming to
work every single day clothed with the
righteousness of Christ that can only come through
the Holy Spirit. And so we expect people, as they
arrive through the doors, to be fully spiritually
prepared to be able to give out, not just in their
professional life, but more importantly we want
people to be able to be able to share the gospel of
Jesus Christ for people’s salvation. And so if they
are not in their personal life, outside of their
normal work hours, involved in discipleship,
personal discipleship, prayer, active church life,
meeting with other people to encourage them in
their faith and continuing to grow personally, that
they would have a personal responsibility upon
themselves to care for their own spiritual
nurturing and life. That’s what that means. That
means we want people when they show up for work
to be fully prepared --

131a
Q Sure.
A -- to share the gospel. And we believe that that can
only be done by the power of the Holy Spirit
bubbling up inside of somebody so much so that it
will spill on to other people that they interact with
through the day.
*****
Q How many employees does Union Gospel have?
A Approximately 220.
Q And there’s a number of different services you offer,
everything from meal service to you have a Men’s
Shelter, and as well as the ODLS Clinic. Does
Union Gospel Mission employ people to prepare
food?
A Yes.
Q Are there positions where that is the primary
responsibility of any employee?
A No.
Q Does Union Gospel Mission employ staff to clean
the shelters?
A Yes.
Q And is cleaning the shelters the primary job
responsibility of any particular position?
A No.
Q The people who clean the shelters, what other kind
of work do they do?
A They share the gospel of Jesus Christ. So the
primary reason why we employ people at Seattle’s
Union Gospel Mission is to be ministers of the

132a
gospel. At new employee orientation where this
handbook is handed out, when I do an executive
brief, I first and foremost tell everybody, you may
be a Case Manager, but you are a minister of the
gospel who happens to be a Case Manager. You are
a minister of the gospel who happens to work in
food services. You are a minister of the gospel who
happens to be cleaning a toilet or scrubbing a floor
or doing whatever it is. All 220 employees’ first and
primary goal has to be consistent with our primary
mission and that’s to preach the gospel of Jesus
Christ. The way that that’s carried out is always
going to be secondary, and that’s what their job
title may say, but first and foremost they have to
be willing and ready and prepared to share the
gospel.
*****
[CP697]
Q Do you have any information about how the
Standards of Conduct were developed?
A Yes.
Q Tell me about that.
A The Union Gospel and Rescue Mission movement
approximately 100 years ago began in multiple
cities across the United States and each had a very
traditional and fundamental view of scripture,
wanting to preach the gospel of Jesus Christ,
wanting to see as many folks saved as possible. And
they believed that would be best by caring for the
immediate needs of people that were trying to
survive on the streets; people that were hungry,
people that were without safe shelter. And so many

133a
cities started to adopt both the, what’s it called?
The -- I’m just blanking on the word right now. The
Statement of Faith. And so if you look throughout
our Association, which has hundreds and hundreds
of Rescue Missions, the Code of, the Statement of
Faith is very, very similar, if not exactly the same
because they use the same template to create the
Statement of Faith.
Q And what was that template?
A Well, it was just, just what you are looking at; the
Statement of Faith. And so this Standard of
Conduct was both derived from a historical
precedent of the Association of Gospel Rescue
Missions throughout the country and also the
Standards of Conduct are taken directly from an
orthodox view of scripture.
*****
[CP700-701]
Who is an acceptable pastoral reference from
UGM’s point of view?
*****
A There is a specific office of the pastor described in
scripture, that somebody has charge over a flock of
believers and to shepherd those believers.
Shepherd with a small S. Jesus would be referred
to as the Shepherd with a big S.
So what we’re looking for is the individual to be
attending, but even more than attending, we want
people that are part, an active part of a faith
community. So pastoral reference would be
someone who’s charged to be the shepherd of that

134a
congregation, that knows the applicant well and
can attest for their active involvement with their
faith community.
*****
Q Okay. And when you use the word church, what do
you mean?
MR. TAYLOR: Object as also calling for an
interpretation of religious beliefs.
A We’re
a
multi-denominational,
evangelical
Christian ministry. And so churches, there is
discretion in there, what we believe as a Christaffirming,
healthy,
vibrant,
life-giving
denomination and/or church. There are some that
would consider themselves churches that we would
believe are outside of our understanding of
scripture and they probably would not be the best
fit with Seattle’s Union Gospel Mission.
Q And without inquiring into your values about what
are and aren’t qualifying churches, have there been
some people who have submitted pastoral
references that UGM considered to not be
adequate?
A If it is in opposition to our Statement of Faith, then
that’s probably outside of what we believe first and
foremost, the very first statement in our Statement
of Faith that we believe the Bible to be the
inherent, authoritative Word of God, infallible,
authoritative Word of God, inspired, as Timothy
3:16 says. So “infallible” means that we take a very
conservative and orthodox view of scripture.
Additionally, if there was a church outside of what
we would believe is the core tenets of faith, then

135a
that would
employment

also

disqualify

somebody

from

*****
[CP703]
How often does an applicant’s answers about
their spiritual relationship trigger further
scrutiny?
*****
A Almost always there is going to be further
discovery into an applicant’s answers. So the very
first screening is simply a snapshot, and for those
that are passed along to the hiring manager to
interview, the interview process should be
strenuous for us to ask and uncover and to find out
somebody’s personal story of how they came to
know Jesus Christ as their Lord and Savior, to be
able to articulate their gospel story clearly and
articulately and for that to be backed up by
references. So it’s not just them presenting
themselves in a certain way or putting on a mask
and pretending to be something they are not. We
try to be as strenuous as possible to have a process
that goes through multiple layers to try to make
sure that people are who they say they are when
they present themselves for employment at the
Seattle’s Union Gospel Mission.
*****
[CP704]
Does ODLS screen or vet volunteers for the legal
clinic?
A Yes.

136a
Q Can you describe that process for me for volunteer,
we’re going to call it vetting.
*****
A I’m getting there, but it helps to understand the
context of just general volunteers that are
transactional in nature, like serving a meal, and
then there’s a different level that’s a high-impact
volunteer. A high-impact volunteer is somebody
that’s going to have regular interaction with guests
that can be more personal in nature. There’s much
more opportunity we believe for high-impact
volunteers to be able to share the gospel since
that’s what we are established to do, that’s our
main focus. We want to know that high-impact
volunteers will sign the Code of Conduct or the
Statement of Faith and be in agreement with who
we are. And ultimately it would be wonderful if
they were people of faith that could draw folks,
folks into a relationship with Christ.
Q So other than having, doing this criminal
background check and making sure that a
volunteer is safe, and then having these highimpact volunteers sign the Statement of Faith,
what other, are there any other steps in the vetting
process for an ODLS volunteer?
A We currently have our Volunteer Engagement
Manager
that
approves
our
high-impact
volunteers.
*****
[CP705]
Q Is it required that an ODLS attorney offer prayer?

137a
A Not every single time, but of course, we would
encourage the attorneys to offer prayer and to lead
spiritually.
Q So it sounds like your testimony is that it is not
required, but it is encouraged?
A We hope that we are employing people that, like I
said earlier, their faith is just bubbling up so much
that it’s going to be apparent to anybody that they
are around. And so -Q If an ODLS staff attorney did not offer prayer with
a client, would that be grounds for some sort of
follow-up discussion with their manager or
discipline or anything along the lines of an
employment counseling?
A I think if an employee said that they didn’t see
reason to pray or didn’t honestly, they didn’t want
to or, you know, that, yeah, there will be discussion
around that to try to dig in to why, to dig in to
where they are at with their faith.
People that are in love with Jesus Christ, there’s a
compulsion to share what He’s done. When your
life has been transformed, there is an internal
drive that makes you want to share that joy with
other people.
Q I understand. But if in an attorney’s judgment,
prayer, offering prayer would in some circumstance
be inappropriate for the given situation, ODLS
would respect that; is that your testimony?
A We want to respect people and where they are at
and we want to look for any opportunity that we
can to inject a spiritual element into what we’re
doing.

138a
*****
[CP706]
How does the staff attorney job differ from a
volunteer ODLS attorney duty?
A I think the primary thing is we are expecting the
staff attorney, the employee to be a minister of the
gospel first and foremost. As stated this morning,
their primary job, I often quote Mark 8:36 where
Jesus says, “What does it profit an individual if
they gain the whole world yet lose their soul.” And
I quote it to new employees, I quote it in All Mission
Services because what it does is it sets the
precedence.
It says what does it profit an individual if they get
their legal issues resolved, what does it profit an
individual if they walk the rest of their life in
recovery, what does it profit an individual even if
they get a house and a nice car and a job and they
are not brought back into right relationship with
God through the blood of Jesus Christ?
*****
That’s what makes Seattle’s Union Gospel
Mission distinctive from any other service provider
is that gospel is our middle name and that is
exactly what is core to who we are.
So if there’s one thing that’s specifically
distinguishing, if you are going to step on to our
staff, we want you to be crazy about Jesus and it
should just exude everything you do in your life,
every relationship you have, whether it’s at work
or outside of work. It should just emanate from who
you are. So there’s that hope and prayer that we

139a
have that anybody that comes on staff, that’s the
individual that we’re looking for.
*****
[CP708]
Q When Mr. LaRose talks in the next two bullet
points about the legal team’s knowledge that Mr.
Woods is gay, what significance does that have that
he’s documenting that they didn’t know?
*****
A Yeah, it’s, you have to be able to distinguish, you
know, is this a gay lifestyle, is this a same-sex
relationship where they are acting upon that
temptation, and so if there is any kind of action
taken based on that temptation, that’s the point
where it becomes a sin. And so none of us can help
from being tempted, but each one when they are
tempted, from the Book of James, chooses to the
grab ahold of that temptation and that’s the point
where sin is conceived.
And so as a Christian, somebody who is able to
sign the Statement of Faith and say that they are
in love with Jesus, there should be a problem
internally with them acting upon something where
the Word is very clear is a sin. So yes, that’s a
problem if somebody is acting in a way that is
contrary to scripture.
Q Okay. And my question was what is the
significance to you that it was not known until
Matt brought it up?
A If we had a volunteer in a high-impact role, that is,
not just has the temptation, like I said, but is acting

140a
out that temptation, then they would not be a highimpact volunteer. We’re not going to have people
teaching Bible studies, leading discipleship groups,
or in the relationship as close and personal as a
staff attorney because our expectation is they are
living out their faith and so in love with Jesus that
that’s bubbling outside of them. So to have a
behavior or life circumstances in which you are
acting and behaving contrary to the scripture of
God is in direct contrast with what we’re trying to
accomplish as a Mission. And so you can’t hold the
two together. They are exclusionary.
*****
[CP709]
Q Okay. Is it in UGM’s annual report?
MR. TAYLOR: Same objection.
A No.
*****
aware of the prohibition on homosexual behavior
would be by reading the Employee Handbook or
drawing inferences from UGM’s use of scripture or
being told by a UGM employee that that is the
policy?
MR. TAYLOR: Same objection.
A No. Because there’s many more people that know
of our policy. It doesn’t have to be an employee. It
doesn’t have to be on our website. It doesn’t have to
be in social media. We’re a conservative,
fundamental Christian organization. That’s who
we are.
*****

141a
Excerpts from Deposition of David Mace
(CP727-41; CP151-53)
_________________________________________________
DEPOSITION UPON ORAL EXAMINATION OF
DAVID MACE
_________________________________________________
10:00 o’clock a.m.
May 24, 2018
1139 34th Avenue, Suite B
Seattle, Washington
*****
[CP727]
Q And we’ve talked a little bit about this, but some
homeless individuals that ODLS serves identify as
lesbian, gay, bisexual or transgender; correct?
A

(Nods affirmatively.)

MR. TAYLOR: Can you answer out loud for the
record?
A Oh, yes.
MS. DISKIN: Thank you.
[CP729]

*****

Q And what do you review at that stage?
A I look through their application that they’ve
submitted to the Mission. And they also would,
certainly for a staff attorney position, would always
have submitted a resume as well, oftentimes a
cover letter. And I would read through for basic

142a
legal qualifications. You know, certainly they
wouldn’t have made it to that stage if they didn’t
have a JD, but I would look at any concerns that I
may have about their legal background and their
legal services background. You know, it might be
somebody with 25 years of experience working for
a phone company, but, you know, not necessarily
somebody that I needed at ODLS. And so I look at
the more detailed aspects of their legal careers and
try to spot any red flags. Like with most hiring
processes, I’m looking for people to eliminate at
that point, not making choices.
And then I also look at their answers to the
religiously-oriented questions in the application,
how they describe their relationship with Jesus,
how they describe their church involvement, see if
there’s anything that gives me concern or pause
there. And just anything else that in general makes
me nervous.
*****
[CP730-31]
A Then -Q Sorry. Go ahead.
A So at that stage then there’s some people that I
would just reject outright and just say, “I’m not
interested.” I might kick it back to them and say,
you know, “I want more about this. Could you guys
make another phone contact before I set up an
interview?” Or I might decide to pass them through
the interview process and clarify any issues
through the interview process.
Q Okay. And then do you yourself do an in-person

143a
interview with a potential employee?
A Yes.
Q Okay. And are you the final decision maker as to
whether that employee gets hired or not?
A Well, we do the interviews with the entire office. So
all four of us would interview any new applicant
and I get input from everybody. It’s a very
collaborative process.
Q And by the four, you mean the two staff attorneys
and -A ODLS employees; right.
Q The ODLS employees. Okay.
A Right. And within ODLS, I am then the final
decision maker, although with significant input
from my staff because it’s a small office that works
very closely together and if they are expressing
concerns, I’m going to be really very interested in
that.
And then nobody is going to get hired and placed
in our department without my approval, but
anybody that I approve then has to be signed off on
by my immediate supervisor and the Chief
Operations Officer of the Mission, and so they could
veto essentially an applicant that we had chosen.
Q Okay. So you have authority to present a final
option for veto and you are not necessarily required
to provide two or more options for your supervisors
to choose among?
A Correct.
Q Would you say that’s accurate?

144a
A Yes.
Q Okay. Have you ever had a recommended hire be
vetoed by your supervisors?
A No, because the reasons -- they wouldn’t veto
somebody for legal qualification reasons or office fit
type reasons; they are going to trust my judgment
on that.
Q Okay.
A So there’s, what they are looking for is more does
the person spiritually align with the direction of
the Mission, requirements of the Mission, and the
process is designed to screen for that first. And so
it would be unusual that somebody would pass the
initial screening and then make it to them and then
have them veto it because they would vetoing for
those initial reasons.
Q Okay. Talking about that initial screening for a
moment, in your knowledge and understanding,
are there candidates who are screened out for faithbased reasons before they get to you?
A Yes.
Q Okay.
A And I also screen people out for those reasons at
that stage, like I said, I kind of go in and look at
those issues and look over the shoulder of what the
screeners are doing and if I’m uncomfortable with
it, I might just tell them to just reject somebody,
you know, even before they get do the phone
interview sometimes.
Q Okay. Turning for a moment to the hiring process
for volunteers and law student interns. Well, let me

145a
first ask, is there a different process for a general
volunteer than for a law student intern in terms of
hiring?
MR. TAYLOR: Object to the use, just to the use
of the term “hiring”, but -Q I’m struggling with that term, also. Is there, I could
say something like onboarding, would that be -A Selecting.
Q Selecting. Okay. We can use selecting. So is there a
different process for selecting a volunteer to work
with ODLS than a law student intern to work with
ODLS?
A Yes. Again, using the intern term broadly,
sometimes we would select them like a typical
volunteer, which doesn’t really involve my staff.
I’m the primary person for recruiting and screening
and selecting volunteers in general, but for
somebody who’s going to come in for the summers
for sure and possibly for a longer term internship
during the school year, our interview process would
look more like the hiring of an employee where we
would have them come and do an interview with
the entire staff. But the formal Mission part of the
process is still not part of that. So we handle it
internally within ODLS very similar to bringing on
an employee, but there’s not that Mission oversight
to that process.
Q Okay. So the initial phone screening that we talked
about for employees does not occur in bringing on a
law student intern; is that accurate?
A Not in the same form; yeah.

146a
Q Okay.
A So I still have an initial screening for the spiritual
requirements of the position, but it’s usually done
through email where I would respond to somebody
who has sent me their resume and cover letter and
say, you know, “We’re a Christian organization.
You know, we want all of our interns to be aligned
with the Mission Statement of Faith. Here’s a copy
of the Statement of Faith. Are you able to sign this
as affirming you believe in it and not just that you
support it” or something along those lines. And I
don’t offer an interview to anybody who has not
been willing to sign the Statement of Faith as
personally affirming it.
Q Okay. And when you are selecting a student intern,
you mentioned a few minutes ago that the Mission
oversight is not part of that process. So are you the
final decision maker for the selection of a law
student intern?
A As relates to volunteer interns. Now while last
summer was the first time that we had a paid
position, a paid student summer intern, and that
we had some specific, the Advisory Committee
actually wanted to create a paid internship, so they
donated the money specific to that position. But the
way that we created it as a paid position rather
than paying like a stipend having them be a
nonemployee, we brought them on as a temporary
employee. So that meant that they had to go
through the entire Mission process. So then they
did have to go through the phone screen and the
drug testing, the criminal background check and
all of that kind of stuff and be approved by our COO

147a
and the whole shebang.
You know, we had selected the person that we
wanted for that, and then we just kind of ran them
through the Mission process, but the Mission had
the opportunity to screen them and veto them and
vet all of the various, all the same folks as we would
an employee.
Q Okay.
A And that will hold true for any future paid summer
intern who’s coming on as a temp for the Mission.
[CP741]

*****
And later in November 2016 you went on to have
lunch with Mr. Woods; correct?
A Yes.
Q Do you recall what you and Mr. Woods discussed
during that lunch?
A We
discussed
his
application
and
his
disappointment that we would, about the UGM
policy and, you know, and also just had a more
social conversation as well, just about how each
other was doing and his work and that sort of thing.
Q Okay. At that point that you had lunch with Mr.
Woods, did you relay to him that UGM would not
be further considering his application?
A Yes.
*****
It was important to me not to, not to pretend like
we were advancing his application, that was not a
viable application, to communicate to Mr. Woods

148a
clearly what was happening. And so I felt like I had
done that in email, but I also, you know, I wanted
to give him a chance to talk that through as well.
[CP151]

*****

Q Okay. I want to turn to paragraph 6 and the second
sentence where you write, “ODLS staff attorneys
often develop relationships with clients, regularly
praying with them”, and then the sentence goes on.
Are ODLS staff attorneys required to pray with
clients?
MR. TAYLOR: Object to the form of the
question.
A “Required” is a, there’s no specific circumstances
where prayer is a required part of the services that
we provide, but it is a consistent and common
practice with, you know, with all of our cases. And
I wouldn’t employ an attorney who never prayed
with their clients.
Q An ODLS staff attorney wouldn’t pray with a client
who did not want to pray; correct?
A Right.
Q So the circumstances under which that might occur
would be upon client request; correct?
[CP152-53]
MR. TAYLOR: Object to form of the question.
A No, I mean, we often offer to pray for a client
without them, without waiting for them to request
it. If a client declines, then certainly we’re not going
to push the issue forward, but it’s discretionary to

149a
the attorney or the volunteer in the specific
situation that they are in. But it’s a, I, you know,
it’s something that is a regular part of our practice.
So that’s why I said I wouldn’t have somebody on
staff who never prayed with clients. There would
be something wrong there.
Q And I don’t mean to be disrespectful, I’m just
hoping to get some clarity. Is it a requirement that
ODLS staff attorneys offer prayer to clients?
A Again, when you state it as a requirement, it makes
it sound like there are times where it’s compulsory
in that specific instance. I don’t micromanage my
attorneys like that. They are big people who have
minds of their own and they understand their
relationships with their clients much better than I
do. So they have full discretion to decide when and
if and how to pray for a client under any specific
circumstances, but they do on a regular basis. And
if somebody said, you know, “It’s never come up for
me to pray with a client”, that would not be an
accurate definition of how we’re supposed to be
practicing law in our office.
Q Right. And it’s not something you are checking on
them doing necessarily?
A Right. Right. Just like I don’t, you know, check over
their legal work. You know, they are competent
professionals who know how to do their jobs and
they know what their expectations are. I wouldn’t
hire somebody who didn’t operate in that, you
know, with that full understanding.
*****

150a
ARTICLES OF INCORPORATION
of
UNION GOSPEL MISSION ASSOCIATION OF
SEATTLE
WHEREAS, we, the undersigned, have been,
upon motion duly made, seconded and unanimously
carried at the regular annual meeting held pursuant
to proper notice and in accordance with the provisions
of the constitution of the Union Gospel Mission
Association of Seattle, held at Swedish Tabernacle, in
the City of Seattle, King County, Washington, this
10th day of November, 1939, delegated and
authorized to incorporate the said association under
the laws of the State of Washington, in the name of
the UNION GOSPEL MISSION ASSOCIATION OF
SEATTLE:
NOW, THEREFORE, it is hereby agreed by and
between the undersigned, the same being all the
officers and trustees of the Union Gospel Mission
Association of Seattle, to-wit:
Dr. N.A. Jepson
Alvin E. Westin
H.M. Gustafson
Nels Rasmussen
Henry Ragge
F.H. Pottenger
Calvin Sanders
Swan Westrom
Charles K. Finn

R.O. Fleming
A.J. Wendells
Frank Novak
Irving H. Rowell
S.S. Sanger
D.M. James
C.M. Dolgner
Thomas Stave
Ray O. Anderson
ARTICLE I.

That we have associated and do hereby associate
ourselves together for the purpose of end with the

151a
intention of forming a religious and charitable
corporation under the laws of the State of
Washington, the name of which corporation shall be
the
“UNION GOSPEL MISSION ASSOCIATION OF
SEATTLE”.
ARTICLE II.
The principal place of business of this corporation
shall be at Seattle, King County, Washington.
ARTICLE III.
The objects and purposes of this corporation are
and shall be the preaching of the gospel of Jesus
Christ by conducting rescue mission work in the City
of Seattle, and to carry on such work as may be
necessary or convenient for the spiritual, moral and
physical welfare of any of those with whom it may
work, such methods of work shall be adopted as may
be deemed wise and expedient by the Board of
Trustees, and that any phase of the work other than
direct evangelism shall be kept entirely subordinate
and only taken on so far as seems necessary or helpful
to the spiritual work; to acquire, hold, manage,
mortgage, rent, lease, sublease, sell, convey and
otherwise encumber and dispose of property of every
kind and nature, real, personal or mixed, but for the
sole end of carrying out and securing the foregoing
objects and purposes.
*****

152a

Who are we?
Seattle’s Union Gospel Mission is a passionate
community of people who follow Christ in his
relentless, redeeming love for all people. Our mission
is to serve, rescue, and transform those in greatest
need through the grace of Jesus Christ.
Relationship is key in all we do. By providing 24/7,
360-degree support services for homeless people in
King County, we seek to be a consistent friend to
those who are isolated and in need. We go where
people live, listen to their stories, and regularly
connect with each person to provide emergency care
and invite them into our recovery programs.
Our goal is to inspire hope, bring healing, and point
people to a new life through Jesus Christ.
The task is enormous, but when we think of homeless
people, we like to say: There are more of us than there
are of them.

153a

As a non-profit Christian ministry, Seattle’s Union
Gospel Mission bases its work on the teachings of
Jesus Christ. We take seriously His command to feed
hungry people, clothe those who are naked, and
provide shelter for those who are homeless. We consistently combine our faith with action by serving those
in greatest need regardless of their religious beliefs,
ethnicity, sexual orientation, or gender identity.
We affirm our Christian identity with the following
statement of faith:
1. We believe the Bible is the inspired, infallible,
authoritative Word of God.
2. We believe there is one God, eternally existent in
three Persons: Father, Son and Holy Spirit.
3. We believe in the deity of our Lord Jesus Christ,
His virgin birth, His sinless life, His miracles, His
vicarious and atoning death through His shed blood,
His bodily resurrection, His ascension to the right
hand of the Father, and His personal future return in
power and glory.
4. We believe that regeneration by the Holy Spirit is
absolutely essential for the salvation of lost and sinful
men and women, leading to verbal confession and
inward belief in the Lordship and bodily resurrection
of Jesus Christ.
5. We believe in the present ministry of the Holy
Spirit by whose indwelling the Christian is enabled to
live a godly life.

154a
6. We believe in the bodily resurrection of the just and
unjust, the everlasting blessedness of the saved, and
the everlasting conscious punishment of the lost.
7. We believe in the spiritual unity of believers in
Christ.

155a
Excerpts from
Association of Gospel Rescue Missions
Webpage (CP454-56)

About Us
For more than a century, one group has been tracking
with the tragic conditions of desperate and
disenfranchised people in North America. The
Association of Gospel Rescue Missions (AGRM) has
been on the sidewalks and in the face of what to many
has been a faceless problem. AGRM-member facilities
have a reputation for being havens of hope for all who
enter.
Founded in 1913, AGRM has some 300 rescue mission
members across North America. Each year, AGRM
members serve approximately 66 million meals,
provide more than 20 million nights of shelter and
housing, assist some 45,000 people in finding
employment, provide clothing to more than 750,000
people, and graduate nearly 17,000 homeless men
and women from addiction recovery programs into
productive living. The ramification of their work
positively influences surrounding communities in
countless ways.
While rescue is in the name of the association, the
followers of Jesus running these missions see that
aspect as just the beginning. In total, they are about:
Rescue – Pulling people to safety from adverse
conditions, and from choices and habits that lead to
damaged health and death
Redemption – Presenting people with a gospel
that is about life transformation in Jesus, and the
reclamation of His creation

156a
Rehabilitation – Helping people break the
bonds of addiction and desperate behavior, and
experience a life of healing and wholeness
Re-assimilation – Preparing people to dwell in
community, and to have meaningful roles that lead to
stability and missional living
*****
Vision Statement
AGRM will foster and feed a movement of diverse,
energetic disciples who will see the practice of
hospitality to the destitute as both a catalyst for life
transformation in Jesus and a fundamental
expression of their Christian faith, thus propelling
the church into the lead role in society’s quest to
alleviate homelessness.
*****

157a
Excerpts from Union Gospel Mission’s
Employee Handbook (CP350-64)
*****
[CP355]
PURPOSE AND STATEMENT OF FAITH
The purpose for which this corporation is organized is
set forth in Article 1 1 1 of the Articles of
Incorporation filed April 3, 1940 in Seattle, WA, King
County; said purpose being as follows:
“The objects and purposes of this corporation are
and shall be the preaching of the gospel of Jesus
Christ by conducting Rescue Mission work in the
city of Seattle, and to carry on such work as may
be necessary or convenient for the spiritual, moral
and physical welfare of any of those with whom it
may work, such methods of work shall be adopted
as may be deemed wise and expedient by the
Board of Trustees and that any phase of the work
other than direct evangelism shall be kept
entirely subordinate and only taken on so far as
necessary or helpful to the spiritual work; to
acquire, hold, manage, mortgage, rent, lease
sublease, sell convey and otherwise encumber and
dispose of property of kind and nature, real,
personal or mixed but for the sole end of carrying
out and securing the foregoing objects and
purposes”
STATEMENT OF FAITH
1. WE BELIEVE THE BIBLE TO BE THE ONLY
INSPIRED, INFALLIBLE, AUTHORITATIVE
WORD OF GOD.

158a
2. WE BELIEVE THAT THERE IS ONE GOD,
ETERNALLY
EXISTENT
IN
THREE
PERSONS: FATHER, SON AND HOLY
SPIRIT.
3. WE BELIEVE IN THE DEITY OF OUR LORD
JESUS CHRIST, IN HIS VIRGIN BIRTH, IN
HIS SINLESS LIFE, IN HIS MIRACLES, IN
HIS VICARIOUS AND ATONING DEATH,
THROUGH HIS SHED BLOOD, IN HIS
BODILY RESURRECTION, IN HIS ASCENSION TO THE RIGHT HAND OF THE
FATHER, IN HIS PERSONAL RETURN IN
POWER AND IN GLORY.
4. WE BELIEVE THAT THE SALVATION OF
LOST AND SINFUL MEN, REGENERATION
BY THE HOLY SPIRIT IS ABSOLUTELY
ESSENTIAL.
5. WE BELIEVE IN THE PRESENT MINISTRY
OF THE HOLY SPIRIT BY WHOSE
INDWELLING
THE
CHRISTIAN
IS
ENABLED TO LIVE A GODLY LIFE.
6. WE BELIEVE IN THE BODILY RESURRECTION OF THE JUST AND UNJUST, THE
EVERLASTING BLESSEDNESS OF THE
SAVE, AND THE EVERLASTING, CONSCIOUS PUNISHMENT OF THE LOST.
7. WE BELIEVE IN THE SPIRITUAL UNITY
OF BELIEVERS IN CHRIST.
*****
[CP357]
THE HISTORY OF THE UNION GOSPEL MISSION

159a
On April 4, 1932, in the midst of the depression, Dr.
Francis Peterson and leaders of Seattle area churches
organized the Union Gospel Mission to reach out to
homeless and hungry people.
The number of people in need was overwhelming. Dr.
Peterson, in later years, recalled one evening when he
“stood on the steps leading out of the Mission and
counted 500 hungry men.”
Under Dr. Peterson’s direction, the Union Gospel
Mission moved promptly to feed and comfort the
desperate people crowding through the Mission’s
doors.
Early programs included a shelter ministry for
women and an outreach program for inner city youth.
During World War Two and the Korean War, over
200,000 servicemen came to U.G.M.’ s Victory Service
Center, a home away from home for those lonely men.
The year 1952 marked the year the Mission
purchased our present Men’s Center facility, doubling
our capacity for beds. With the numbers of homeless
men increasing almost daily, it was filled to
overflowing immediately.
As the 1960’s and 1970’s were rocked with turmoil
and change, our Mission leaders strove to keep up
with the changes on the streets and in the city.
They saw that urban mission work encompassed more
than feeding and sheltering the hungry and homeless.
They began programs oriented towards community
ministries; caring for fixed income seniors, at-risk
youth, low income and poverty level families, all over
the brink of disaster.
In more recent years the Mission’s work has become

160a
particularly heartbreaking as more families and
children in trouble come through our doors. The
Union Gospel Mission Women and Family Shelter on
King Street was established in 1982 to take in the
flood of homeless families on the streets, but always
more come than can be sheltered.
The doors of the Mission have been open 24 hours a
day since 1932, offering hope and comfort to hurting,
needy people.
[CP358]
SPIRITUAL LIFE
The successful mission worker is one who has
stability in his/her walk with the Lord. The mission is
not the place to ‘take in’ what you need to ‘give out’.
That comes from being an active member of a local
church. All staff members are expected to be active in
a local church. When you are asked to take leadership
in the church, think about your role at the mission.
When in question, consult the Executive Director.
Staff members are generally expected to be part of
mission sponsored spiritual programs such as
retreats, staff prayer and Bible study, Annual Dinner,
etc., except when job responsibility interferes.
STATEMENT OF FAITH
All staff members are required to sign the doctrinal
standard of the Union Gospel Mission (hereafter
referred to as U.G.M.).
All staff members are expected to live by a Biblical
moral code which excludes extra-marital affairs, sex
outside of marriage, homosexual behavior, drunkenness, illegal behavior, use of illegal drugs and any

161a
activity which would have an appearance of evil.
*****
DEVOTIONS
The U.G.M. has a devotional meeting every Tuesday
at 10:00 A.M. All staff are urged to attend. This is a
time of prayer requests, announcements, and
learning. Check with your supervisor for information.
*****
[CP364]
STANDARDS OF CONDUCT
The following types of conduct are not permitted and
could result in disciplinary action up to and including
termination depending upon the severity of the
infraction. This is not meant to be a complete list, but
will serve as a guide-line for unacceptable behavior.
A profession after being hired, that he/she is no
longer a believer and follower of the teachings of
Jesus Christ and will not accept the counsel of
other believers.
Habitual tardiness or absenteeism.
Insubordination.
Accepting gifts of more than a nominal value from
anyone with whom you do business on behalf of
U.G.M.. The determination on whether or not a
gift or bequest is nominal shall be at the
discretion of the Executive Director.
Failure to protect proprietary information which
could be considered harmful to U.G.M.’s security,
reputation, employees, or its clients.

162a
Involvement in the initiation, authorship, or
transmittal of threatening or defamatory
communication, either written or oral, concerning
U.G.M., employees, or its clients.
Sexual harassment or other unlawful harassment
of another employee.
Unauthorized departure from your
department or organization premises.
Disorderly
threatening,
employees.

job,

conduct
including
fighting,
insulting, or abusing other

Acts or language which are considered immoral or
indecent according to traditional biblical
standards as determined by the Board of
Trustees.
Theft or misuse of organization or personal
property.
Gambling on U.G.M. premises.
Unauthorized solicitation of funds or distribution
of literature on U.G.M. time or in working areas.
Possession or use of alcoholic beverages on
company property or appearing for duty under the
influence of alcohol or drugs.
Possession or use of illegal drugs.
Unauthorized personal use of any U.G.M.
property, including U.G.M. telephones.
Possession of explosives, firearms, or weapons of
any type on U.G.M. premises.

163a
Internal Revenue
Service
District Director

Department of the
Treasury

Date: FEB 27, 1998

Person to Contact:
Brett Siereveld
Telephone Number:
513-241-5199
Fax Number:
513-684-5936
Federal Identification
Number
91-0595029

Union Gospel Mission
Assn. of Seattle
Box 202
Seattle, WA 98111-0202

P.O. Box 2508
Cincinnati, OH 45201

Dear Sir or Madam:
This is in response to your request for a letter
affirming your organization’s exempt status.
In November 1943, we issued a determination letter
that recognized your organization as exempt from
federal income tax under section 101(6) of the
Internal Revenue Code of 1939 (now section 501(c)(3)
of the Internal Revenue Code). Your organization is
classified as a publicly supported organization, and
not a private foundation, because it is described in
sections 509(a)(1) and 170(b)(3)(A)(i) of the Code.
Donors may deduct contributions to your organization
as provided in section 170 of the Code. That letter is
still in effect.
As of January 1, 1984, your organization is liable for
taxes under the Federal Insurance Contributions Act
(social security taxes) on remunerations of $100 or
more paid to each of its employees during a calendar
year. Your organization is not liable for the tax

164a
imposed under the Federal Unemployment Tax Act
(FUTA).
If your organization is a church or a qualified churchcontrolled organization as defined in section
3131(w)(3) of the Code, it may elect to exclude the
wages paid to its employees (other than for services
performed in an unrelated trade or business) for
social security taxes. This election must be made by
filing Form 9274 by the day before the date the
organization’s first quarterly employment tax return
would be due under the revised law. If your
organization makes this election, its employees who
earn $100 or more during a calendar year become
liable for the payment of self-employment tax (under
section 1402 of the Code) on the wages the
organization pays them.
Organizations that are not private foundations are
not subject to the excise taxes under Chapter 42 of the
Code. However, these organizations are not
automatically exempt from other federal excise taxes.
Donors may deduct contributions to your organization
as provided in section 170 of the Code. Requests,
legacies, devises, transfers, or gifts to your
organization or for its use are deductible for federal
estate and gift tax purposes if they meet the
applicable provisions of sections 2055, 2106, and 2522
of the Code.
Your organization is not required to file federal
income tax returns unless it is subject to the tax on
unrelated business income under section 511 of the
Code. If your organization is subject to this tax, it
must file an income tax return on Form 990-T,
Exempt Organization Business Income Tax Return.

165a
As this letter could help resolve any questions about
your organization’s exempt and foundation status,
you should keep it with the organization’s permanent
records.
If you have any questions, you may contact us at the
address or telephone number shown in the heading of
this letter.
This letter affirms your organization’s exempt status.
Sincerely,

C. Ashley Bullard
District Director

166a
Internal Revenue
Service

Department of the
Treasury
P.O. Box 2508
Cincinnati, OH 45201

Date: April 24,
2003
Seattles Union
Gospel Mission
Box 202
Seattle, WA
98111-0202

Person to Contact:
Ms. K. Hilson 31-07340
Customer Service
Representative
Toll Free Telephone
Number:
8:00 a.m. to 6:30 p.m.
EST
877-829-5500
Fax Number:
513-263-3756
Federal Identification
Number:
91-0595029

Dear Sir:
This letter is in response the amendment to your
organization’s Articles of Incorporation file with the
state on January 30, 2003. We have updated our
records to reflect the name change as indicated above.
In November 1943 we issued a determination letter
that recognized your organization as exempt from
federal income tax under section 101(6) of the
Internal Revenue Code of 1939 (now section 501(c)(3)
of the Internal Revenue Code). Your organization is
classified as a publicly supported organization, and
not a private foundation, because it is described in
sections 509(a)(1) and 170(b)(1)(A)(i) of the Code.
Donors may deduct contributions to your organization

167a
as provided in section 170 of the Code. That letter is
still in effect.
As of January 1, 1984, your organization is liable for
taxes under the Federal Insurance Contributions Act
(social security taxes) on remunerations of $100 or
more paid to each of its employees during a calendar
year. Your organization is not liable for the tax
imposed under the Federal Unemployment Tax Act
(FUTA).
If your organization is a church or a qualified churchcontrolled organization as defined in section
3121(w)(3) of the Code, it may elect to exclude the
wages paid to its employees (other than for services
performed in an unrelated trade or business) for
social security taxes. This election must be made by
filing Form 8274 by the day before the date the
organization’s first quarterly employment tax return
would be due under the revised law. If your
organization makes this election, its employees who
earn $100 or more during a calendar year become
liable for the payment of self-employment tax (under
section 1402 of the Code) on the wages the
organization pays them.
Organizations that are not private foundations are
not subject to the excise taxes under Chapter 42 of the
Code. However, these organizations are not automatically exempt from other Federal excise taxes.
Donors may deduct contributions to your organization
as provided in section 170 of the Code. Bequests, legacies, devises, transfers, or gifts to your organization
or for its use are deductible for federal estate and gift
tax purposes if they meet the applicable provisions of
sections 2055, 2106, and 2522 of the Code.

168a
Your organization is not required to file federal
income tax returns unless it is subject to the tax on
unrelated business income under section 511 of the
Code. If your organization is subject to this tax, it
must file an income tax return on Form 990-T,
Exempt Organization Business Income Tax Return.
If your organization had a copy of its application for
recognition of exemption on July 15, 1987, the law
requires you to make available for public inspection a
copy of the exemption application, any supporting
documents and the exemption letter to any individual
who requests such documents in person or in writing.
You can charge only a reasonable fee for reproduction
and actual postage costs for the copied materials. The
law does not require you to provide copies of public
inspection documents that are widely available, such
as by posting them on the Internet (World Wide Web).
You may be liable for a penalty of $20 a day for each
day you do not make these documents available for
public inspection.
As this letter could help resolve any questions about
your organization’s exempt and foundation status,
you should keep it with the organization’s permanent
records.
If you have any questions, please call us at the
telephone number shown in the heading of this letter.
This letter affirms your organization’s exempt status.
Sincerely,

John E. Ricketts, Director, TE/GE
Customer Account Services

169a
Excerpts from Christian Legal Society
Recommendations (CP380-90)
[CP380]
Coordinators, Core Groups and Volunteers
The recruitment of lawyers is the most challenging of
the issues involved in setting up a Christian Legal Aid
clinic. The starting point for successful recruitment
comes from the Biblical foundation for this work. A
Christian’s obligation to care about justice for the
poor is manifest through both the Old and New
Testament. Scriptural verses dealing with this
subject are far too numerous for citation here.
Representative, however are the following:
Proverbs 28:27 He who gives to the poor will
lack nothing, but he who closes his eyes to them
receives many curses.
Proverbs 29:7 The righteous care about justice
for the poor, but the wicked have no such concern.
Proverb 31:8-9 Speak up for those who cannot
speak for themselves, for the rights of all who are
destitute. Speak up and judge fairly; defend the
rights of the poor and needy.
Psalms 140-12 I know that the Lord secures
justice for the poor and upholds the cause of the
needy.
Ps. 82:3,4 Vindicate the weak and the fatherless,
do justice to the afflicted and destitute, rescue the
weak and needy, deliver them out of the hand of
the wicked.

170a
Jer. 22:16 He pled the cause of the afflicted and
needy, then it was well.
The phrases instructing that we “defend rights,” “do
justice” and “plead causes” appear to be directed
chiefly to lawyers whose training, experience and
practice is centered upon these concepts.
A compelling argument for the Christian Lawyer’s
responsibility to care about justice for the poor is
made by Christian Legal Society attorney Stephen S.
Duggins of the Chattanooga, Tennessee law firm of
Stophel & Stophel, P.C.:
God does not mince words about the Christian
obligation to provide legal assistance to the
poor. Proverbs 29:7, is painfully blunt: “The
righteous care about justice for the poor, but
the wicked have no such concern.” Given the
complexity of the present American Legal
System, most agree that “justice for the poor”
requires that the poor have access to
competent counsel. While the assistance of
counsel does not guarantee justice, it does
seem to be at least a prerequisite to justice. To
be sure, Proverbs 29:7 also means much more
than that, but that is part of its meaning.
There are numerous scriptural passages
dealing with God’s concern for justice and
with Christian obligations to seek justice.
Proverbs 29:7 is so forceful, and so difficult to
avoid.
*****
[CP382-83]

171a
Testimonies, Reports and Cases in Christian
Legal Aid Clinics
Testimonies of real-life stories are almost always
more convincing and motivating in causing people to
respond to the needs and opportunities than bare
statistics and clinic descriptions, although both are
needed. Try to obtain such real-life experiences from
Christian lawyers, law students and paralegals that
have been involved in serving the poor previously. If
none are available, someof the true events reflected
below may be useful.
Read these accounts as they appear in the
attachment. Ask the rhetorical question: How
fulfilled and excited would you be if you were the
person whom God had used to provide this kind of
help and result in the life of Jim, Tom, or Maria? We
find that lawyers, law students and paralegals in
other Christian legal aid clinics report that their
volunteer services have proved to be some of the most
fulfilling and rewarding experiences of their
professional careers, and that sponsors need and are
most supportive of Christian legal aid services.
Real life experiences
Albuquerque, New Mexico
A somewhat remarkable scene occurred at an
interview office in Albuquerque, New Mexico recently.
Jim, a 42-year-old homeless carpenter addicted to
crack cocaine, was bowing his head and sincerely
praying with a 73-year-old semi-retired volunteer
Christian lawyer to recommit his life to Christ. This
followed a 28-year life of addiction to alcohol and
drugs, a broken marriage, a long history of DUIs and
minor criminal offenses, and unsuccessful attempts at

172a
cures in secular drug rehabilitation programs. Jim
appeared at the office of a drug rehabilitation
program for legal help – that is, advice on what to do
in response to an outstanding bench warrant for his
arrest for violation of a court-ordered alcohol and drug
rehabilitation-counseling program. Addicted to drugs
starting at 14, this father of three teen-age children
with an ex-wife in Houston, Texas, presented a
history of job losses and bouts of homelessness caused
by alcohol and drug problems, a bad temper and
disagreements with job bosses. Committing his life to
Christ at the age of 15, he later left the church after
an angry disagreement with his priest. Now rarely
attending a church and seldom reading his Bible or
praying, Jim seemed an unlikely candidate for being
rehabilitated. But Jim left the interview with advice
concerning his legal problem, a fresh encounter with
God and a resolve and plan to return to God, to begin
to rebuild his life and to try to rejoin his family.
Honolulu, Hawaii
Tom Rulon worked with one young drug addict who,
Rulon says, “came to us in pretty bad shape.” Working
as a waiter on a cruise liner, the young man had
burned out working double shifts. During a port call,
he got drunk and missed the boat. he was fired and
had been living on the streets for about two weeks
before he sought Rulon’s help to get his job back.
Rulon saw that the young man’s needs went far
beyond this particular vocational crisis. For starters,
he was depressed and didn’t know where his life was
going. As Rulon worked to get the waiter rehired
(accomplished by taking his case to a union
representative), he also talked to the man about how
God had an overall plan for his life. The young man

173a
seemed receptive and accepted one of Rulon’s pocket
New Testaments.
Rulon never expected to see the fellow again, but a
few months later Rulon took his family on a seven-day
inner-island cruise. And guess who served as his
waiter? That’s right–the young man whom Rulon had
helped. The rehired waiter was so excited to see Rulon
that he immediately pulled out his dog-eared New
Testament and showed how he had highlighted many
passages. “I’m following Jesus,” the young man said,
“and things are turning out okay. I’m going back to
school.”
*****
[CP390]
The Guidelines
The Biblical commands to lovingly help those afflicted
by poverty also provides us with a great privilege to
share in His compassion for them by assisting in
various legal and other ways.
It is suggested that a basic Christian legal aid clinic
should include:
1. A joint commitment by both the local sponsoring
churches or Christian organizations and of the
Christian Legal Community faithfully and
prayerfully to attempt to carry out the biblical
commands and opportunities to serve legal and
certain spiritual needs of the poor, including
evangelizing them, in a Christ honoring way;
*****

174a
From:

Mace, David

Sent:

Tuesday, October 4, 2016 9:07 AM
*****

Subject: ODLS is hiring!
_________________________________________________
Hello ODLS volunteers, I have exciting news! ODLS
is adding a full time staff attorney position and we are
ready to fill it. If you or anyone you know might be
interested, here is a link to the posting:
https://www.paycomonline.net/v4/ats/index.php?/job/
apply&clientkey=0CC84378EF47065006EC78DC46
A36DA8&job=6258.
Please be praying that we find the right person for the
job! If you have any questions, please don’t hesitate to
contact me.
Thanks!
David Mace
Director - Open Door Legal Services
Seattle’s Union Gospel Mission
206.682.4642
206.903.6504 (fax)
P.O. Box 14165
Seattle, WA 98114
www.opendoorlegalservices.org
www.ugm.org

175a
Staff Attorney, Full-Time
Job Details
Level
Undisclosed
Salary Range
$50,252.00 - $55,401.00 Salary/year
Job Location
Open Door Legal Services [WA, USA]
Travel Percentage
Undisclosed
Position Type
Full Time
Job Shift
Undisclosed
Education Level
Undisclosed
Job Category
Undisclosed
Description
Seattle’s Union Gospel Mission is currently looking
for an Staff Attorney to join the Open Door Legal
Services team in Seattle, WA.
Seattle’s Union Gospel Mission is a private faithbased organization that helps the community to reach
out with compassion to those who have lost hope. And
as a community, we empower one another to build,
lead and give back.
The Staff Attorney is responsible for representing
clients in all of the various legal issues handled by the
Legal Services department, and assisting the Director
of Legal Services with operation and coordination of
the department.

176a
Our Open Door Legal Services team is looking for
its newest member and we think that could be you!
Essential Job Duties
1. Provide legal counsel, referrals, and direct
representation services to clients.
2. Represent clients in court hearings,
administrative hearings, or other legal
proceedings both in person and by telephonic
appearance.
3. Oversee the provision of quality legal services
and education to clients by volunteer
attorneys, law students and paralegals.
4. Conduct client intakes, including initial
interview, conflicts checks, criminal history
checks and licensing checks.
5. When necessary, assist with handling inperson, telephone, and e-mail contact with the
public, clients, volunteers, and donors
efficiently and effectively.
6. Coordinate regularly scheduled legal clinics,
including scheduling of volunteers and
clients, legal advice to clients, and supervision
of attorney volunteers. .
7. Strive to anticipate and proactively assist
with the needs of the department and the
workload of the ODLS Director.
8. Work cooperatively with other Mission
departments as a team to efficiently and
positively accomplish the work of the Mission.

177a
9. Attend all Mission meetings and training
sessions, as required.
10. Any other job-related duties as assigned by
supervisor.
Knowledge, Skills and Abilities
1. The successful candidate will have an active
church/prayer life and demonstrate a strong
desire to serve the Mission by ministering to
those whom it serves.
2. Must agree with Seattle’s Union Gospel
Mission Statement of Faith, Mission and
Vision Statements and have a personal
ethos and work ethic that reflects the
Missions Core Values.
3. Sensitivity to cultural diversity is required.
4. Seattle’s Union Gospel Mission accepts and
encourages the involvement of volunteers at
all levels in the organization. All Mission
employees are expected to assist in the
creation of meaningful and productive roles in
which volunteers might serve in the
organization, and to interact positively and
cooperatively with our volunteers.
5. Ability to successfully pass pre-employment
drug and criminal background screenings.
6. High proficiency with Microsoft Word, Excel,
and Outlook required.
7. Excellent oral and written communication,
grammar, attention to detail, and organizational skills required.

178a
8. Ability to maintain a professional demeanor,
work under pressure and handle sensitive/
difficult situations calmly and effectively
required.
9. Ability to work comfortably with the diverse
clients served by ODLS required.
10. Ability to maintain strict confidentiality
regarding all client/sensitive information and
to strictly comply with the Washington Rules
of Professional Conduct required.
11. Self-motivation, with high standards for
personal work product, and the performance
of ODLS as a whole required.
12. Ability and willingness to work both
independently and within a team setting
required.
13. Ability to successfully pass pre-employment
drug and criminal background screenings.
14. Must support the Legal Services mission
statement: to seek justice for the poor and
minister to the needy through the provision of
legal services, to practice law in a manner
that honors and glorifies God, and to love
others and share the gospel of Jesus Christ.
Qualifications
Physical Requirements
1. Ability to stand, walk or sit for extended
periods of time; bend, stoop or reach.
2. Regularly lift and/or carry up to 40 pounds.
3. Talk

on

telephone

and

use

computer

179a
extensively
Education
Juris Doctor degree and WSBA admission to practice
law required.
Experience
Experience within a legal work setting is preferred.
Minimum of two years of experience in a professional
office environment strongly preferred.
Statement of Faith


We believe the Bible to be the inspired, the
infallible, authoritative Word of God.



We believe that there is one God, eternally
existent in three Persons; Father, Son, and
Holy Spirit.

 We believe in the deity of our Lord Jesus
Christ, in His virgin birth, in His sinless life, in
His miracles, in His vicarious and atoning
death through His shed blood, in His bodily
resurrection, in His ascension to the right hand
of the Father, and in His personal return in
power and glory.
 We believe that for the salvation of lost and
sinful men, regeneration by the Holy Spirit is
absolutely essential.
 We believe in the present ministry of the Holy
Spirit by whose indwelling the Christian is
enabled to live a Godly life.
 We believe in the bodily resurrection of the just
and unjust, the everlasting blessedness of the
saved, and the everlasting conscious
punishment of the lost.

180a
 We believe in the spiritual unity of believers in
Christ.
Mission Statement
To serve, rescue and transform those in greatest need,
through the grace of Jesus Christ.
Vision Statement
To forcefully impact poverty and brokenness,
affecting such significant change that our
communities point to God!
Core Values


Bold and courageous



Diverse brilliance



Passionate urgency



Strategic effectiveness



Pursuit of excellence



Sacred trust

181a
Subject:

RE: ODLS Job Opening

‐‐‐‐‐‐‐‐‐‐ Forwarded message ‐‐‐‐‐‐‐‐‐‐
From: Matt Woods
Date: Thu, Oct 13, 2016 at 11:58 AM
Subject: Re: ODLS Job Opening
To: "Baier, Alissa"
Thanks, Alissa. I’ll certainly get in touch with David.
I appreciate it!
Matt
On Thu, Oct 13, 2016 at 11:56 AM, Baier, Alissa
wrote:
Hey Matt,
Good to see you yesterday! I’m looking through our
intranet site, and I don’t see any actual code of
conduct form that requires signature. But I did find
two sections in the Employee Handbook that you
would want to consider:
STATEMENT OF FAITH
All staff members are required to sign the doctrinal
standard of Seattle’s Union Gospel Mission. All staff
members are expected to live by a Biblical moral code
that excludes extra‐marital affairs, sex outside of
marriage, homosexual behavior, drunkenness, illegal
behavior, use of illegal drugs, and any activity that
would have an appearance of evil.
STANDARDS OF CONDUCT
As stated previously, all staff members are expected

182a
to live by a Biblical moral code which excludes extra‐
marital affairs, sex outside of marriage, homosexual
behavior, drunkenness, illegal behavior, use of illegal
drugs and any activity which would have the
appearance of evil. The following types of conduct are
also not permitted and could result in disciplinary
action up to and including termination. This is not
meant to be a complete list, but will serve as a
guideline for unacceptable behavior.
I recommend emailing or talking to David about your
concerns and see what he thinks. We would love to
have you here at ODLS, but he makes the final call.
Regardless of what happens with the job, you’re
welcome back to volunteer at any time, too.
Best,
Alissa Baier
Attorney - Open Door Legal Services
Seattle’s Union Gospel Mission
206-682-4642
206-903-6504 (fax)
P.O. Box 14165
Seattle, WA 98114
www.ugm.org
From: Matt Woods [mailto ]
Sent: Thursday, October 13, 2016 11:33 AM
To: Baier, Alissa
Subject: Re: ODLS Job Opening
Thanks again for taking some time to chat with me,

183a
Alissa! I’m not having any success finding the Code of
Conduct on the UGM site. If you’re able to locate it,
could you send it my way, or if not, I can ask David if
he’s able to track it down? Thanks!
Matt

184a
From:

Mace, David

Sent:

Friday, October 14, 2016 1:07 PM

To:

Matt Woods

Subject:

RE: ODLS Staff Attorney Opening

_________________________________________________
Hi Matt, it? s good to hear from you! You are correct
that the Mission? s code of conduct excludes
homosexual behavior. Here is the relevant portion of
the employee handbook:
All staff members are required to sign the doctrinal
standard of Seattle? s Union Gospel Mission. All staff
members are expected to live by a Biblical moral code
that excludes extra-marital affairs, sex outside of
marriage, homosexual behavior, drunkenness, illegal
behavior, use of illegal drugs, and any activity that
would have an appearance of evil.
I? m sorry that you won? t be able to apply for the job,
but I would love to catch up with you sometime if you
have time. There have also been a number of other job
openings in the legal services community lately. Let
me know if you would like me to pass along any
relevant opportunities to you as they come up.
David Mace
Director - Open Door Legal Services
Seattle’s Union Gospel Mission
206.682.4642
206.903.6504 (fax)
P.O. Box 14165
Seattle, WA 98114
www.opendoorlegalservices.org
www.ugm.org

185a

From: Matt Woods
[mailto:matt.woods16@gmail.com]
Sent: Thursday, October 13, 2016 12:31 PM
To: Mace, David
Subject: ODLS Staff Attorney Opening
Hi David,
I hope all is well at O DLS! I was glad to get a chance
to catch up with Alissa yesterday and hear about all
of the exciting changes at O DLS, including the new
staff attorney position. I’m certainly being thoughtful
and prayerful about applying because I’ve loved the
opportunities I’ve had getting to be a part of serving
the clients at O DLS.
I wanted to discuss one thing with you before getting
too far into the application process though. My
understanding of the UGM employee statement of
faith and standards of conduct is that they expect
employees to live by a Biblical moral code that
excludes homosexual behavior. I currently have a
boyfriend and can see myself getting married and
starting a family with another man someday. What
are your thoughts on what impact that should have
on pursuing employment at UGM? I appreciate your
time and thoughts!
All the best,
Matt

186a
Application for Staff Attorney, Full-Time
Application Information
Primary
Phone

▀▀▀▀▀

Date Of
11-01-2016
Application

Secondary
Phone

▀▀▀▀▀

Application
64368
ID

Email
Address

▀▀▀▀▀

City, State,
Zip Code

▀▀▀▀▀

Name

Address
Referral
Source

Woods,
Matt S

▀▀▀▀▀

Referral
Name

Education
Type

Institution

Dates
Attended

1

G

University of Washington
School of Law
Seattle WA.

09/20/20
11 To
05/30/20
14

2

U

Seattle Pacific University
Seattle WA.

09/20/20
04 To
06/12/20
08

187a
Attended
As

Major/
Minor

Degree

GPA

Graduated

N/A /
N/A

JD

0.00

Yes

Journali
sm/
English/
Business

BA

0.00

Yes

Employment

1

Employer

Date of
Employment

Job Title/
Pay Rate

U.S.
District
Court

03/01/2015 To
11/01/2016
1 Year/ 8
Months

Social Security
Law Clerk
$65000.00 /yr.

Job
Duties

Can Contact?
(Supervisor)

Reason for
Leaving

Current
Employer

Draft
opinions
in Social
Security
disability
cases.

Yes

N/A

No

(Judge
Richard
Martinez)

188a
References
Name

Company

1

Stephanie Earhart

2

Helenka Koltonowska

3

Andrea Woods

Title

Relationship

Email
Address

Time
Known

Phone

Supervisor

▀▀▀▀▀

4 Years and
0 months

▀▀▀▀▀

Supervisor

▀▀▀▀▀

3 Years and
0 Months

▀▀▀▀▀

Co-law
student

▀▀▀▀▀

6 Years and
0 months

▀▀▀▀▀

Questions
Knockout Questions
1. Can you provide proof of
eligibility to work in the United
States of America?

Answer: Yes

2. Can you provide evidence that
you are legally able to work in
the United States? Please note
that as required by the
immigration reform and control

Answer:

189a
act of 1986, Seattle’s Union
Gospel Mission cannot employ
you unless you can produce work
authorization and identity
documents as specified by law.
3. Can you provide proof that you
are at least 18 years old?

Answer: Yes

4. If offered employment, would
you be willing to submit to
preemployment background and
drug screenings?

Answer: Yes

Global Questions
1. Have you accepted Jesus
Christ as your Lord and Savior?

Answer: Yes

2. Please describe your
relationship with Jesus Christ.

Answer: My
worldview is
shaped by the
ministry of
Jesus Christ,
who teaches
me that social
justice is
critical in a
world where
we have
enough
resources that
no one need go
without their
basic needs,
yet so many
tragically do.

190a
3. Have you carefully read
Seattle’s Union Gospel Mission’s
Statement of Faith, Mission and
Vision Statements, and Core
Values as outlined in the job
posting?

Answer: Yes

4. Have you carefully read
Seattle’s Union Gospel Mission’s
Statement of Faith, Mission and
Vision Statements, and Core
Values as outlined in the job
posting?

Answer:

5. Do you agree without
reservation with Seattle’s Union
Gospel Mission’s Statement of
Faith, Mission and Vision
Statements, and Core Values as
outlined in the job posting?

Answer: Yes

6. Do you agree without
reservation with Seattle’s Union
Gospel Mission’s Statement of
Faith, Mission and Vision
Statements, and Core Values as
outlined in the job posting?

Answer:

7. If not, with which statements
do your personal beliefs differ?

Answer:

8. Because Seattle’s Union
Gospel Mission is an
interdenominational Christian
organization, would you be
willing to work and cooperate
with other Christians whose

Answer: Yes

191a
doctrine may be different than
your own?
9. Because Seattle’s Union
Gospel Mission is an
interdenominational Christian
organization, would you be
willing to work and cooperate
with other Christians whose
doctrine may be different than
your own?

Answer:

10. Are you currently active in a
local church?

Answer: No

11. If yes, what is the name of
your church and what city is it
located in?

Answer:

12. What is your Pastor’s name
and contact information?

Answer: N/A

13. What is your Pastor’s name
and contact information?

Answer:

14. If you are not currently active Answer: I
in a local church, please explain
consider my
why.
church to be
the weekly
Bible study in
which I
participate
with about
eight other
men.
15. Are you currently eligible to
work in the United States?

Answer: Yes

192a
16. Can you provide evidence
that you are legally able to work
in the United States? Please note
that as required by the
immigration reform and control
act of 1986, Seattle’s Union
Gospel Mission cannot employ
you unless you can produce work
authorization and identity
documents as specified by law.

Answer: Yes

17. If applicable for this position,
do you meet the Mission Driver
Criteria?

Answer: Yes

18. Are you still currently
employed?

Answer: Yes

19. Have you ever been employed
with us before?

Answer: No

20. If yes, please tell us when
and where.

Answer:

21. Have you ever volunteered
with Seattle’s Union Gospel
Mission?

Answer: Yes

22. Have you ever volunteered
with Seattle’s Union Gospel
Mission?

Answer:

23. If yes, please tell us where
and the name of a volunteer
reference.

Answer: Open
Door Legal
Services –
David Mace

193a
24. Do you have any relatives
who are currently employed by
Seattle’s Union Gospel Mission?

Answer: No

25. Do you have any relatives
who are currently employed by
Seattles Union Gospel Mission?

Answer:

26. If yes, please list their
name(s) and department(s).

Answer:

27. Are you a past or present
volunteer intern through a
Mission Graduate Internship,
Christian Service Internship, or
Serve Seattle Internship
program? If yes, please list dates
of involvement and most recent
program supervisor.

Answer:

28. Are you currently
participating in Mission program
housing?

Answer:

29. What job status/shift are you
looking for?

Answer: Full
Time

30. What wage/salary are you
looking for?

Answer: 50000
- 55000

31. When are you available for
employment?

Answer:
11-21-2016

32. If no, what accommodation, if
any, would be needed for you to
perform the essential job
functions?

Answer:

194a
33. Highest Level of Education
Completed

Answer:
Graduate
School/Master’s

34. Can you perform the
essential job functions with or
without reasonable
accommodation?

Answer: Yes

35. If no, what accommodation, if
any, would be needed for you to
perform the essential job
functions?

Answer:

36. How did you hear about this
position?

Answer: Union
Gospel Mission
Website

37. If “Other” please specify:

Answer:

38. If “Other” please specify:

Answer:

Statement
Acknowledged Yes
Signature Matt S Woods [11/01/2016]

195a
MATT WOODS
▀▀▀▀▀▀▀▀▀▀▀▀ │▀▀▀▀▀▀▀▀▀▀ │WSBA #48120
November 1, 2016
Open Door Legal Services
Seattle’s Union Gospel Mission
318 2nd Ave. Ext. S
Seattle, WA 98104
To Whom It May Concern,
As a former legal intern and volunteer attorney at
Open Door Legal Services, I consider the opportunity
to be a staff attorney at Open Door to be a dream job.
I understand that the Union Gospel Mission’s
employee code of conduct holds that all staff members
are expected to live by a Biblical moral code that
excludes, among other things, homosexual behavior.
As a bisexual man who is open to the idea of marrying
and starting a family with another man, I am
therefore excluded from employment. As a Christian,
I firmly believe that a change in that policy would
benefit the organization’s mission to serve, rescue,
and transform those in greatest need through the
grace of Jesus Christ.
Discrimination based on sexual orientation in public
employment has been prohibited in Washington since
1991 by an executive order of Governor Booth
Gardner. The Washington Law Against Discrimination, enacted in 2006, extended that prohibition
against discrimination to private employers of eight
or more employees. While the Union Gospel Mission
may enjoy exemption from that law as a religious
nonprofit organization, I ask that this be an

196a
opportunity to evaluate the purpose behind those
protections.
Diversity in employment is important because
members of minority cultures are uniquely situated
to be able to see where the general culture fails its
most vulnerable members. I am not a good legal aid
attorney in spite of my sexuality; I am a good legal aid
attorney because of my sexuality. The richness of
perspective that I have to offer because of my minority
experience helps me empathize with and serve the
oppressed in a way that others who have not shared
my experience cannot.
I appreciate your willingness to evaluate what is at
stake by adhering to a policy that excludes certain
members of society from participating in your
important
ministry.
Thank
you
for
your
consideration.
Sincerely,

Matt Woods

197a
Mace, David
Wednesday, November 9, 2016 10:15
AM
To:
Matt Woods
Subject:
FW: KCBA Staff Attorney Position
Opening
Attachments: Project Safety Staff Attorney-Job
Description-.pdf
_________________________________________________
From:
Sent:

Hi Matt, here’s a new job posting I thought you might
be interested in. Also, I’m going to need to reschedule
our meeting. I need to pick my daughter up from
school tomorrow, so I’m going to be working from
home. Do you have any openings in your schedule
next week? I’m free for lunch any day but Monday.
David Mace
Director - Open Door Legal Services
Seattle’s Union Gospel Mission
206.682.4642
206.903.6504 (fax)
P.O. Box 14165
Seattle, WA 98114
www.opendoorlegalservices.org
www.ugm.org
From: Judy Lin [mailto:JudyL@kcba.org]
Sent: Wednesday, November 9, 2016 10:01 AM
To: ATJ Community
Subject: [atj-community] KCBA Staff Attorney
Position Opening
Dear Colleagues,
KCBA is hiring for a VOCA-funded staff attorney
position. Please distribute the attached job
announcement to anyone who might be interested.

198a
Thank you!
Judy Lin
Senior Managing Attorney, Family Law Pro Bono
Programs
King County Bar Association
1200 Fifth Avenue, Suite 700
Seattle, WA 98101
206-267-7023
JudyL@kcba.org
www.kcba.org
CONNECTwithKCBA

199a

SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY
MATTHEW WOODS, an
individual,
Plaintiff,
vs.
SEATTLE’S UNION
GOSPEL MISSION, a
Washington nonprofit,
Defendant.

NO. 17-2-29832-8
SEA
DECLARATION OF
ALISSA BAIER IN
SUPPORT OF
DEFENDANT’S
MOTION FOR
SUMMARY
JUDGMENT

I, Alissa Baier, declare as follows:
1. I am over the age of 18, competent to testify
to the matters stated herein and make this
declaration based upon my personal knowledge.
2. I have been a staff attorney at Seattle’s Union
Gospel Mission’s Open Door Legal Services since
January 11, 2013.
3. My job duties as a Mission employee include
not only providing legal assistance and advice to my
clients, but spiritual guidance. I am encouraged to
love and show compassion for them as my neighbors,
to talk openly about my faith, to ask my clients about

200a
their own religious beliefs, to pray with them in our
meetings, and to explicitly tell them about Jesus and
the Gospel. For example, when I work with a client on
their family law matters, my faith strongly influences
our discussion about their decisions whether or not to
reconcile with a spouse or to file for divorce, how to
parent their children, how to forgive abusers, and
other difficult relationship issues. My faith also
informs my immigration work. I am able to explain
the Christian concepts of redemption and new life
when I assist victims of domestic violence with U visa
or VAWA petitions, which allow them to gain legal
immigration status out of the horrible things that
they once experienced. Furthermore, I have built a
practice that includes asylum applications for
Christians who have been persecuted in their home
countries, and discussing our faith and religious
practices is essential to preparing their cases.
Overall, my legal work at ODLS is intricately
intertwined with my spiritual ministry to our clients,
and my personal relationship with Jesus is essential
to this job.
4. I would describe the Plaintiff, Matthew
Woods, as a colleague and friend. We knew each other
in undergraduate school at Seattle Pacific University,
where we took classes in the same department and
both served as staff editors for the student
newspaper. We also developed a friendship as he
volunteered at ODLS both during his last two years
of law school and after his graduation from law school.
5. In October 2016, Mr. Woods emailed me about
an open staff attorney position at ODLS (my former
position, as I had recently moved into a new
immigration attorney position). We met for coffee on

201a
October 12, 2016. Mr. Woods asked me about my
comfort level with the Mission’s policies and
expectations for employees and whether any of it
bothered my conscience or my personal Christian
beliefs and practices. I told him no. Eventually he
disclosed to me that he was in a same-sex relationship
and raised the prospect of whether it would be
awkward, for example, to bring his male partner to a
Mission Christmas Party. I explained that, while
Mission volunteers are only asked to sign a Statement
of Faith, Mission employees are also expected to sign
a Code of Conduct regarding various behavioral
expectations, including a prohibition of certain
romantic and sexual relationships. I told him that I
did not remember the language specifically, but I
could try to find a copy for him. I also advised that he
speak directly with David Mace, the 0DlS director.
Until that October 12, 2016 discussion, I was not
aware of Mr. Woods’ sexual orientation. I did not
learn that he identified specifically as bi-sexual until
I read local news media’s coverage about this lawsuit
in November 2017.
6. Exhibit 1 is a true and correct copy of an email
exchange between Mr. Woods and myself surrounding
that October 12 meeting.
I declare under penalty of perjury under the laws
of the State of Washington that the foregoing is true
and correct.
SIGNED this 16th day of May, 2018, at Seattle,
Washington.

Ala.Code § 25-122
Alaska Stat. §
18.80.210

Ariz. Rev. Stat.
§ 41-1463

Ala.

Alaska

Ariz.

State

Employment
NonDiscrimination
Law

No

No

No

Ariz. Rev. Stat.
§ 41-1462

Alaska Stat. §
18.80.300(5)

n/a

Sexual
Orientation Religious
Protected
Exemption
Class

Does not apply "to a
religious corporation,
association, educational
institution or society
with respect to the
employment of

Definition of "employer"
excludes a "religious
association or corporation"
that is "is not organized for
private profit"

Age is the only protected
class

Provision

50 State Survey of Religious Exemptions

202a

Ark.

State

Ark. Code Ann.
§ 16-123-107

Employment
NonDiscrimination
Law

No

Ark Code Ann.
§ 16-123-103(a)

Sexual
Orientation Religious
Protected
Exemption
Class

"The provisions of this
subchapter relating to
employment shall not be
applicable with respect
to employment by a
religious corporation,
association, society, or
other religious entity."

individuals of a
particular religion to
perform work connected
with the carrying on by
such corporation,
association, educational
institution or society of
its activities"

Provision

203a

Cal. Gov. Code
§ 12940

Colo. Rev. Stat.
§ 24-34-402

Cal.

Colo.

State

Employment
NonDiscrimination
Law

Yes

Yes

Colo. Rev. Stat.
§ 24-34-402(6)

Cal. Gov. Code
§ 12926(d)

Sexual
Orientation Religious
Protected
Exemption
Class

"[T]his section shall not
apply to a religious
corporation, association,
educational institution,
or society with respect to
the employment of
individuals of a
particular religion to
perform work connected
with the carrying on by
such corporation,

"'Employer' does not
include a religious
association or
corporation not
organized for private
profit."

Provision

204a

Conn.

State

Conn. Gen.
Stat. § 46a-81c

Employment
NonDiscrimination
Law

Yes

Conn. Gen.
Stat. § 46a-81p

Sexual
Orientation Religious
Protected
Exemption
Class

Does "not apply to a
religious corporation,
entity, association,
educational institution
or society with respect to
the employment of
individuals to perform
work connected with the
carrying on by such
corporation, entity,
association, educational
institution or society of
its activities, or with
respect to matters of

association, educational
institution, or society of
its activities."

Provision

205a

Del.

State

Del. Code Ann.
tit. 19, § 711

Employment
NonDiscrimination
Law

Yes

discipline, faith, internal
organization or
ecclesiastical rule,
custom or law which are
established by such
corporation, entity,
association, educational
institution or society."

Provision

Del. Code Ann. "The term 'employer'
Tit. 19, § 710(7) with respect to
discriminatory practices
based upon sexual
orientation or gender
identity does not include
religious corporations,
associations or societies
whether supported, in

Sexual
Orientation Religious
Protected
Exemption
Class

206a

State

Employment
NonDiscrimination
Law
Sexual
Orientation Religious
Protected
Exemption
Class

whole or in part, by
government
appropriations, except
where the duties of the
employment or
employment opportunity
pertain solely to
activities of the
organization that
generate unrelated
business taxable income
subject to taxation under
§ 511(a) of the Internal
Revenue Code of 1986
[26 U.S.C. § 511(a)]."

Provision

207a

Fla.

State

Fla. Stat. §
760.10

Employment
NonDiscrimination
Law

No

Fla. Stat. §
760.10(9)

Sexual
Orientation Religious
Protected
Exemption
Class

"This section shall not
apply to any religious
corporation, association,
educational institution,
or society which
conditions opportunities
in the area of
employment or public
accommodation to
members of that
religious corporation,
association, educational
institution, or society or
to persons who subscribe
to its tenets or beliefs.
This section shall not
prohibit a religious
corporation, association,

Provision

208a

Ga.

State

Ga. Code Ann.
§ 45-19-29

Employment
NonDiscrimination
Law

No

Ga. Code Ann.
§ 45-19-34

Sexual
Orientation Religious
Protected
Exemption
Class

"It is not an unlawful
practice for an employer
to hire and employ
employees or to select an
individual in any

educational institution,
or society from giving
preference in
employment to
individuals of a
particular religion to
perform work connected
with the carrying on by
such corporations,
associations, educational
institutions, or societies
of its various activities."

Provision

209a

Haw.

State

Haw. Rev.
Stat. § 378-3(5)

Sexual
Orientation Religious
Protected
Exemption
Class

Haw. Rev. Stat. Yes
§ 378-2

Employment
NonDiscrimination
Law

Does not "[p]rohibit or
prevent any religious or
denominational
institution or
organization, or any

training program on the
basis of religion or
national origin in those
certain instances where
religion or national
origin is a bona fide
occupational
qualification reasonably
necessary to the normal
functions of that
particular employer's
responsibilities."

Provision

210a

State

Employment
NonDiscrimination
Law
Sexual
Orientation Religious
Protected
Exemption
Class

organization operated for
charitable or educational
purposes, that is
operated, supervised, or
controlled by or in
connection with a
religious organization,
from giving preference to
individuals of the same
religion or denomination
or from making a
selection calculated to
promote the religious
principles for which the
organization is
established or
maintained"

Provision

211a

Idaho Code §
67-5909

775 Ill. Comp.
Stat. 5/1-102 &
5/2-102

Idaho

Ill.

State

Employment
NonDiscrimination
Law

Yes

No

775 Ill. Comp.
Stat. 5/2101(B)(2)

Idaho Code §
67-5910(1)

Sexual
Orientation Religious
Protected
Exemption
Class

"'Employer' does not
include any place of
worship, religious
corporation, association,
educational institution,

"This chapter does not
apply to a religious
corporation, association,
or society with respect to
the employment of
individuals of a
particular religion to
perform work connected
with the carrying on by
the corporation,
association, or society of
its religious activities."

Provision

212a

State

Employment
NonDiscrimination
Law
Sexual
Orientation Religious
Protected
Exemption
Class

society, or non-profit
nursing institution
conducted by and for
those who rely upon
treatment by prayer
through spiritual means
in accordance with the
tenets of a recognized
church or religious
denomination with
respect to the
employment of
individuals of a
particular religion to
perform work connected
with the carrying on by
such place of worship,
corporation, association,

Provision

213a

Ind.

State

Ind. Code § 229-1-2

Employment
NonDiscrimination
Law

No

Ind. Code 22-91-3(h)(1)-(2)

Sexual
Orientation Religious
Protected
Exemption
Class

"'Employer' ... does not
include: (1) any nonprofit
corporation or
association organized
exclusively for fraternal
or religious purposes;
[or] (2) any school,
educational, or
charitable religious
institution owned or
conducted by or affiliated
with a church or
religious institution"

educational institution,
society or non-profit
nursing institution of its
activities."

Provision

214a

Iowa

State

Iowa Code §
216.6

Employment
NonDiscrimination
Law

Yes

Iowa Code §
216.6(6)(d)

Sexual
Orientation Religious
Protected
Exemption
Class

Does not apply to "[a]ny
bona fide religious
institution or its
educational facility,
association, corporation,
or society with respect to
any qualifications for
employment based on
religion, sexual
orientation, or gender
identity when such
qualifications are related

Provision

215a

Kan.

State

to a bona fide religious
purpose."

Provision

Kan. Stat. § 44- "'Employer' … shall not
1002(b) & (i)
include a nonprofit
fraternal or social
association or
corporation." The term
"[u]nlawful
discriminatory practice
… shall not apply to a
religious or private
fraternal and benevolent
association or
corporation."

Sexual
Orientation Religious
Protected
Exemption
Class

Kan. Stat. § 44- No
1009

Employment
NonDiscrimination
Law

216a

Ky.

State

Provision

Ky. Rev. Stat. § "[I[t is not an unlawful
344.090(1) &
practice for: (1) An
(2)
employer to hire and
employ employees … on
the basis of his religion
or national origin in
those certain instances
where religion or
national origin is a bona
fide occupational
qualification reasonably
necessary to the normal
operation of that
particular business or
enterprise. (2) A
religious corporation,
association, or society to
employ an individual on

Sexual
Orientation Religious
Protected
Exemption
Class

Ky. Rev. Stat. § No
344.040

Employment
NonDiscrimination
Law

217a

La.

State

La. Stat. §
23:332

Employment
NonDiscrimination
Law

No

La. Stat. §
23:332(H)(1)

Sexual
Orientation Religious
Protected
Exemption
Class

"[I]t shall not be
unlawful discrimination
in employment for: (1)
An employer to hire and
employ employees ... on
the basis of his religion,
sex, or national origin in
those certain instances
where religion, sex, or
national origin is a bona

the basis of his religion
to perform work
connected with the
carrying on by such
corporation, association,
or society of its religious
activity."

Provision

218a

Me.

State

5 Me. Stat. §
4571 & 4572

Employment
NonDiscrimination
Law

Yes

5 Me. Stat. §
4553(4)

Sexual
Orientation Religious
Protected
Exemption
Class

“'Employer' does not
include a religious or
fraternal corporation or
association, not
organized for private
profit and in fact not
conducted for private
profit, with respect to
employment of its
members of the same
religion, sect or

fide occupational
qualification reasonably
necessary for the normal
operation of that
particular business or
enterprise."

Provision

219a

Md.

State

Md. Code,
State Gov. §
20-606

Employment
NonDiscrimination
Law

Yes

Md. Code,
State Gov. §
20-605(a)(1)

Sexual
Orientation Religious
Protected
Exemption
Class

fraternity, except for
purposes of disabilityrelated discrimination
...."
"[T]his subtitle does not
prohibit: (1) an employer
from hiring and
employing employees …
on the basis of the
individual's sex, age,
religion, national origin,
or disability, if sex, age,
religion, national origin,
or disability is a bona
fide occupational
qualification reasonably
necessary to the normal

Provision

220a

Mass.

State

Mass. Gen.
Laws ch. 151B,
§4

Employment
NonDiscrimination
Law

Yes

Mass. Gen.
Laws ch. 151B,
§4(18)

Sexual
Orientation Religious
Protected
Exemption
Class

"[N]othing herein shall
be construed to bar any
religious or
denominational
institution or
organization, or any
organization operated for
charitable or educational
purposes, which is
operated, supervised or
controlled by or in
connection with a
religious organization,

operation of that
business or enterprise"

Provision

221a

State

Employment
NonDiscrimination
Law
Sexual
Orientation Religious
Protected
Exemption
Class

from limiting admission
to or giving preference to
persons of the same
religion or denomination
or from taking any action
with respect to matters
of employment,
discipline, faith, internal
organization, or
ecclesiastical rule,
custom, or law which are
calculated by such
organization to promote
the religious principles
for which it is
established or
maintained."

Provision

222a

Mich.

State

Mich. Comp.
Laws §
37.2202

Employment
NonDiscrimination
Law

No

Mich. Comp.
Laws § 37.2208

Sexual
Orientation Religious
Protected
Exemption
Class

"A person subject to this
article may apply to the
commission for an
exemption on the basis
that religion … is a bona
fide occupational
qualification reasonably
necessary to the normal
operation of the business
or enterprise…. An
employer may have a
bona fide occupational
qualification on the basis
of religion ... without
obtaining prior
exemption from the
commission ...."

Provision

223a

Minn. Stat. §
363A.08

Miss. Code §
25-9-149

Minn.

Miss.

State

Employment
NonDiscrimination
Law

No

Yes

n/a

Minn. Stat. §
363A.20

Sexual
Orientation Religious
Protected
Exemption
Class

Law applies only to state
employment.

"The provisions of
section 363A.08 shall not
apply to a religious or
fraternal corporation,
association, or society,
with respect to
qualifications based on
religion or sexual
orientation, when
religion or sexual
orientation shall be a
bona fide occupational
qualification for
employment."

Provision

224a

Mont. Code
No
Ann. § 49-2-303

Mont.

No

Mo. Rev. Stat.
§ 213.055

Mont. Code
Ann. § 49-2101(11)

Mo. Rev. Stat.
§ 213.010(8)

Sexual
Orientation Religious
Protected
Exemption
Class

Mo.

State

Employment
NonDiscrimination
Law

"'Employer' means an
employer of one or more
persons or an agent of
the employer but does
not include a fraternal,
charitable, or religious
association or
corporation if the
association or
corporation is not
organized either for
private profit or to

"'Employer' … does not
include corporations and
associations owned or
operated by religious or
sectarian organizations."

Provision

225a

Neb.

State

Neb. Rev. St. §
48-1104

Employment
NonDiscrimination
Law

No

Neb. Rev. St. §
48-1103(1)

Sexual
Orientation Religious
Protected
Exemption
Class

Act does not apply to "[a]
religious corporation,
association, or society
with respect to the
employment of
individuals of a
particular religion to
perform work connected
with the carrying on by
such corporation,
association, or society of
its religious activities"

provide accommodations
or services that are
available on a
nonmembership basis."

Provision

226a

Nev. Rev. Stat.
§ 613.330

N. H. Rev.
Stat. § 354-A:7

Nev.

N.H.

State

Employment
NonDiscrimination
Law

Yes

Yes

N. H. Rev.
Stat. § 354A:18

Nev. Rev. Stat.
§ 613.320(1)(b)

Sexual
Orientation Religious
Protected
Exemption
Class

"Nothing contained in
this chapter shall be
construed to bar any
religious or
denominational
institution or
organization, or any

Does not apply to "[a]ny
religious corporation,
association or society
with respect to the
employment of
individuals of a
particular religion to
perform work connected
with the carrying on of
its religious activities."

Provision

227a

State

Employment
NonDiscrimination
Law
Sexual
Orientation Religious
Protected
Exemption
Class

organization operated for
charitable or educational
purposes, which is
operated, supervised or
controlled by or in
connection with a
religious organization,
from limiting admission
to or giving preference to
persons of the same
religion or denomination
or from making such
selection as is calculated
by such organization to
promote the religious
principles for which it is
established or
maintained."

Provision

228a

N.J.

State

N.J. Rev. Stat.
§ 10:5-12

Employment
NonDiscrimination
Law

Yes

N.J. Rev. Stat.
§ 10:5-12(a)

Sexual
Orientation Religious
Protected
Exemption
Class

"[I]t shall not be an
unlawful employment
practice ... for a religious
association or
organization to utilize
religious affiliation as a
uniform qualification in
the employment of
clergy, religious teachers
or other employees
engaged in the religious
activities of the
association or

Provision

229a

N.M.

State

N.M. Stat.
Ann. § 28-1-7

Employment
NonDiscrimination
Law

Yes

N.M. Stat.
Ann. § 28-19(B)

Sexual
Orientation Religious
Protected
Exemption
Class

organization, or in
following the tenets of its
religion in establishing
and utilizing criteria for
employment of an
employee"
Does not "bar any
religious or
denominational
institution or
organization that is
operated, supervised or
controlled by or that is
operated in connection
with a religious or
denominational
organization from
imposing discriminatory

Provision

230a

N.Y.

State

N.Y. Exec. Law
§ 296

Employment
NonDiscrimination
Law

Yes

N.Y. Exec. Law
§ 296(11)

Sexual
Orientation Religious
Protected
Exemption
Class

"Nothing contained in
this section shall be
construed to bar any
religious or
denominational
institution or
organization, or any
organization operated for
charitable or educational
purposes, which is
operated, supervised or
controlled by or in
connection with a

employment or renting
practices that are based
upon sexual orientation
or gender identity"

Provision

231a

State

Employment
NonDiscrimination
Law
Sexual
Orientation Religious
Protected
Exemption
Class

religious organization,
from limiting
employment or sales or
rental of housing
accommodations or
admission to or giving
preference to persons of
the same religion or
denomination or from
taking such action as is
calculated by such
organization to promote
the religious principles
for which it is
established or
maintained."

Provision

232a

N.C. Gen. Stat.
§ 143-422.2

N.D. Cent.
Code § 14-02.403

N.C.

N.D.

State

Employment
NonDiscrimination
Law

No

No

N.D. Cent.
Code § 14-02.408

None

Sexual
Orientation Religious
Protected
Exemption
Class

"[I]t is not a
discriminatory practice
for an employer to fail or
refuse to hire and
employ an individual for
a position, to discharge
an individual from a
position ... on the basis of
religion, sex, national
origin, physical or
mental disability, or
marital status in those
circumstances where

Provision

233a

Ohio

State

Ohio Rev. Code
Ann. § 4112.02

Employment
NonDiscrimination
Law

No

Ohio Rev. Code
Ann. §
4112.02(O)

Sexual
Orientation Religious
Protected
Exemption
Class

"This section does not
apply to a religious
corporation, association,
educational institution,
or society with respect to
the employment of an
individual of a particular

religion, sex, national
origin, physical or
mental disability, or
marital status is a bona
fide occupational
qualification reasonably
necessary to the normal
operation of that
particular business or
enterprise"

Provision

234a

Okla.

State

Okla. Stat. tit
25, § 1302

Employment
NonDiscrimination
Law

No

Okla Stat. tit.
25, § 1307

Sexual
Orientation Religious
Protected
Exemption
Class

religion to perform work
connected with the
carrying on by that
religious corporation,
association, educational
institution, or society of
its activities."
"This chapter[] does not
apply to a religious
corporation, association,
or society with respect to
the employment of
individuals of a
particular religion to
perform work connected
with the carrying on by
the corporation,

Provision

235a

Or.

State

Or. Rev. Stat. §
659A.030

Employment
NonDiscrimination
Law

Yes

Or. Rev. Stat. §
659A.006(5)(c)

Sexual
Orientation Religious
Protected
Exemption
Class

"It is not an unlawful
employment practice for
a bona fide church or
other religious
institution to take any
employment action based
on a bona fide religious
belief about sexual
orientation: … (c) In
other employment
positions that involve
religious activities, as
long as the employment

association, or society of
its religious activities."

Provision

236a

Pa.

State

43 Pa. Cons.
Stat. § 955

Employment
NonDiscrimination
Law

No

43 Pa. Cons.
Stat. § 955(10)

Sexual
Orientation Religious
Protected
Exemption
Class

involved is closely
connected with or related
to the primary purposes
of the church or
institution and is not
connected with a
commercial or business
activity that has no
necessary relationship to
the church or
institution."
"Nothing in this clause
shall bar any religious or
denominational
institution or
organization or any
charitable or educational
organization which is

Provision

237a

State

Employment
NonDiscrimination
Law
Sexual
Orientation Religious
Protected
Exemption
Class

operated, supervised or
controlled by or in
connection with a
religious organization ...
from giving preference to
persons of the same
religion or denomination
... or from making such
selection as is calculated
by such organization to
promote the religious
principles or the aims,
purposes or fraternal
principles for which it is
established or
maintained."

Provision

238a

R.I. Gen. Laws
§ 28-5-7

S.C. Code § 113-80

R.I.

S.C.

State

Employment
NonDiscrimination
Law

No

Yes

S.C. Code § 113-80(I)(5)

R.I. Gen.Laws
§ 28-5-6(8)(ii)

Sexual
Orientation Religious
Protected
Exemption
Class

"This chapter does not
apply to a religious
corporation, association,
educational institution,
or society with respect to
the employment of

"'Employer'" does not
include "a religious
corporation, association,
educational institution,
or society with respect to
the employment of
individuals of its religion
to perform work
connected with the
carrying on of its
activities."

Provision

239a

S.D.

State

S.D. Codified
Laws § 20-1310

Employment
NonDiscrimination
Law

No

S.D. Codified
Laws § 20-1318

Sexual
Orientation Religious
Protected
Exemption
Class

Does "not apply to any
bona fide religious
institution with respect
to any qualifications for
employment based on
religion when such
qualifications are related
to a bona fide religious
purpose."

individuals of a
particular religion to
perform work connected
with the carrying on by
the corporation,
association, educational
institution, or society of
its activities."

Provision

240a

Tenn.

State

Tenn. Code
Ann. § 4-21405

Sexual
Orientation Religious
Protected
Exemption
Class

Tenn. Code
No
Ann. § 4-21-401

Employment
NonDiscrimination
Law

"This chapter shall not
apply to religious
corporations,
associations, educational
institutions, or societies,
with respect to the
employment of
individuals of a
particular religion to
perform work connected
with the carrying on by
the corporation,
association, educational

Provision

241a

Tex.

State

Tex. Labor
Code § 21.051

Employment
NonDiscrimination
Law

No

Tex. Labor
Code § 21.109

Sexual
Orientation Religious
Protected
Exemption
Class

"""(a) A religious
corporation, association,
society, or educational
institution or an
educational organization
operated, supervised, or
controlled in whole or in
substantial part by a
religious corporation,
association, or society
does not commit an
unlawful employment
practice by limiting

institution, or society, of
its religious activities."

Provision

242a

State

Employment
NonDiscrimination
Law
Sexual
Orientation Religious
Protected
Exemption
Class

employment or giving a
preference to members of
the same religion.
(b) Subchapter B[] does
not apply to the
employment of an
individual of a particular
religion by a religious
corporation, association,
or society to perform
work connected with the
performance of religious
activities by the
corporation, association,
or society."""

Provision

243a

Utah

State

Utah Code §
34A-5-106

Employment
NonDiscrimination
Law

Yes

Provision

Utah Code §
“'Employer' does not
34A-5-102(1)(ii) include: (A) a religious
organization, a religious
corporation sole, a
religious association, a
religious society, a
religious educational
institution, or a religious
leader, when that
individual is acting in
the capacity of a
religious leader; (B) any
corporation or
association constituting
an affiliate, a wholly
owned subsidiary, or an
agency of any religious
organization, religious

Sexual
Orientation Religious
Protected
Exemption
Class

244a

Vt.

State

Vt. Stat. Ann.
21, § 495

Employment
NonDiscrimination
Law

Yes

Vt. Stat. Ann.
21, § 495(e)

Sexual
Orientation Religious
Protected
Exemption
Class

"The provisions of this
section prohibiting
discrimination on the
basis of sexual
orientation and gender
identity shall not be
construed to prohibit or
prevent any religious or
denominational
institution or
organization, or any
organization operated for
charitable or educational

corporation sole,
religious association, or
religious society"

Provision

245a

State

Employment
NonDiscrimination
Law
Sexual
Orientation Religious
Protected
Exemption
Class

purposes, that is
operated, supervised, or
controlled by or in
connection with a
religious organization,
from giving preference to
persons of the same
religion or denomination
or from taking any action
with respect to matters
of employment that is
calculated by the
organization to promote
the religious principles
for which it is
established or
maintained."

Provision

246a

Va. Code Ann.
§ 2.2-3905

Wash. Rev.
Code §
49.60.180

Va.

Wash.

State

Employment
NonDiscrimination
Law

Yes

Yes

Wash. Rev.
Code §
49.60.040(11)

Va. Code Ann.
§ 2.2-3905(E)

Sexual
Orientation Religious
Protected
Exemption
Class

“'Employer' includes any
person acting in the
interest of an employer,
directly or indirectly,
who employs eight or
more persons, and does
not include any religious

"The provisions of this
section shall not apply to
the employment of
individuals of a
particular religion by a
religious corporation,
association, educational
institution, or society to
perform work associated
with its activities."

Provision

247a

W.Va.

State

W. Va. Code §
5-11-9

Employment
NonDiscrimination
Law

No

W. Va. Code R.
§ 77-3-7.3

Sexual
Orientation Religious
Protected
Exemption
Class

"The employment
discrimination provisions
in these rules do not
apply to a religious
corporation, association,
educational institution,
or society with respect to
the employment of
individuals of a
particular religion to
perform work connected
with the carrying on by
such corporation,

or sectarian organization
not organized for private
profit."

Provision

248a

Wis.

State

Wis. Stat. §
111.321

Employment
NonDiscrimination
Law

No

Wis. Stat. §
111.337(2)(am)

Sexual
Orientation Religious
Protected
Exemption
Class

association, educational
institution, or society of
its religious and religionrelated activities. This
exemption does not
protect those activities of
a religious institution
that are for all practical
purposes devoid of
religious content and
meaning."
"[I]t is not employment
discrimination because
of creed: ... (am) For a
religious association not
organized for private
profit or an organization
or corporation which is

Provision

249a

State

Employment
NonDiscrimination
Law
Sexual
Orientation Religious
Protected
Exemption
Class

primarily owned or
controlled by such a
religious association to
give preference to an
applicant or employee
who adheres to the
religious association's
creed, if the job
description demonstrates
that the position is
clearly related to the
religious teachings and
beliefs of the religious
association."

Provision

250a

Wyo.

State

Wyo. Stat. §
27-9-105

Employment
NonDiscrimination
Law

No

Wyo. Stat. §
27-9-102(b)

Sexual
Orientation Religious
Protected
Exemption
Class

“'Employer' ... does not
mean religious
organizations or
associations."

Provision

251a

